                     A Message from the
                     Inspector General
                     A Crucial Time to Recommit to Our Role

                     C
                               orporate scandals such as we have witnessed lately dot America’s
                               landscape and remind us of the dire need for the work performed
                               by inspectors general and others in oversight roles. Whether it is
                     the federal government or the private sector, organizations need indepen-
                     dent oversight to help them prosper through sound business practices and
KARLA W. CORCORAN    basic integrity.
 Inspector General         Perhaps some of us in oversight positions may have been disheartened
                     over the years by an apparent lack of respect or appreciation for our jobs
                     often demonstrated by others. Well, it is obviously time for us to be proud
                     of our role in helping keep America on its feet. In fact, never have we been
                     more needed than we are right now!
                            We at the U.S. Postal Service Office of Inspector General are playing
                     a significant role in auditing and investigative issues that have an effect on
                     the integrity and financial viability of Postal Service operations. To meet
                     this responsibility, we are investigating procurement fraud against major
                     Postal Service suppliers, transitioning Office of Workers’ Compensation
                     cases from the Inspection Service, and expanding our audit focus to include
                     public policy as well as operational issues.
                           We also dramatically increased our outreach efforts recently to educate
                     diverse audiences — internally and externally — not only about our office,
                     but also about the role, function, and value of all inspectors general. Using
                     our core organizational values of teamwork, leadership, communication,
                     conceptualization, and creativity, we explain how our independence
                     ensures they are receiving impartial results, showcase how we perform
                     audits and investigations, and illustrate how our work makes a positive dif-
                     ference in their lives and Postal Service operations. We feel so strongly
                     about this effort that we actually incorporated outreach into our annual
                     performance measures and far exceeded our goal in the past year. One of
                     many noteworthy benefits we have reaped is hearing first-hand from postal
                     management associations, employee unions, and business mailers. Their
                     perspectives on postal issues give us invaluable insight we could not get
                     anywhere else and help us in planning and carrying out our work. We have
                     found that developing these relationships with our stakeholders truly ben-
                     efits us all.
                           This, our twelfth Semiannual Report, sets forth the significant activi-
                     ties and accomplishments of this office and the Inspection Service from
                     April 1, 2002, through September 30, 2002. It details our efforts to com-
                     bat fraud, waste, abuse, and mismanagement within the Postal Service; and
                     fulfills our reporting requirement under the Inspector General Act and
                     Inspection Service requirements under the Mail Order Consumer Protec-
                     tion Act. In this reporting period, the Office of Inspector General issued
                     285 audit reports, 70 management advisory reports and other products, and
                     closed 58 investigations.
                                                      We also want to bid a fond farewell to Governor Einar Dyhrkopp, who will retire
                                                 from the Board of Governors in November after many years of distinguished service. His
                                                 unwavering support and his determination to improve Postal Service operations have
                                                 been invaluable to the Postal Service and to us. We would also like to welcome the new
                                                 Chief Postal Inspector, Lee Heath, and look forward to working with him on a regular
                                                 basis.
                                                      Finally, I would like to congratulate my wonderful staff for receiving 11 of 100
                                                 Awards of Excellence given by the President’s Council on Integrity and Efficiency and
                                                 the Executive Council on Integrity and Efficiency for audit and investigative work per-
                                                 formed in fiscal year 2002. In addition, we share with others in the inspector general
                                                 community a strong sense of pride for a special award thanking us for our unprecedented
                                                 efforts to respond to the September 11, 2001, terrorist attacks on the United States. This
                                                 type of outstanding work and dedication continues to prove our value to Congress, the
                                                 Governors, the Postal Service, and the American public.
                                                      It also inspires me to recommit myself every day to my job.




                                                      Karla W. Corcoran
Governor Einar Dyhrkopp retires from                  October 31, 2002
the Postal Service Board of Governors.




                               PAGE 2    A MESSAGE FROM THE INSPECTOR GENERAL
Table of Contents
EXECUTIVE SUMMARY............................................................................................5
MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE ............................9
PERFORMANCE REVIEWS ......................................................................................17
   Office of Inspector General ........................................................................18
   ◆ Accepting and Processing Reviews ........................................................18
   ◆ Transportation and Delivery Reviews ....................................................19
   ◆ Marketing Reviews ..................................................................................21
   ◆ Quick Response Reviews ........................................................................22
   ◆ Legislative, Regulatory & Policy Reviews..............................................22
   Inspection Service........................................................................................24
FINANCIAL MANAGEMENT REVIEWS ..................................................................25
   Office of Inspector General ........................................................................26
   ◆ Financial Opinion Audits ......................................................................26
   ◆ Financial-Related Reviews......................................................................27
   ◆ Contracting and Facilities Reviews ........................................................30
   ◆ Legislative, Regulatory & Policy Reviews..............................................33
   Inspection Service........................................................................................35
TECHNOLOGY REVIEWS ......................................................................................37
   Office of Inspector General ........................................................................38
   ◆ Developmental Reviews..........................................................................38
   ◆ Information Systems Reviews ................................................................40
   ◆ Systems Development Reviews ..............................................................42
   ◆ eCommerce Reviews ..............................................................................42
   ◆ Computer Intrusion Investigation Activities ........................................43
   ◆ Legislative, Regulatory & Policy Reviews..............................................44
   Inspection Service........................................................................................45
LABOR MANAGEMENT REVIEWS ........................................................................47
   Office of Inspector General ........................................................................48
   ◆ Workplace Environment Reviews ..........................................................48
   ◆ Human Resource Process Reviews ........................................................48
   ◆ Health Care Reviews ..............................................................................50
   ◆ Legislative, Regulatory & Policy Reviews..............................................52
   Inspection Service........................................................................................54
OVERSIGHT OF THE INSPECTION SERVICE AND
OTHER SIGNIFICANT ACTIVITIES ........................................................................55
   Office of Inspector General ........................................................................56
   ◆ Oversight of the Inspection Service Reviews........................................56
   ◆ Other Significant Activities....................................................................57
   ◆ Legislative, Regulatory & Policy Reviews..............................................58
   Inspection Service........................................................................................59



                                                                                                                  PAGE 3
         CUSTOMER SERVICE ............................................................................................61
            Office of Inspector General ........................................................................62
            ◆ External Communications ......................................................................62
            ◆ Specialized Services ................................................................................66
            ◆ Computer Assisted Assessment Techniques ..........................................67
            Inspection Service........................................................................................68
         GOALS AND STRATEGIES ....................................................................................69
            Office of Inspector General ........................................................................70
            Inspection Service........................................................................................74
         ORGANIZATIONAL DYNAMICS ............................................................................75
            Office of Inspector General ........................................................................76
            ◆ Notable OIG Achievements ..................................................................79
            ◆ Challenges Facing the OIG ....................................................................81
            Inspection Service........................................................................................84
         ORGANIZATIONAL STRUCTURE ..........................................................................85
            Office of Inspector General ........................................................................86
            ◆ OIG Field Locations ................................................................................90
            Inspection Service........................................................................................91
         APPENDICES ........................................................................................................93
            Appendix A - Reports Issued to Postal Management ..............................94
            Appendix B - Findings of Questioned Costs ..........................................104
            Appendix C - Recommendations That Funds Be Put to Better Use....106
            Appendix D - Reports with Significant Recommendations Pending
                              Corrective Actions ..........................................................107
            Appendix E - Investigative Statistics ......................................................110
            Appendix F - Summary of Postal Service Investigative Activities
                              Under 39 USC § 3013 ....................................................111
            Appendix G - Closed Congressional and
                              Board of Governors’ Inquiries..........................................115




PAGE 4   TABLE OF CONTENTS
Executive Summary




  DID YOU
  KNOW?
 What is the OIG mission?
 To conduct and supervise objective and independent
 audits, reviews, and investigations relating to Postal
 Service programs and operations to promote economy,
 efficiency, and effectiveness. To prevent and detect
 fraud, waste, abuse, and mismanagement. To provide
 oversight of the Postal Inspection Service and keep
 the Governors and Congress informed of problems
 and deficiencies, and corresponding corrective actions.




                                             PAGE 5
                                        This Executive Summary highlights the                 ◆   managing acquisitions and contracts;
                                        Office of Inspector General (OIG) and                 ◆   leveraging technology;
                                        Inspection Service accomplishments
                                                                                              ◆   improving the quality of information for
                                        from April 1, 2002, through
                                                                                                  making decisions;
                                        September 30, 2002, that are contained
                                        in this Semiannual Report to Congress.                ◆   safeguarding the integrity, confidentiality,
                                                                                                  and availability of information; and
                                                                                              ◆   balancing public service and commercial
The OIG’s Management Committee
members and Deputies.                   EXECUTIVE SUMMARY                                         enterprise.
                                                                                                  The following highlights the accomplish-


                                        T
                                                 his Executive Summary provides a syn-
                                                 opsis of the work reported during this 6-    ments of the OIG and the Inspection Service
                                                 month period. This Semiannual Report         under the specific subject areas:
                                        addresses the major issues facing the Postal Ser-     (1) Performance focuses on the critical core
                                        vice and the work performed by the OIG that           business processes needed to succeed in a com-
                                        helps improve postal operations. It also pro-         petitive environment. The OIG conducted 10
                                        vides a general overview of Inspection Service        reviews in this area, including projects that will
                                        operations and specific examples of work relat-       help save the Postal Service over $21 million in
                                        ed to the detection and prevention of fraud,          current and future years. A few examples of
                                        waste, abuse, and mismanagement.                      OIG work in this area included:
                                             The OIG is responsible for conducting all
Ronald Merryman, Mary Demory and                                                              ◆   Disclosing three organizations identified
Ronald Stith                            audits of Postal Service programs and opera-
                                                                                                  by law enforcement as having alleged ties
                                        tions. In addition, the OIG, along with the
                                                                                                  to terrorist activities used nonprofit mail-
                                        Inspection Service, conducts investigations to            ing accounts.
                                        prevent and detect fraud, waste, abuse, and mis-
                                                                                              ◆   Concluding that the Postal Service
                                        management affecting the Postal Service. Both
                                                                                                  lacked data to properly analyze the acqui-
                                        conduct investigations that play a vital role in
                                                                                                  sition of trailers that could have cost as
                                        helping the Postal Service make improvements.
                                                                                                  much as $30 million if they made the
                                        Work performed by the OIG and the Inspection
                                                                                                  purchase.
                                        Service is included in this report in order to pre-
                                        sent Congress and the Governors a unified             ◆   Observing commercial airline employees
                                                                                                  negligently handling mail and leaving it
                                        report of the Postal Service’s efforts to combat
                                                                                                  unprotected and subject to theft and
                                        fraud, waste, abuse, and mismanagement.
                                                                                                  other problems such as exposure to
Thomas Coogan and Colleen McAntee            In this, the OIG’s twelfth Semiannual
                                                                                                  inclement weather.
                                        Report, the work has been categorized into
                                        eight subject areas: performance, financial           ◆   Uncovering several schemes, through a
                                        management, technology, labor management,                 joint investigation with the Postal
                                                                                                  Inspection Service, used to defraud the
                                        oversight of the Inspection Service and other
                                                                                                  Postal Service which resulted in one of
                                        significant reviews, customer service, organiza-
                                                                                                  the largest presort mailers being ordered
                                        tional dynamics, and organizational structure.
                                                                                                  to pay over $17 million in restitution.
                                        These eight areas include OIG work addressing
                                        the following 10 major management issues fac-         ◆   Disclosing an employee knowingly
                                        ing the Postal Service:                                   approved fraudulent invoices from a
                                                                                                  vehicle repair contractor in exchange for
                                        ◆   physical security and safeguarding the                free automobile services for vehicles
                                            mail;                                                 owned by the Postal Service employee
John Seeba, Donna Edsall and            ◆   maintaining customer confidence;                      and family members. The former employ-
Daniel O’Rourke                                                                                   ee was ordered to pay $20,000 in restitu-
                                        ◆   improving financial performance and
                                                                                                  tion to the Postal Service.
                                            accountability;
                                                                                              ◆   Disclosing several highway contract route
                                        ◆   resolving workforce and workplace issues;
                                                                                                  drivers conspired to fix prices during the
                                        ◆   controlling workers’ compensation costs;              contract renewal process. OIG investiga-



                               PAGE 6   EXECUTIVE SUMMARY
    tors followed-up a complaint from a           ◆   Revenue investigations that resulted in
    Postal Service contract manager who               34 arrests and 14 successful criminal con-
    received identical bids from several              victions.
    contractors.                                  ◆   Initiation of 208 employee embezzlement
     The Inspection Service conducted numer-          investigations, which documented losses
ous investigations in the area of mail theft,         of over $2.6 million.
resulting in the arrests of over 300 employees    (3) Technology encompasses reviews of devel-
and 2,500 non-employees or contractors.           opmental systems, computer security, electron-     The OIG’s Management Committee
(2) Financial Management incorporates finan-      ic commerce, and computer intrusion detec-         members and Deputies.
cial-related reviews, financial opinion work,     tion activities. The OIG performed 24 reviews
and contracting and facilities reviews. The       and 8 investigations in this area. Some of the
OIG completed 282 reviews and investigations      more significant OIG activities included:
that identified over $159 million in questioned   ◆   Determining the first phase test of the
costs. In addition, OIG investigations resulted       Segway Human Transporter program was
in 7 convictions, 16 indictments, and recover-        not properly planned or conducted
ies and restitution of over $18 million, which        independently.
included:                                         ◆   Revealing weaknesses related to con-
◆   Determining the Postal Service overpaid           tracting practices for CONFIRM includ-
    approximately $7.2 million for tabbing            ing inadequate documentation for con-
    equipment and lost the opportunity to             tract negotiations, inappropriate increas-
    take $130,000 in quantity discounts.              es in costs, and improper disclosure of
                                                      information to the contractor.
◆   Determining the Postal Service’s
    advanced annual leave policy resulted in      ◆   Identifying inadequacies in the testing        Kirt West, Karla Corcoran and
    advance payments of approximately $9.4            program for Biohazard Filtration and Bio-      Wayne Goleski
    million with low probability of collection        hazard Detection Systems.
    from employees who separated for rea-         ◆   Identifying program mismanagement and
    sons other than death or disability.              contracting irregularities associated with
◆   Identifying the Postal Service did not            the Automated Seamless Dispatch Pro-
    receive credit for $1.9 million in pay-           gram.
    ments made to a utility company and           ◆   Analyzing approximately 1,000 incidents
    about $669,000 paid in state taxes from           reported as potential attacks or suspicious
    which it was exempt.                              activity against the Postal Service’s infor-
◆   Investigating a $1.5 million tort claim           mation network.
    filed against the Postal Service for pain,    ◆   Determining an individual at a Canadian
    suffering, and property damage resulting          college was involved in hacking the OIG
    from a car accident with a Postal Service         website and providing information to the
    vehicle that was settled for $200,000.            Royal Canadian Mounted Police leading
◆   Investigating a $1 million claim against          to the hacker’s arrest.                        Robert Emmons, Gladis Griffith and
    the Postal Service for serious injuries       In addition to other work, the Inspection Ser-     Sam Maxey
    allegedly caused by a Postal Service truck    vice reported:
    rear-ending a parked vehicle that was
    settled for $500.                             ◆   The Inspection Service is an active par-
                                                      ticipant in two international groups
◆   Investigating a structural engineer for           focused on security. The International
    defrauding the Postal Service by accept-          Security Group targets initiatives to
    ing $12,500 from a subcontractor for              improve the safety, security, and reliabili-
    construction and design work for which            ty of international mail products for the
    the prime contractor had already com-             Postal Service.
    pensated the engineer.
                                                  ◆   As a result of the growing trend among
In addition to other work, the Inspection Ser-        fraudsters to use the Internet, the Inspec-
vice reported:                                        tion Service participates in a multi-feder-


                                                                                                      PAGE 7
                                         al project known as the Internet Fraud        ◆   A former letter carrier pled guilty to theft
                                         Complaint Center. The project is aimed            of postal money orders. The plea agree-
                                         at stemming Internet fraud by gathering,          ment ordered the former carrier to make
                                         analyzing, and referring Internet com-            full restitution of over $500,000 to the
       DID YOU                           plaints.                                          Postal Service.
       KNOW?                         (4) Labor Management focuses on issues relat-     (5) Oversight of the Inspection Service and
                                     ed to workplace environment, human resource,      Other Significant Activities. In this area, the
                                     and health care. During this reporting period,    OIG completed several reviews of the Inspec-
Does the Postal Service follow       the OIG completed 39 inquiries, 5 reviews and     tion Service, and 13 investigative efforts and
                                     10 investigations in this area, which included:   reviews of other significant issues related to
federal government statutes                                                            Postal Service operations, which included:
                                     ◆   Finding the Postal Service did not
and regulations?                         receive credit adjustments of $286,000        ◆   Finding that Inspection Service manage-
Except for certain statutes and          for wage compensation and refundable              ment appropriately focused their efforts
regulations expressly made applic-       overpayments in their Workers’                    on ensuring the safety of postal service
able to the Postal Service, most         Compensation program.                             employees and the public, but postal
                                     ◆   Concluding that after the pay for perfor-         management could not ensure that all
federal laws of government-wide
                                         mance program was established, mail               mail located at decontaminated postal
applicability do not apply to the                                                          facilities or processed at irradiation facili-
                                         delivery and employee safety improved,
Postal Service. This permits the                                                           ties was secure.
                                         but workplace relations and financial
Postal Service, an independent           performance did not.                          ◆   Revealing that management did not
establishment of the executive       ◆   Determining the Postal Service did not            ensure postal inspectors possessed the
branch, to operate in a business-        fully assess their Associate Supervisor           physical abilities necessary to effectively
like manner.                             Program to determine its impact on                perform their duties.
                                         labor management relations and postal         ◆   Finding that a Postal Service executive
                                         operations.                                       developed a consultant relationship and
                                     ◆   Completing a joint investigation with             participated in discussions concerning
                                         other federal agencies resulting in a den-        future full-time employment with a for-
                                         tist being sentenced to 27 months in              mer Postal Service contractor who had
                                         prison and payment of $264,000 in resti-          been awarded a $1.4 million contract.
                                         tution for involvement in a scheme to              The Inspection Service conducts numer-
                                         submit false insurance claims for dental      ous investigations covering significant issues in
                                         services never rendered.                      the areas of physical security; narcotics offenses
                                     ◆   Disclosing a Missouri doctor recommend-       and trafficking; child exploitation; prohibited
                                         ed or performed unnecessary surgeries         mailings; postal burglaries; mail fraud including
                                         and billed for unperformed surgeries,         fraud against consumers, fraud against business-
                                         which resulted in the doctor being sen-       es, and fraud against government; and money
                                         tenced to 72 months in prison.                laundering.
                                     The Inspection Service work resulted in the:      (6) Customer Service focuses on the OIG and
                                     ◆   Sentencing of a former officer in charge      the Inspection Service efforts to provide cus-
                                         to 15 months imprisonment and 3 years         tomer service, including support functions to
                                         probation, for the embezzlement of postal     enhance service to internal customers and Hot-
                                         money order funds and stamp stock sales.      line operations.
                                         The former officer in charge was also
                                         ordered to pay over $43,000 restitution.      (7) Organizational Dynamics focuses on the
                                                                                       OIG and the Inspection Service vision, values,
                                     ◆   Sentencing of a former clerk to 27
                                                                                       culture, and diversity.
                                         months imprisonment and 3 years
                                         supervised probation for mail fraud for       (8) Organizational Structure focuses on the
                                         claiming total disability, while running a    OIG and the Inspection Service headquarters
                                         private business.                             and field structure.




                          PAGE 8     EXECUTIVE SUMMARY
Major Management Issues
Facing the Postal Service




      DID YOU
      KNOW?
     What is the value of jointly reporting
     OIG and Inspection Service results in a
     unified Semiannual Report to Congress?
     A unified Semiannual Report to Congress
     provides a complete accounting to the Postal
     Service stakeholders on our joint efforts to
     prevent and detect fraud, waste, abuse, and
     mismanagement in Postal Service programs
     and operations.




                                               PAGE 9
                                      MAJOR MANAGEMENT                                     PHYSICAL SECURITY AND
                                                                                           SAFEGUARDING THE MAIL
                                      ISSUES FACING THE                                          With 38,000 facilities and over 200 billion
                                      POSTAL SERVICE
       DID YOU                                                                             pieces of mail delivered each year, the Postal


                                      T
                                               he Postal Service needs to identify spe-    Service faces the enormous challenge of moving
       KNOW?                                   cific long-term strategies to better bal-
                                               ance its statutory mandate of providing
                                                                                           the mail efficiently and economically while
                                                                                           effectively safeguarding postal employees, cus-
                                      universal service with its need to remain a          tomers, and the mail. Historically, the Postal
                                      viable commercial enterprise. At stake, accord-      Service has dealt with numerous disasters, both
What standards are used as            ing to the Postal Service, is every American’s       natural and man-made, which have interfered
the OIG conducts audits and           right to send and receive mail. The Postal           with mail delivery. However, the October 2001
                                      Service’s April 2002 Transformation Plan
investigations?                                                                            anthrax attacks using the mail exposed a new
                                      begins this process. As it proceeds with transfor-   danger, and as a result, led to a renewed empha-
By law, the OIG follows General       mation, the Postal Service continues to face sig-
Accounting Office standards in                                                             sis on the security of the nation’s postal system.
                                      nificant challenges, including financial
                                                                                           The OIG reviewed the Postal Service’s response
conducting audits. In conducting      instability, bioterrorism threats, and labor prob-
                                                                                           to bioterrorist attacks on the mail and com-
investigations and inspections, the   lems. Recently, the Postmaster General testified
                                                                                           mended the Postmaster General for his leader-
OIG follows the standards set         before Congress that the Postal Service’s current
                                                                                           ship. The OIG found the Postal Service’s
forth by the President’s Council      financial situation is improving. To assist
                                                                                           communication efforts, safety efforts, and other
                                      Congress, the Governors, and postal manage-
on Integrity and Efficiency.                                                               efforts initiated after terrorists used the mail to
                                      ment as they address these challenges, the
                                                                                           carry out anthrax attacks were adequate to
                                      OIG has independently identified the follow-
                                                                                           ensure the safety and health of its employees.
                                      ing major management issues:
                                                                                                 In the past year, the Postal Service has
                                      ◆   physical security and safeguarding the           acted to ensure the physical security and safety
                                          mail;                                            of the mail and sought new methods to detect
                                      ◆   maintaining customer confidence;                 biohazardous materials and sanitize the mail.
                                      ◆   improving financial performance and              The technological solutions may necessitate
                                          accountability;                                  procuring new equipment and changing
                                                                                           processes to accommodate use of new equip-
                                      ◆   resolving workforce and workplace issues;
                                                                                           ment, which could impact floor plans and
                                      ◆   controlling workers’ compensation costs;         staffing requirements. Regardless of technology
                                      ◆   managing acquisitions and contracts;             or any other improvement or expenditure, the
                                      ◆   leveraging technology;                           threat of terrorists using the mail to carry out an
                                                                                           attack can be reduced, but not eliminated. To
                                      ◆   improving the quality of information for
                                          making decisions;                                better protect its employees and customers, the
                                                                                           OIG believes the Postal Service must also
                                      ◆   safeguarding the integrity, confidentiality,
                                                                                           reassess its facility designs, especially the venti-
                                          and availability of information; and
                                                                                           lation systems, maintenance practices, and
                                      ◆   balancing public service and commercial          emergency response and evacuation procedures.
                                          enterprise.                                            To assist the Postal Service in addressing
                                           These issues generally reflect the issues the   this issue, the OIG:
                                      OIG has identified in past years. Controlling
                                                                                           ◆    Reviewed whether the Postal Service
                                      costs and growing revenues have been com-
                                                                                                properly safeguarded mail while facilities
                                      bined to form improving financial performance
                                                                                                were decontaminated and mail was irra-
                                      and accountability. In addition, because of the           diated.
                                      significant impact workers’ compensation costs
                                      are having on the Postal Service, the OIG has        ◆    Reviewed Inspection Service contin-
                                                                                                gency plans related to the physical securi-
                                      made workers’ compensation costs a separate
                                                                                                ty of the mail when biohazard threats
                                      issue.
                                                                                                were suspected or detected.
                                           These major issues, their significance, and
                                      the key OIG projects addressing them are             ◆    Is participating in Postal Service Mail
                                      included in this section.                                 Security Task Force meetings.


                           PAGE 10    MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
MAINTAINING CUSTOMER                                 ◆    Assessed certified mail processing opera-
CONFIDENCE                                                tions at a processing and distribution
     To remain competitive, the Postal Service            center.
must be customer-focused and deliver the mail        ◆    Investigated allegations of corruption and
in a timely manner and at affordable rates.               bribery.
Moreover, the Postal Service needs to adapt its      ◆    Is assessing the effectiveness of scheduled
services to address changing customer needs and           highway contract routes.
a changing mailing public. In today’s market-        ◆    Is assessing the transportation agreement
place, customers have more choices about how              with Federal Express.
they conduct postal transactions, transmit mes-
sages, and deliver merchandise. Increasing cus-      IMPROVING FINANCIAL
tomer confidence will be the key to growing          PERFORMANCE AND
new business. The Postal Service views its           ACCOUNTABILITY
access to the American household as a unique              Unlike most federal agencies, the Postal
asset it can leverage as it faces increasing com-    Service relies primarily on its revenues, not
petition. The Postal Service must continue to        appropriations, to fund its operations. Without
develop and provide products and services that       adequate revenues, the Postal Service would
retain relevance and value for customers with        have to reduce services, raise rates, or seek tax-
changing needs by:                                   payer subsidies. Thus, the Postal Service needs
◆   identifying better ways to deliver the           to meet the challenge of increasing its revenue
    mail;                                            each year to cover increasing costs.
                                                          The Postal Service’s financial position has
◆   optimizing the current infrastructure;
                                                     deteriorated, despite recent rate increases,
◆   increasing customer satisfaction; and            employee reductions, and a freeze on capital
◆   adjusting to a changing mailing public,          expenditures. The Postal Service has reported
    including any changes in the customer            over $2 billion in losses since FY 2000.
    base and customers with increased tech-          Financial performance needs to improve to
    nological options.                               assure the public that the Postal Service is pro-
      To effectively transition to a changing cus-   viding the best possible service at the lowest
tomer base, the Postal Service must address such     cost. The Postal Service must address this chal-
factors as declining mail volumes due partly to      lenge by improving its financial systems and
new technological options such as electronic         continuing its efforts to grow revenues, manage
bill paying, different mail mixes including          debt, reduce costs, and increase productivity.
increased package delivery, and rapid growth in           Recent financial data indicate that the
delivery points. These factors can impact the        Postal Service’s current financial situation is
efficiency of mail collection, processing, and       better than originally projected for FY 2002.
delivery to customers, as well as consistently       While the Postal Service originally projected a
pose challenges in efficiently scheduling and        $1.35 billion net loss for FY 2002, it now reports
procuring transportation, identifying efficient      a loss of less than $1 billion and projects a net
processing and delivery modes, effectively           income of $600 million for FY 2003. The pro-
scheduling staff, and maximizing technological       jected positive net income can most likely be
options.                                             attributed to the Postal Service’s cost reduction
      To assist the Postal Service in addressing     efforts; sustained productivity increases, particu-
this issue, the OIG:                                 larly labor productivity; and postal rate
                                                     increases effective in June 2002. The Postal
◆   Assessed the efficiency and effectiveness
                                                     Service’s outstanding debt as of August 2002
    of Postal Service procurement of fuel and
                                                     was approximately $11.1 billion, slightly down
    delivery vehicle maintenance.
                                                     from $11.3 billion in FY 2001. The Postal
◆   Assessed the methods used to procure             Service projects it will continue to reduce its
    mail transportation vehicles and equip-          debt in FY 2003. These are encouraging trends.
    ment in selected areas.



                                                                                                           PAGE 11
                                           In the past, increasing productivity and         RESOLVING WORKFORCE AND
                                     controlling costs has helped the Postal Service’s      WORKPLACE ISSUES
                                     financial position. It is crucial, however, that            Resolving long-standing disagreements
                                     these efforts continue, and, more importantly,         between Postal Service management and its
        DID YOU                      prove sustainable in the long term. It is also crit-   unions and associations continues to be a main
        KNOW?                        ical that the Postal Service continues to
                                     improve its financial operations to ensure it is
                                                                                            priority for the Postal Service, and is an essen-
                                                                                            tial element of effective transformation. The
                                     accountable to the public.                             Postal Service has more than 850,000 full and
                                           The Postal Service recognizes its responsi-      part-time employees with personnel compensa-
What is the background               bility to improve financial performance and            tion and benefits costs totaling over $51 billion
of the OIG’s staff?                  accountability. Therefore, it has initiated pro-       for FY 2001. This accounts for more than three-
The OIG staff consists of            jects to replace the current general ledger,           quarters of the Postal Service’s total operating
auditors, criminal investigators,    implement a monthly reporting cycle, realign its       expenses. Consequently, improving the work
evaluators, lawyers, experts,        fiscal year with the government fiscal year, and       environment and labor relations is key to maxi-
                                     consolidate common accounting services.                mizing Postal Service operational and financial
technicians, and administrative
                                     Additionally, the Postal Service has acted to          performance. In an increasingly competitive
personnel from federal and state     reduce the need for additional borrowing as it         environment, improving labor relations is
government agencies, private         approaches the debt ceiling. These initiatives         essential if the Postal Service is to provide uni-
industry, nonprofit organizations,   should help improve financial management.              versal service at reasonable rates. Past attempts
and the Postal Service.              However, these efforts must go hand-in-hand            to improve labor relations have not been as suc-
                                     with other efforts, such as cost reduction, rev-       cessful as planned.
                                     enue generation, and productivity gains.                    Future efforts to improve in these areas will
                                           In addition to improving financial perfor-       only succeed if the Postal Service can effectively
                                     mance and accountability and reducing costs,           partner with its employees and engage them in
                                     growing revenues is important to assure long-          a shared vision of success. This vision must
                                     term financial viability.                              include eliminating any confrontational envi-
                                           To assist the Postal Service in addressing       ronment on the workroom floor and giving
                                     this issue, the OIG:                                   employees the freedom to raise concerns with-
                                     ◆    Evaluated the Executive Relocation Pro-           out fear of retaliation. As the Postal Service pur-
                                          gram’s effect on cost.                            sues efforts to partner with employees, it must
                                     ◆    Identified opportunities for the Postal           also develop programs for recruiting, training,
                                          Service to recover funds from overpay-            communicating, compensating, and rewarding
                                          ments.                                            employees consistent with the Postal Service’s
                                                                                            vision for the future. In this regard, the Postal
                                     ◆    Evaluated the availability of data to
                                                                                            Service needs to establish an effective way to
                                          ensure Postal Retail Stores are profitable
                                                                                            link employees’ pay to their performance.
                                          and generating revenue.
                                                                                                 To assist the Postal Service in addressing
                                     ◆    Assessed the role of marketing in increas-        this issue, the OIG
                                          ing revenue.
                                                                                            ◆   Reviewed workplace environment issues.
                                     ◆    Is monitoring the Postal Service’s initia-
                                          tives related to financial system and             ◆   Reviewed succession planning programs.
                                          process redesign.                                 ◆   Investigated alleged reprisals against
                                     ◆    Is assessing the profitability of eCom-               employees for reporting fraud, waste,
                                          merce initiatives and sponsorship pro-                abuse, or mismanagement.
                                          grams and their contribution to increase          ◆   Is reviewing efforts to reduce the number
                                          revenues.                                             of grievances and the applicability of best
                                                                                                practices to the grievance-arbitration
                                                                                                process.
                                                                                            ◆   Is auditing sexual harassment prevention
                                                                                                programs.




                           PAGE 12   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
CONTROLLING WORKERS’                                   and competitive objectives in the purchasing
COMPENSATION COSTS                                     process by consolidating procurements. While
     The Postal Service is the largest participant     this practice allows for certain efficiencies and
in the Federal Workers’ Compensation Program           cost savings, adequate controls must be estab-
and accounts for approximately $760 million, or        lished and enforced to decrease the risk of loss
over one-third, of the $2.2 billion in total fed-      in the procurement area. The Postal Service
eral workers’ compensation cash outlays from           must ensure that its supply chain management
claims for reporting year 2002. The Postal             contracting practices are consistent with applic-
Service’s workers’ compensation cash outlays           able laws and regulations and increase its efforts
from claims have risen dramatically, increasing        to ensure that postal contracts contain suffi-
by approximately 35 percent over the last              cient language to pursue action against contrac-
3 years. This is a considerable cost for an agency     tors as necessary or conduct independent
that recorded a $1.7 billion net loss in FY 2001       reviews.
and projects a loss of less than $1 billion in              Over the last year, the OIG has proposed
FY 2002. Many factors have contributed to              numerous revisions to the Postal Service pur-
these increased costs, including the rising age of     chasing manual, including strengthening the
the Postal Service workforce; higher costs for         examination of records clause, requiring con-
medical equipment, medications, and medical            tractors to have approved accounting systems,
treatments; overpayments, including duplicate          incorporating standard computer security provi-
payments made by the program administrator;            sions, and increasing the use of suspension and
and increased incidents of fraud by doctors and        debarment authority. As recently as September
hospitals.                                             16, 2002, the Postmaster General indicated that
     To assist the Postal Service in addressing        the Postal Service should continue to make
this issue, the OIG:                                   improvements to its purchasing system and will
                                                       consider the OIG’s findings and recommenda-
◆    Identified factors that have contributed
                                                       tions, but stressed that the Postal Service
     to an increase in workers’ compensation
                                                       needed to maintain its flexibility and business
     costs.
                                                       discretion in this area.
◆    Provided congressional testimony on                    To continue to promote better procure-
     OIG efforts to assist the Postal Service in       ment practices, and to assist the Postal Service
     identifying ways to better administer its         in addressing this issue, the OIG:
     workers’ compensation program.
                                                       ◆   Conducted audits of contractor propos-
◆    Is partnering with postal management
                                                           als, incurred cost submissions, systems,
     and the Department of Labor to find
                                                           and contract closeouts.
     ways to reduce injury compensation
     costs.                                            ◆   Increased the number of debarments and
                                                           suspensions of unscrupulous postal
MANAGING ACQUISITIONS AND                                  contractors.
CONTRACTS                                              ◆   Is continuing to conduct fraud awareness
     The Postal Service administers over                   briefings throughout the Postal Service
$18 billion a year (over one-quarter of its rev-           to raise awareness of potential fraud
enues) in contracts for essential goods and ser-           indicators.                                      OIG investigators along with various
                                                                                                            federal law inforcement agencies
vices, including facilities, transportation, mail                                                           identified fraudulent practices used by
processing equipment, and supplies. The Postal         LEVERAGING TECHNOLOGY                                a contractor which charged the Postal
Service’s challenge in this area is to balance effi-         The Postal Service depends greatly on          Service for work that was never
cient contracting practices with effective con-        technology to help process the mail in the most      performed.
trols to prevent fraud, waste, and abuse. Over         productive manner. Further, as the Postal
the past several years, the Postal Service has         Service addresses the anthrax threats, it is iden-
progressed towards adopting purchasing prac-           tifying and deploying technology that best fits
tices consistent with best commercial practices.       its operational requirements, is compatible with
Recently, it has identified the supply chain           existing systems, and improves the security and
management philosophy to further its business          safety of its processing operations.


                                                                                                              PAGE 13
                The Postal Service is working to leverage     many instances, the OIG has found that the
          technology to improve its service, productivity,    Postal Service does not adequately capture or
          and profitability. While it depends on technol-     track the data necessary to support effective
          ogy to deliver more than 660 million pieces of      decision making. For example, postal managers
          mail daily to 138 million addresses, the Postal     do not always track data to determine whether
          Service must continue to adapt to each new          they are achieving expected return on invest-
          wave of technology quickly to maintain its com-     ment. The OIG has also noted the Postal
          petitive position in the market. To address         Service’s inability to track costs that have been
          changing customer needs, the Postal Service has     incurred but not paid, making it difficult for
          committed resources to help ensure better data      managers to monitor expenses.
          management, track mail piece information, and             Changes in technology and the business
          improve communication between the Postal            environment emphasize the need for providing
          Service and its customers.                          timely, accessible, relevant, and accurate data to
                The large size and diversity of the Postal    Postal Service decision makers. Also, given the
          Service’s customer base presents technological      importance of data quality in setting postal rates
          challenges and demands that solutions be sim-       and, recently, requesting emergency appropria-
          ple, easy to use, and competitive. To be success-   tions, the Postal Service must continue demon-
          ful, the Postal Service should also ensure that     strating to Congress, the Postal Rate
          the corresponding cost savings projected from       Commission, stakeholders, and the public that
          technology investments are realized by effi-        it is making progress in improving the quality of
          ciently redeploying the resources replaced by       its revenue, cost, and service measurements.
          the new technology. Decisions on technology               To assist the Postal Service in addressing
          investments should continue to be scrutinized       this issue, the OIG:
          more closely and be based on information that
                                                              ◆   Evaluated data reliability issues related to
          is current, accurate, and reliable.                     mailing operations.
                To assist the Postal Service in addressing
                                                              ◆   Reviewed the Postal Service’s short-term
          this issue, the OIG:
                                                                  transformation pricing initiatives.
          ◆   Assessed system life cycle development
                                                              ◆   Is reviewing the rate case development
              and performance of major projects associ-
                                                                  process and discount methodology.
              ated with the information platform.
                                                              ◆   Is evaluating the Retail Data System to
          ◆   Reviewed the performance and costs of
                                                                  ensure sales data captured is accurate and
              the Postal Automated Redirection Sys-
                                                                  used for management decision making.
              tem for processing undelivered as
              addressed mail.
                                                              SAFEGUARDING THE INTEGRITY,
          ◆   Is reviewing the Postal Service’s automa-       CONFIDENTIALITY, AND
              tion and streamlining of its accounting         AVAILABILITY OF INFORMATION
              process.                                             Computers and electronic data are vital to
                                                              the critical operations of the Postal Service. The
          IMPROVING THE QUALITY OF                            same factors that benefit operations – speed and
          INFORMATION FOR MAKING                              accessibility – also make it possible for individu-
          DECISIONS
                                                              als and organizations to interfere with or eaves-
               Accurate measurement of mail delivery is
                                                              drop on operations, possibly for purposes of fraud
          key to improving and sustaining service perfor-
                                                              or sabotage. For example, terrorist organizations
          mance. Reliable data is also the key to effective
                                                              could use computer networks to attack the fed-
          decision making. Data justifying the need for
                                                              eral infrastructure. Attacks that have already
          major capital expenditures must be reliable so
                                                              occurred on both government and private
          that postal management can decide whether to
                                                              industry websites reveal the damage a computer
          invest in the project. Furthermore, reliable data
                                                              security breach can inflict on brand integrity
          is needed to assess whether the project’s esti-
                                                              and an organization’s revenue stream.
          mated and actual return on investment is rea-
                                                                   The OIG’s work on telecommunications
          sonable and has been realized. However, in
                                                              security continues to identify vulnerabilities in


PAGE 14   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
the security of computer equipment that are         ability to quickly adjust rates to respond to
being addressed by postal management. There         changing costs, negotiate with customers and
remains a continuing need to emphasize com-         employees, develop and price new products,
puter security throughout the Postal Service.       close unprofitable outlets, and generate and
Furthermore, the Postal Service’s Internet ini-     invest profits. The Postal Service performs a
tiatives reinforced the need for increased secu-    wide range of significant law enforcement
rity awareness and compliance. Success in this      duties for the protection of the public, even in
area will depend on the level of protection         cases that have no direct impact on the Postal
afforded sites such as the Postal Service’s web-    Service. To survive, it needs to articulate how it
site and the programs operating on it. In addi-     will balance providing public service with its
tion, the Postal Service needs to continually       goal of operating like a commercial/private
protect consumer information and guarantee          enterprise in implementing strategies to meet
customer privacy.                                   future service and delivery challenges.
     To assist the Postal Service in addressing           The Postal Service is a public service that
this issue, the OIG:                                must operate like a commercial enterprise. This
                                                    dual role has become more challenging in the
◆   Identified eBusiness agreements that
    lacked sufficient security, privacy, and        face of increased competition in the delivery
    access language to protect the Postal Ser-      and communication industries, especially with
    vice and its commercial partners and cus-       electronic communication steadily eroding             Delivering mail to the bottom of the
    tomers.                                         First-Class Mail revenues. The postal commu-          Grand Canyon by mule is one of the
                                                    nity has been aware of and debated these chal-        many ways the Postal Service serves
◆   Ensured the Postal Service was identified                                                             its customers
                                                    lenges for years, but no consensus has emerged
    as a critical infrastructure for national
    security.                                       on how the challenges should be addressed. To
                                                    date, efforts at comprehensive legislative reform
◆   Is continuing to represent the Postal Ser-
                                                    have been unsuccessful.
    vice’s information infrastructure concerns
                                                          In its Transformation Plan published
    by working on the Cyber Interagency
                                                    earlier this year, the Postal Service presented its
    Working Group, chartered by the
    President’s Critical Infrastructure             strategy to address concerns raised by Congress,
    Protection Board.                               the General Accounting Office, and others.
                                                    The plan is a good starting point and provides
◆   Plans to continue to work with Postal
                                                    information about challenges the Postal Service
    Service Computer Incident Response
                                                    faces, identifies short-term actions to take under
    Team to detect, report, and respond to
                                                    its existing authority, and outlines long-term
    attacks on the Postal Service’s informa-
    tion infrastructure.                            strategies that require congressional action.
                                                    However, the plan does not define key terms
BALANCING PUBLIC SERVICE                            such as universal service, lacks an overall imple-
AND COMMERCIAL ENTERPRISE                           mentation plan, and relies heavily on congres-
     The 1970 Postal Reorganization Act             sional action.
required the Postal Service to function as a gov-         The Postal Service must act decisively to
ernment entity tasked to operate in a business-     balance its public service obligation with its
like manner supported by its own revenues. As       need to remain commercially viable. Until its
a public agency, it is charged with binding the     statutory framework is changed, it must work
nation together with universal mail service at      within existing law to increase its accountabil-
affordable rates. Its government status carries     ity in contracting and other major expenditures
certain advantages, such as a monopoly on let-      to achieve profitability in the near future. It
ter mail, exclusive access to customers’ mail-      must identify its core businesses and ensure that
boxes, and a tax-free status. The universal         new products and services are self-sustaining. In
service obligation requires a significant, costly   short, the Postal Service must continue to
infrastructure to deliver postal services, but      refine its operations under the existing statutory
unlike private corporations, the Postal Service     model, while developing and re-defining its role
is bound by statutory constraints that limit its    under the Transformation Plan. The Postal



                                                                                                            PAGE 15
          Service cannot successfully transform itself
          without congressional oversight and attention,
          as well as a public debate about the continued
          relevance of the Postal Service.
               To assist the Postal Service in addressing
          this issue, the OIG:
          ◆    Identified previously completed OIG
               work that provided insight on the issues
               discussed in the Transformation Plan.
          ◆    Is examining the ratemaking process.
          ◆    Is examining mailer discounts.




PAGE 16   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
Performance Reviews




 OFFICE OF INSPECTOR GENERAL
      Accepting and Processing Reviews
      Transportation and Delivery Reviews
      Marketing Reviews
      Quick Response Reviews
      Legislative, Regulatory & Policy Reviews

 INSPECTION SERVICE




                                             PAGE 17
                                         This section highlights audits, reviews, and        enhance the accepting and processing of mail
                                         investigations performed by the OIG and             through innovative automation.
                                         Inspection Service activities in the Perfor-              During the last year, mail processing was
                                                                                             greatly affected by terrorist activities, including
         DID YOU                         mance area. Report numbers are shown in
                                         parentheses after the narrative, as appro-          anthrax contamination, which caused the clos-
         KNOW?                           priate. Also, the OIG legislative, regulato-        ing of a number of major mail processing cen-
                                         ry, and policy reviews are included at the          ters. Although the closures protected employees
                                         end of this section. In order to differentiate      and customers, they required the Postal Service
What is a performance audit?
                                         the work reported by the OIG and Inspec-            to divert mail, causing increased costs and pro-
Performance auditing is a specific                                                           cessing challenges. To address the anthrax con-
                                         tion Service, the page containing the activi-
type of audit that assesses                                                                  tamination of the mail, the Postal Service
                                         ties reported by the Inspection Service has
whether Postal Service programs          been color-screened.                                purchased and plans to purchase additional spe-
and operations are managed                                                                   cialized equipment designed to sterilize the mail
economically and efficiently,                                                                and protect employees and the public from the
achieve desired results, or are          OFFICE OF INSPECTOR                                 threat of anthrax and other possible biohazard
                                                                                             contamination. During the past 6 months, the
conducted in compliance with             GENERAL                                             OIG conducted work in the areas of accepting
applicable laws and regulations.

                                         T
                                                 o deliver world-class service, businesses   and processing, which is highlighted below:
The OIG plans and executes a                     and government agencies must excel in
wide range of performance audits                 performing their core business processes.   THREE ORGANIZATIONS WITH
                                                                                             ALLEGED TERRORIST TIES
of Postal Service programs and           For the Postal Service, these core business
                                                                                             USED NONPROFIT MAILING
operations.                              processes and systems encompass accepting,          ACCOUNTS
                                         processing, transporting, and delivering the
                                                                                                   An OIG audit of Southeast Area Nonprofit
                                         mail, as well as marketing postal products and
                                                                                             Standard Mail operations disclosed three orga-
                                         services. The OIG has audit teams specializing
                                                                                             nizations with alleged ties to terrorist activity
                                         in these areas and also has a quick response team
                                                                                             were authorized to mail at nonprofit rates.
                                         to conduct expedited reviews of Postal Service
                                                                                             These organizations were included in a
                                         business practices. During the past 6 months,
                                                                                             Presidential Executive Order to freeze the assets
                                         the OIG completed 10 reviews of the Postal
                                                                                             of organizations and individuals suspected of
                                         Service’s performance of core business processes.
                                                                                             supporting or associating with foreign terrorists.
                                         The reviews identified opportunities to save
                                                                                             The audit revealed one of these organizations
                                         over $21 million during current and future
                                                                                             continued to mail at nonprofit rates five months
                                         years.
                                                                                             after the Executive Order was issued. Also, two
                                                                                             of the organizations had mailing accounts with
                                         ACCEPTING AND PROCESSING
                                         REVIEWS                                             the Postal Service of more than $10,000 that
                                                                                             had not been frozen or reported to the Treasury
                                              On average, over 660 million pieces of mail
                                                                                             Department as required by the Executive Order.
                                         are accepted each day by the Postal Service in a
                                                                                             The OIG reported its findings to appropriate
                                         variety of ways, including mail collected from
                                                                                             law enforcement agencies and Postal Service
                                         more than 300,000 blue collection boxes, as
                                                                                             officials, who then took control of the mailing
                                         well as residential and business collection mail-
                                                                                             account funds, reported the funds to the
                                         boxes. Express Mail, First-Class Mail, and some
                                                                                             Treasury Department, and requested a legal
                                         Priority Mail and periodicals are sorted at more
                                                                                             opinion regarding their authority to hold these
                                         than 470 processing and distribution centers,
The OIG’s review of certified mail                                                           organizations’ accounts and revoke their non-
                                         while Standard Mail is generally handled at
operations found that a Pacific Area                                                         profit mailing status. Subsequently, the Justice
processing and distribution center       21 bulk mail centers. In order to ensure timely
                                                                                             Department indicted one of the mailers for
reduced mail-processing delays           and accurate delivery of mail, accepting and
during the 2002 tax season                                                                   using contributions to support terrorist activi-
                                         processing equipment must be state-of-the-art.
                                                                                             ties.
                                         Situations that result in delayed mail processing
                                                                                                   In addition, the OIG audit found other
                                         must be vigorously evaluated and the underlying
                                                                                             organizations with nonprofit mail permits were
                                         causes promptly resolved. In this regard, the
                                                                                             either not listed or incorrectly listed in Postal
                                         Postal Service continues to explore ways to


                               PAGE 18   PERFORMANCE REVIEWS
Service records. Several organizations were           State Franchise Tax Board. Specifically, postal
using the same nonprofit authorization number         management assigned a dedicated certified mail
without the Postal Service verifying that each        coordinator to oversee mail operations, tem-
organization was eligible to mail at nonprofit        porarily relocated certified mail processing to a
rates. The Postal Service agreed with the OIG’s       larger facility, and hired 60 temporary employ-
recommendation to increase controls over the          ees to process certified mail during the 2002 tax
nonprofit mailing authorization process by            season. Postal management agreed to continue
establishing a standardized process for entering      improving operations by refining the action
and updating information into the nonprofit           plan for seasonal certified mail increases and
authorization database, and establishing policies     adjusting the cut-off date for certified mail pro-
clarifying the use of authorization numbers by        cessing to ensure operations are not ended pre-
for-profit organizations affiliated with nonprofit    maturely. (OIG AC-MA-02-001)
organizations. (OIG AC-MA-02-002)
                                                      TRANSPORTATION AND
PRESORT MAILER ORDERED TO                             DELIVERY REVIEWS
PAY OVER $17 MILLION                                        Transportation of mail is a vital part of the
      As a result of a joint investigation by the     Postal Service’s mission of binding the nation
OIG and the Postal Inspection Service, several        together by providing prompt, reliable, efficient,
owners and managers of one of the largest pre-        and universal mail delivery at affordable rates.
sort mailers in New York were convicted of sev-       The Postal Service spends over $5 billion annu-       An OIG audit found that a planned
eral counts of mail fraud and racketeering. The       ally for air, highway, rail, and water transporta-    trailer replacement was not
company was responsible for sorting and meter-        tion. As a result of the September 11, 2001,          adequately justified.
ing mail for a variety of corporate clients and       terrorist attacks, the Postal Service has been
then submitting the mail to the Postal Service.       forced to rely more heavily on highway and rail
The investigation uncovered several schemes           transportation because of restrictions on com-
used to defraud the Postal Service, including         mercial airlines carrying certain types of mail.
bribery, postage meter fraud, alteration of presort   Contractors provide most transportation; how-
qualification reports to reflect less postage owed,   ever, the Postal Service operates its own fleet of
and hiding unqualified mail in large quantity         trucks for some highway routes, including a
mailings. A cooperative effort between an OIG         delivery network of approximately 230,000 mail
investigator and postal inspectors obtained con-      routes serviced by 300,000 city and rural letter
fessions from the manager of the company and          carriers and more than 180,000 delivery vehi-
the postal manager regarding the payment of           cles. A Postal Service agreement with FedEx to
bribes to the postal employee. The confessions        transport Express, Priority, and First-Class Mail
were subsequently used at trial against the           was entered into to provide more reliable
owners of the company. The manager of the             service and reduce costs. During FY 2001, the
company was sentenced to 37 months imprison-          Postal Service delivered over 207 billion
ment, 3 years supervised release, and joint resti-    pieces of mail to 138 million homes and busi-
tution of over $17 million.                           nesses—a yearly average of 1,500 pieces of mail
DELAYS IN CERTIFIED MAIL                              for every household and business in America.
PROCESSING SIGNIFICANTLY                              During the past 6 months, the OIG completed
REDUCED DURING 2002 TAX                               several investigations and six transportation
SEASON                                                and delivery related reviews, some of which are
     An OIG review of certified mail operations       highlighted below:
revealed that a Pacific Area processing and
                                                      TRAILER REPLACEMENT NOT
distribution center significantly reduced mail
                                                      ADEQUATELY JUSTIFIED
processing delays from up to four-day delays
                                                           An OIG audit, conducted in response to a
during the 2001 tax season to just one or two-
                                                      congressional request, determined Postal
day delays during the 2002 tax season.
                                                      Service management did not properly analyze
Improvements occurred because of better plan-
                                                      and justify a plan to purchase 45-foot trailers to
ning and increased communications with a
                                                      replace 40-foot trailers. The acquisition was


                                                                                                              PAGE 19
                                           proposed at a cost of $30 million. The OIG rec-      delayed up to two hours waiting for “missent”
                                           ommended and postal management agreed to             mail being redistributed to the correct post
                                           delay its purchase plans until operating condi-      office. Mail sent to the wrong post office should
                                           tions and trailer requirements were analyzed         normally be returned to a processing and distri-
                                           and justified in accordance with Postal Service      bution center where it would be sent to the
                                           investment policies and procedures.                  proper office. However, in this case missent mail
                                           (OIG TD-MA-02-003)                                   was rerouted, using local transportation, to a
                                                                                                centrally located post office or “hub operation”
                                           MAIL LEFT UNPROTECTED BY
                                                                                                where it was then sent directly to the correct
                                           AIRLINE EMPLOYEES AT
                                           LAGUARDIA AIRPORT                                    post office for delivery. This process sometimes
                                                                                                caused increased transportation costs and
                                                 The OIG observed commercial airline
                                                                                                unnecessary overtime costs for letter carriers
                                           employees negligently unloading mail from a
                                                                                                waiting for missent mail. Postal management
                                           flight and roughly throwing mail containers
                                                                                                agreed with the OIG’s recommendation to dis-
                                           into a pile on a truck. Airline employees then
                                                                                                continue hub operations that were not cost
                                           left the area, leaving mail on the tarmac unpro-
                                                                                                effective. (OIG TD-MA-02-005)
                                           tected and subject to theft and other problems
                                           such as inclement weather. Postal management         CANCELING UNNECESSARY
                                           agreed to inquire into the conditions observed       TRIPS BETWEEN PROCESSING
An OIG review found that sending mis-                                                           FACILITIES COULD SAVE
                                           and take corrective action. After being notified
sent mail to a “hub” (diagram above)
                                           by Postal Service managers, the airline took         $4.5 MILLION
rather than to a processing and distrib-
ution center (diagram below) to be         action to prevent future occurrences of mishan-           An OIG audit revealed the Postal Service
redistributed delayed letter carriers by   dled mail. Specifically, the entire airline ground   could save about $4.5 million over the term of
up to two hours and caused increased       handling staff was briefed on proper mail han-       existing Pacific Area highway contracts by can-
transportation costs.
                                           dling procedures, written notices were placed in     celing unnecessary highway contract trips
                                           the personnel files of the crew members              between postal mail processing facilities. The
                                           involved in mishandling mail, and the airline        OIG found that due to low mail volume,
                                           agreed to hire two additional ground handlers to     158 unnecessary trips could be terminated and
                                           load and unload mail. (OIG TD-MA-02-004)             mail could be consolidated on other trips with-
                                                                                                out negatively affecting service. Postal Service
                                           HIGHWAY CONTRACTORS                                  managers agreed to eliminate 124 trips; how-
                                           CONSPIRE TO FIX PRICES
                                                                                                ever, management disagreed with eliminating
                                                An OIG investigation disclosed several          the remaining 34, stating this would reduce
                                           highway contract route drivers conspired to fix      operational flexibility. Subsequently, postal
                                           prices during their contract renewal process.        management informed the OIG they elimi-
                                           The OIG initiated the investigation after            nated 110 trips, 14 trips were pending final
                                           receiving a complaint from a Postal Service area     action, and they were reassessing the remaining
                                           contract manager who received identical bids         34 trips. (OIG TD-AR-02-003)
                                           from several contractors. The investigation
                                           revealed the contractors met at a North              ST. LOUIS HIGHWAY
                                           Carolina restaurant and schemed to obtain            CONTRACTOR CONVICTED
                                           higher reimbursement in their contract               OF MAIL FRAUD
                                           renewals. The investigation saved the Postal              As a result of an OIG investigation, a St.
                                           Service more than $200,000 over the 4-year           Louis highway contractor pled guilty to mail
                                           contract period.                                     fraud and was sentenced to 3 years supervised
                                                                                                probation and ordered to pay approximately
                                           LETTER CARRIERS DELAYED AND                          $29,000 in fines and restitution to the Postal
                                           TRANSPORTATION COSTS                                 Service. The OIG investigation found that
                                           INCREASED BY HANDLING OF
                                                                                                from 1996 through 2000 the contractor submit-
                                           MISSENT MAIL
                                                                                                ted false receipts and fuel certifications related
                                                At the request of the Postmaster General,
                                                                                                to approximately $28,000 in fuel expenses.
                                           the OIG conducted an audit that revealed let-
                                           ter carriers in the Capital Metro Area were


                                PAGE 20    PERFORMANCE REVIEWS
VOYAGER CARDS NOT                                   bation and ordered to pay over $13,000 in
ADEQUATELY PROTECTED                                restitution to the Postal Service. The individ-
      An OIG review of the Postal Service           ual pled guilty to misappropriation of Postal
Voyager card program in the Great Lakes Area        Service property and conflict of interest when
revealed these cards, used for fuel purchases and   the mechanic advised the Postal Service to
vehicle maintenance, were not adequately pro-       purchase vehicle parts from a company in
tected. Specifically, personal identification       which the mechanic and spouse had a finan-
numbers were not canceled when necessary and        cial interest. The mechanic took vehicle parts
Voyager account activities were not reconciled      belonging to the Postal Service, cleaned them,
monthly as required. As a result, the Postal        and sold them back to the Postal Service as
Service incurred costs for unauthorized pur-        new. A debarment proceeding against the
chases and there was an increased risk the cards    company is pending.
could be used fraudulently. Postal Service man-     FORMER VEHICLE MAINTENANCE
agement agreed with the OIG’s recommenda-           FACILITY MANAGER SENTENCED
tions to improve oversight of the Voyager           FOR EMBEZZLEMENT
program and better protect it from fraudulent or          As a result of an OIG investigation, a for-
questionable purchases by ensuring that officials   mer Postal Service vehicle maintenance facility      An OIG review found that airline employ-
follow controls included in nationwide guide-       manager in New York was sentenced to 3 years         ees at LaGuardia Airport left mail
lines and by providing additional training to       probation, 6 months home detention, and 300          unprotected and subject to theft and
staff. (OIG TD-AR-02-004)                                                                                inclement weather.
                                                    hours of community service for embezzlement
IMPROVEMENTS TO DELIVERY                            and conspiracy to defraud the Postal Service.
VEHICLE GASOLINE PROGRAM                            The former employee was also ordered to pay
COULD SAVE MILLIONS                                 restitution of $20,000 to the Postal Service. The
     An OIG audit revealed the Postal Service       OIG’s investigation revealed between 1996 and
could recover approximately $4 million in           1999, the employee knowingly approved
unclaimed discounts and overpaid state taxes.       $87,000 in fraudulent invoices from an automo-
Specifically, the OIG found the fuel credit card    bile repair contractor in exchange for free ser-
company did not process state tax exemptions        vices for vehicles owned by the employee and
electronically, which required them to be           family members. The manager included the
processed manually by the Postal Service.           costs of repairs to personal vehicles in the
Further, the Postal Service paid too much in        invoices charged to the Postal Service.
taxes because the process to recoup taxes was
not fully developed. The OIG also found the         MARKETING REVIEWS
Southeast Area could reduce the letter carrier           The Postal Service operates in a globally
workhour budget annually by $6 million by           competitive environment, and its ability to
capturing cost reductions projected from out-       maintain or increase its market share of the
sourcing fuel delivery. The Postal Service          $900 billion mailing industry is essential to pro-   The OIG’s review of the Voyager card
could further reduce fuel costs by implement-       viding universal service at affordable rates.        program revealed that the cards were
ing a prior OIG recommendation to establish a       Therefore, the Postal Service designs its mar-       not adequately protected against unau-
                                                    keting programs and services to build customer       thorized purchases or fraud. Shown
centralized fuel management unit and pursue
                                                                                                         here is a personal identification number
volume discounts from vendors. Postal man-          awareness and loyalty. The Postal Service also       written on the back of the card and
agement agreed to establish a centralized fuel      wants to ensure its services are available at        cards left unattended.
management team, pursue discounts, and              places where customers choose to do business.
recover erroneously paid taxes.                     During this reporting period, the OIG con-
(OIG TD-AR-02-005)                                  ducted work in the area of marketing, which is
                                                    highlighted below:
MECHANIC ORDERED TO PAY
RESTITUTION TO THE POSTAL                           NATIONAL POSTAL FORUM
SERVICE                                             STRENGTHENED CUSTOMER
    A former Postal Service vehicle mainte-         RELATIONS
nance mechanic was sentenced to 5 years pro-            An OIG audit found that the National
                                                    Postal Forum generated sufficient revenues to

                                                                                                           PAGE 21
                                           cover its costs and strengthened Postal Service’s    reductions are necessary based on changes in
                                           customer relations. Approximately 11,000 mail-       workload and revenue. Postal Service managers
                                           ers attended the spring 2001 Postal Forum,           initiated an aggressive plan to implement these
                                           including representatives from over 100 of the       recommendations prior to the completion of
                                           largest Postal Service accounts, which               the review. (OIG CQ -AR-02-001)
                                           accounted for over $7 billion in Postal Service
                                           revenue for FY 2000. The OIG also noted sev-         LEGISLATIVE, REGULATORY &
                                           eral Postal Service employees performed opera-       POLICY REVIEWS
                                           tional support duties during the postal forums,           During this reporting period, the OIG
                                           which may give the impression the forum is not       identified legislation, regulations, and policies
                                           independent of the Postal Service. Postal man-       affecting Postal Service performance. Some of
                                           agement agreed to continue emphasizing pru-          the legislation and regulations reviewed are
                                           dent spending at postal forums and discontinue       highlighted below:
                                           having Postal Service employees perform sup-
                                                                                                ENACTED LEGISLATION
                                           port duties at forums. (OIG EM-AR-02-011)
                                                                                                Public Law 107-210 —
                                           QUICK RESPONSE REVIEWS                               The Trade Act of 2002
                                                The OIG quick response team coordinates              This law permits the Customs Service to
                                           and conducts expedited reviews of Postal             stop and search outbound and inbound mail
                                           Service business practices and operations to         processed by the Postal Service. By law, First-
                                           improve and advise postal management and the         Class Mail is sealed against inspection.
                                           Governors on information needed to address           However, customs officers may now search
                                           time sensitive issues raised by internal and         First-Class Mail weighing more than 16 ounces
                                           external stakeholders. In addition to the work       without a warrant, if there is reasonable cause to
                                           highlighted in this section, the OIG’s quick         suspect the item contains contraband. The OIG
An OIG review found that the National      response team has conducted work that is high-       plans to examine the Postal Service’s interna-
Postal Forum strengthened the Postal       lighted in the Customer Service section of this      tional products and services in the near future,
Service’s customer relations.
                                           Semiannual Report. During the past 6 months,         including the effect of this legislation on the
                                           the OIG conducted quick response work in the         processing and marketability of international
                                           area of workhour savings, which is highlighted       mail.
                                           below:                                               PROPOSED LEGISLATION
                                           OVER $1 MILLION PER YEAR                             H. R. 4970 — The Postal Accountability
                                           COULD BE SAVED BY REDUCTION                          and Enhancement Act
                                           OF EMPLOYEES AT TWO                                       This bill would give postal management
                                           WESTERN AREA FACILITIES                              and employees the tools to adapt and maintain
                                                An OIG review disclosed that a reduction        viability in the face of challenges due to chang-
                                           of 16 to 22 employees at two facilities in the       ing technology and a dynamic communications
                                           Western Area could save over $1 million a year.      marketplace. The bill encourages innovation
                                           Specifically, the audit revealed excessive work-     and efficiency by permitting the Postal Service
                                           hours were assigned because when workload was        to distribute earnings as bonuses to all employ-
                                           minimal, business mail entry technicians per-        ees. However, losses could not be recovered by
                                           formed duties that should have been accom-           increasing rates beyond specified parameters.
                                           plished by dock personnel. In addition, postal       The bill also allows the Postal Service to react
 An OIG audit found that the Postal        managers did not consider consolidating busi-        more quickly and efficiently to economic condi-
 Service could save $1 million by          ness mail entry units less than a mile apart; and    tions by streamlining the rate setting process
 consolidating business mail entry unit
                                           did not periodically reevaluate staffing levels to   and permitting rates better tailored to con-
 work from two facilities.
                                           improve productivity. The OIG recommended,           sumers’ needs. The Postal Service’s
                                           and Postal Service management agreed, to con-        Transformation Plan highlights the need for
                                           solidate business mail entry operations, reduce      several proposed legislative reforms contained
                                           staff as appropriate, and reevaluate staffing        in this bill. The OIG discussed issues related to
                                           periodically to determine whether further            reform with staff from the offices of


                                 PAGE 22   PERFORMANCE REVIEWS
Representative John McHugh, the bill’s spon-               The OIG conducted an audit that raised
sor, and Representative Henry Waxman,                 concerns about the Postal Service’s ability to
Ranking Minority Member of the House                  accurately account for its costs in producing and
Committee on Government Reform.                       marketing semipostal stamps. As a result, the
     A vote taken in the Committee on                 Postal Service issued new regulations to correct
Government Reform to send the bill to the             this situation. With the new regulations in
House failed. The OIG urges the next Congress         place, the Postal Service is better prepared to
to reconsider some of the proposals contained         administer the semipostal program, track costs,
in this bill. The OIG is encouraged by state-         and effectively raise funds.
ments from certain members that a new reform
bill will be proposed in the Senate in the next
                                                      S. 2754 — The United States Postal
Congress.                                             Service Commission Act of 2002
                                                           This bill would establish a Presidential
S. 2445 — The Book Stamp Act                          Commission on the Postal Service to examine
     This bill promotes child literacy by making      challenges the Postal Service faces. The com-
books available through early learning, child-        mission would develop specific recommenda-
care, literacy, and nutrition programs. Language      tions and legislative proposals that Congress
in the bill would require the Postal Service to       and the Postal Service can implement. A com-
issue a semipostal stamp to support the child lit-    mission could generate debate on ways to trans-
eracy promotion program. Semipostal stamps are        form the Postal Service and ensure its
issued at special rates higher than the current       continued viability and relevance into the 21st
First-Class rate in order to generate revenue to      century.
promote causes the Postal Service deems to be in
the national public interest. The Postal Service
will establish a special postage rate, no higher
than 25 percent over the current First-Class rate,
and contribute this premium, less any reasonably
incurred printing, selling, and distribution costs,
to the child literacy program.




                                                                                                          PAGE 23
                                           INSPECTION SERVICE

                                           M
                                                       ail thieves frequently concentrate on
                                                       targets that offer a large volume of
                                                       mail including not only items of
                                           obvious value in the mail, such as jewelry, com-
                                           puters, cash, credit cards, and checks, but also
                                           mail containing personal and financial informa-
                                           tion. Postal Inspectors investigate mail theft to
                                           maintain the public’s confidence in the Postal
                                           Service and preserve the sanctity of the mail.
                                           Postal Inspectors are working with major mail-
                                           ers to prevent mail theft and related problems.
                                           While the overwhelming majority of Postal
                                           Service employees work conscientiously to
                                           move the nation’s mail to its proper destination,
                                           a small number of employees abuse the public’s
                                           trust. It is the job of the Inspection Service to
                                           identify these individuals and take steps to have
                                           them prosecuted and removed from the Postal
                                           Service. The following chart provides the activ-
                                           ity during this reporting period.

The Postal Inspection Service investi-
gates mail tampering to ensure the sanc-
tity of the mail.                            TYPE OF INVESTIGATION     ARRESTS CONVICTIONS
                                             Non-Employee Mail Theft    2,592        2,396
                                             Employee Mail Theft          347          329




                               PAGE 24     PERFORMANCE REVIEWS
Financial Management
Reviews




 OFFICE OF INSPECTOR GENERAL
      Financial Opinion Audits
      Financial-Related Reviews
      Contracting and Facilities Reviews
      Legislative, Regulatory & Policy Reviews

 INSPECTION SERVICE




                                             PAGE 25
                                             This section highlights audits, reviews,            of the financial information contained in the
                                             and investigations performed by the OIG             Postal Service financial statements. The
                                             and the Inspection Service in the financial         Information Technology and Accounting
                                                                                                 Service Centers in Eagan, Minnesota; St. Louis,
         DID YOU                             management area. Report numbers are
                                             shown in parentheses after the narrative,           Missouri; San Mateo, California; and at Postal
         KNOW?                               as appropriate. Also, the OIG legislative,          Service Headquarters in Washington, DC,
                                             regulatory, and policy reviews are included         oversee the collection of approximately $66 bil-
                                             at the end of this section. In order to dif-        lion in revenue and the recording and disburse-
How does the OIG handle                      ferentiate the work reported by the OIG             ment of a similar amount each year. Since
                                             and Inspection Service, the pages contain-          inception, the OIG served as co-contracting
requests for information?                    ing the work reported by the Inspection             officer’s representative with Postal Service
Public requests for OIG                      Service have been color-screened.                   Finance for the work performed by the inde-
information are processed                                                                        pendent public accounting firm. However,
pursuant to the Freedom of                                                                       beginning in FY 2003, the OIG will be the sole
Information Act (FOIA) by OIG                OFFICE OF INSPECTOR                                 contracting officer’s representative.
staff. FOIA requests may be                  GENERAL                                             FY 2002 FINANCIAL
made in writing, or the public                                                                   INSTALLATION AUDITS

                                             T
                                                      he Postal Service currently faces one of
can review reports and other                          the most challenging financial periods           The OIG conducted audits at 187 postal
information posted on the OIG                         in its history. In FY 2001, the Postal     facilities and found financial information was
                                             Service incurred a net loss of $1.68 billion on     reasonably and fairly represented in the
website at www.uspsoig.gov
                                             $66 billion in revenue. After September 11,         accounting records, and internal controls were
                                             2001, and the anthrax attacks, the initial out-     generally in place and effective. However, at
                                             look for FY 2002 was not much better. In            three facilities, the OIG identified accounting
                                             response to the declining financial situation,      records were not reasonably and fairly repre-
                                             the Postal Service took aggressive actions to cut   sented and internal controls were not in place
                                             costs. In addition, the Postal Service imple-       and effective. In addition, at 151 facilities, the
                                             mented a rate increase effective June 30, 2002.     OIG identified non-compliance with Postal
                                             As a result, the Postal Service expects FY 2002     Service instructions and minor internal control
                                             net losses to be less than $1 billion.              weaknesses. The OIG issued individual reports
                                                  The Postal Service relies on strong finan-     to address these issues and will issue a summary
                                             cial management controls to maximize revenue        report providing Postal Service management
                                             and minimize costs. In the past 6 months, the       with recommendations to address systemic
                                             OIG has completed 255 financial management          issues. (For specific reports see Appendix A,
                                             reviews and 27 investigations. These efforts        pages 95-99)
                                             identified almost $159.8 million in questioned      CONTRACTOR PAID AFTER
                                             costs and opportunities to save $3.2 million dur-   CONTRACT TERMINATED
                                             ing current and future years. These projects add         During the FY 2002 financial statement
                                             value to the Postal Service by identifying oppor-   audits, the OIG identified over $58,000 in pay-
                                             tunities for cost savings and improving financial   ments made to a contractor for a station con-
                                             management, contracting, and facilities prac-       tract that had been terminated. A station
                                             tices, and detecting and deterring fraud, waste,    contractor operates in a store or place of busi-
                                             abuse, and mismanagement.                           ness and accepts mail from the public, sells
The OIG conducted audits at 187 postal                                                           postage and postal service supplies, and provides
facilities and found that financial infor-   FINANCIAL OPINION AUDITS                            other selected special services. The OIG found
mation was reasonably and accurately              The Postal Reorganization Act of 1970          the appropriate accounting service center did
represented in the accounting records.       requires an annual audit of the Postal Service’s    not receive a notification of termination for the
                                             financial statements. The OIG conducts audits       contract. As a result, the contract was not can-
                                             in support of the independent public account-       celed and the contractor received 45 monthly
                                             ing firm’s overall opinion on those statements.     payments for services not performed. Based on
                                             These audits assess the integrity and reliability   the results of the OIG review, the contract was


                                  PAGE 26    FINANCIAL MANAGEMENT REVIEWS
terminated and action was taken to recover the       report to summarize the relocation audit work
overpayments and ensure no additional pay-           performed. The OIG concluded the Postal
ments were made to the contractor. Because           Service paid excessive relocation benefits to
this discrepancy appeared to be an isolated          Postal Service executives in three areas: miscel-
instance and corrective actions were initiated,      laneous relocation expense benefits, the Shared
the OIG made no recommendations; however,            Real Estate Appreciation Loan Program, and
this area will be continually monitored.             equity loss payments. The audit found the
(OIG FT-MA-02-004)                                   $25,000 miscellaneous relocation expense ben-
                                                     efits paid to executives were excessive when
FINAL WRAP-UP OF FY 2001
                                                     compared to the public and private sectors. The
FINANCIAL INSTALLATION
AUDITS                                               Shared Real Estate Appreciation Loan Program
                                                     was not cost effective and was only offered to a
     The OIG wrapped-up its FY 2001 financial
                                                     limited number of executives. In addition, the
installation audits. These audits were con-
                                                     controls of payments for reimbursing employees
ducted at postal facilities and revealed financial
                                                     for losses incurred on real estate transactions
information was reasonably and fairly repre-
                                                     needed improvement.
sented in the accounting records, and internal
                                                          Postal Service management agreed with
controls were generally in place and effective.
                                                     OIG’s recommendation to fully document poli-
However, the OIG identified the following
                                                     cies and procedures for equity loss calculation
areas for improvement including controls over
                                                     and reimbursement and publish a list of appro-
accountable paper and cash; controls over col-                                                           An OIG audit found that the Postal
                                                     priate capital improvements. However, postal
lect on delivery items and post office box inven-                                                        Service did not receive credit for
                                                     management disagreed with recommendations
tory; Express Mail corporate account collection                                                          $1.9 million in payments made to a
                                                     to reduce the amount of officers’ and other         utility company.
activities; clearing suspense items; and business
                                                     executives’ miscellaneous relocation expense
mail reviews and computer system access. Postal
                                                     benefits and require officers who relocate more
Service management generally agreed with OIG
                                                     than once during a 3-year period to document
recommendations to improve all of the areas.
                                                     costs before receiving miscellaneous relocation
(OIG FF-AR-02-208, OIG FF-AR-02-309,
                                                     expenses. In addition, postal management dis-
OIG FF-AR-02-324, and OIG FF-AR-02-326)
                                                     agreed with OIG’s recommendation to replace
                                                     the Shared Real Estate Appreciation Loan
FINANCIAL-RELATED REVIEWS
                                                     Program with a more cost effective alternative
     Financial-related reviews examine areas
                                                     program that enables the Postal Service to still
that have significant financial implications and
                                                     recruit and retain executives. The OIG consid-
offer the Postal Service an opportunity to save
                                                     ers these recommendations unresolved and is
resources. The OIG has taken a proactive
                                                     pursuing them through the audit resolution
approach to identify areas that offer potential
                                                     process. (OIG FT-AR-02-012)
cost savings and improve postal operations. In
the past 6 months, the OIG has completed             $1.9 MILLION IN UTILITY
37 financial-related audits and 27 investiga-        PAYMENT CREDITS DUE TO
tions. These investigations have resulted in 16      POSTAL SERVICE
indictments and 7 convictions. Some signifi-             At the request of postal management, the
cant reviews and investigations are highlighted      OIG conducted an audit of postal utility pay-
below:                                               ments. The audit disclosed the Postal Service
                                                     did not receive credit for $1.9 million in pay-
EXCESSIVE EXECUTIVE                                  ments made to a utility company and paid
RELOCATION BENEFITS
                                                     about $669,000 in state taxes from which it was
SUMMARIZED IN OIG
                                                     exempt. The OIG found the Postal Service did
CAPPING REPORT
                                                     not obtain the state tax exemptions at two of
     At the request of the Board of Governors,
                                                     three accounting offices and was unsuccessful in
the OIG examined all aspects of the Postal
                                                     obtaining a refund from the utility company.
Service’s executive relocation program. During
                                                     Postal Service management agreed with recom-
this reporting period, the OIG issued a capping
                                                     mendations to seek reimbursement or credit for


                                                                                                           PAGE 27
          the funds cited, discontinue paying state taxes      UNCLAIMED ASSET
          on utility bills, and determine whether the          IDENTIFICATION & COLLECTION
          Postal Service is exempt from paying local taxes     PROCEDURES CAN BE IMPROVED
          and franchise costs. The Postal Service is in             An OIG audit disclosed the Postal
          active discussions with the utility company and      Service’s unclaimed asset identification and col-
          the OIG requested written confirmation when          lection procedures can be improved. Unclaimed
          corrective actions are completed.                    assets are financial assets held by states until the
          (OIG FT-AR-02-015)                                   rightful owners or heirs claim the property.
                                                               Specifically, approximately $877,000 of
          MILLIONS MAY BE LOST
          THROUGH ADVANCE ANNUAL                               unclaimed assets, dating as far back as 1968,
          LEAVE POLICY                                         were not recovered. Additionally, at least three
               Postal Service policy is to advance annual      Postal Service district office personnel and one
          leave to full-time and part-time career employ-      postmaster collected unclaimed assets in viola-
          ees at the beginning of the leave year allowing      tion of current postal policy. Postal Service
          them to take annual leave before it is earned.       management agreed to: pursue potential collec-
          An OIG audit disclosed over 12,000 former            tion of unclaimed assets where cost effective,
          Postal Service employees used advance leave          include web-based searches as part of their col-
          worth over $15.4 million. These former               lection procedures, and reissue the unclaimed
          employees neither earned the leave nor reim-         asset collection policy. During the audit, the
          bursed the Postal Service prior to their separa-     OIG learned the Postal Service was in the
          tion. The Postal Service has little probability of   process of recovering approximately $200,000
          immediate collection of approximately $9.4           of these assets. (OIG-FT-AR-02-017)
          million from employees who separated for rea-        OIG INVESTIGATIVE EFFORTS
          sons other than death or disability. The OIG         REDUCED CIVIL CLAIMS AGAINST
          recommended discontinuing the advanced               THE POSTAL SERVICE BY OVER
          annual leave policy; however, Postal Service         $19.5 MILLION
          management contends this would have a nega-               The OIG assists the Postal Service in
          tive operational impact during peak periods and      reducing civil claims by working with the Postal
          would be subject to union negotiations. The          Service Law Department and the United States
          OIG is working with management to resolve            Attorney’s Offices to conduct investigations
          these issues. (OIG-FT-AR-02-016)                     into tort claims filed against the Postal Service.
                                                               These investigations have proven to be a valu-
          POSTAL EMPLOYEE SCHEMED
                                                               able source of information in determining the
          TO DEFRAUD BY FICTITIOUS
          INVOICES AND FORGERY OF                              severity of the claimant’s injury and the truth-
          SIGNATURES                                           fulness of the complaint. Furthermore, in some
               A former Postal Service employee pled           instances, these investigations often result in
          guilty to one count of embezzlement of public        significant reductions in the initial claim
          funds. The OIG investigation disclosed from          amount. During the past 6 months, the OIG
          July 1997 to May 2000, the employee schemed          has closed 3 tort claim investigations and
          to defraud the Postal Service by creating ficti-     reported significant activity on the following
          tious invoices and forging signatures of Postal      cases:
          Service employees certifying goods and services      ◆    As a result of an OIG investigation, a
          were delivered. The employee invoiced the                 $1.5 million tort claim filed against the
          Postal Service almost $260,000 for goods and              Postal Service was settled for $200,000,
          services not delivered. The actual loss to the            plus the cost of a Medicare lien. The
          Postal Service was over $220,000 and these                claim sought damages for pain, suffering,
          funds were deposited into personal bank                   and property damage resulting from a car
          accounts.                                                 accident with a Postal Service vehicle.
                                                                    The individual had undergone double
                                                                    bypass heart surgery prior to the accident
                                                                    and alleged the impact of the accident


PAGE 28   FINANCIAL MANAGEMENT REVIEWS
    caused the surgical repairs to come loose,         diagnosis/prognosis documentation and
    thus requiring additional surgery. The             medical payment records; thereby, result-
    OIG’s investigation uncovered evidence             ing in a civil settlement of $40,000.
    suggesting the individual was re-injured       ◆   An individual settled a $100,000 claim
    prior to the accident and the investiga-           for $25,000 for injuries allegedly sus-
    tion also raised questions about the               tained when struck from behind by a
    severity of the pain and suffering claimed         postal vehicle while riding a bicycle. The
    by the individual.                                 OIG’s investigation revealed the individ-
◆   A Florida individual filed a $1 million            ual worked full-time, although claiming
    claim against the Postal Service alleging          an inability to work since sustaining the
    injuries due to an accident with a Postal          injuries. The individual also sustained a
    Service vehicle. The OIG investigation             significant shoulder injury just five
    revealed the accident was a result of the          months prior to the accident. The OIG’s
    individual making an illegal passing               investigation resulted in a cost avoidance
    maneuver. In addition, the state trooper’s         of over $75,000.
    documentation disclosed the individual
    stated they were not injured and minimal       FY 2002 OBSERVATIONS OF
    damage was caused to the vehicle. Sur-         STATISTICAL TESTS FOR THE COST
    veillance and investigative support by         AND REVENUE ANALYSIS
    OIG resulted in a settlement of $5,000,             The OIG performed cost and revenue
    amounting to a $995,000 cost avoidance         analysis audits in 30 districts and found that,
    to the Postal Service.                         generally, the tests were conducted in accor-
◆   As a result of an OIG investigation, a         dance with policy and procedures by the Postal
    $1 million claim against the Postal Ser-       Service. However, employees did not always
    vice was settled for $500. The individual      adhere to instructions for sampling, equipment
    claimed to be sitting in a parked vehicle      use, and telephone readings in 18 districts. The    OIG investigators have reduced civil
    when it was rear-ended by a Postal Ser-        OIG issued individual reports to address these      claims against the Postal Service by
    vice truck, which allegedly caused serious     issues and will issue a summary report providing    millions of dollars.
    injuries. As a result of the alleged           Postal Service management with recommenda-
    injuries, the individual claimed bodily        tions to address systemic issues. (For specific
    pain and mental anguish, which substan-
                                                   reports see Appendix A, pages 99-101)
    tially impaired financial earnings and
    caused significant medical expenses. The       HUSBAND AND WIFE, POSTAL
    OIG investigation did not substantiate         MANAGERS, TERMINATED
    the severity of the individual’s injuries      FOR PROVIDING FALSE
    and resulted in a cost avoidance of            INFORMATION
    $999,500.                                           As a result of an OIG investigation, two
◆   An individual filed a $250,000 lawsuit         Florida postal managers were terminated from
    against the Postal Service after allegedly     the Postal Service for providing false informa-
    slipping and falling on a wet lobby floor      tion during an official investigation. Both indi-
    at a Florida postal facility. A leaking roof   viduals were interviewed on three separate
    and postal patrons tracking rainwater          occasions and failed to disclose pertinent infor-
    into the facility caused the wet floor. The    mation to investigators. It was determined the
    area was marked with yellow caution            pair concealed their involvement and knowl-
    signs and the Postal Service custodian         edge about two former Postal Service managers,
    was performing periodic mopping of the         who embezzled over $3.2 million from the
    floor. The individual was wearing four-        Postal Service. This investigation was a part of
    inch, high-heeled shoes at the time of
                                                   an ongoing investigation reported in a previous
    alleged fall. Surveillance and investiga-
                                                   Semiannual Report to Congress.
    tive support failed to support the allega-
    tions in this complainant. The claim of
    personal injury was found to be excessive
    and without foundation of sufficient



                                                                                                         PAGE 29
                                                OHIO INDIVIDUAL SENTENCED                            investigation. The Postal Service initiated the
                                                FOR POSTAL SERVICE CREDIT                            debarment based on OIG recommendations.
                                                CARD FRAUD                                           Future contracts with Arthur Andersen, LLP
                                                     As a result of an OIG investigation, an         were discontinued indefinitely because of its
                                                Ohio individual was sentenced to a confine-          March 2002, indictment for obstruction of jus-
                                                ment house for 6 months and 3 years probation        tice. Debarment for 2 years was proposed for a
                                                for unauthorized use of a postal credit card. The    former partner of the accounting firm, based on
                                                OIG investigation revealed the individual used       a guilty plea to obstruction of justice. The 14
                                                the credit card of a postal employee and made        other entities were suspended from doing busi-
                                                purchases totaling approximately $2,800. The         ness with the Postal Service for 6 months.
                                                individual obtained the credit card information      OVER $159 MILLION IN
                                                after the postal employee made a legitimate pur-     QUESTIONED COSTS IDENTIFIED
                                                chase at a company where the individual              BY CONTRACT AUDITS
                                                worked.                                                    In the past 6 months, the OIG worked
                                                                                                     with the Defense Contract Audit Agency and
                                                CONTRACTING AND FACILITIES                           completed 20 audits of contracts valued at
                                                REVIEWS
                                                                                                     almost $790 million. These audits resulted in
                                                     The Postal Service manages approximately
                                                                                                     approximately $159 million in questioned and
                                                $18 billion annually in contracts for essential
An OIG investigation led to the                                                                      unsupported costs. The contract audits include:
                                                goods and services, including facilities, mail
sentencing of an individual for                                                                      incurred cost audits that evaluated the reason-
fraudulently using a postal                     processing      equipment,      and      supplies.
                                                                                                     ableness of costs incurred by contractors; pro-
employee’s credit card.                         Consequently, this makes the Postal Service
                                                                                                     posal audits that evaluated the reasonableness
                                                one of the largest civilian contracting agencies
                                                                                                     of contractor cost estimates; defective pricing
                                                in government. During FY 2002, postal pur-
                                                                                                     audits performed to determine whether con-
                                                chases included over $627 million in noncom-
                                                                                                     tract prices significantly increased because of
                                                petitive contracts and over $295 million in
                                                                                                     contractor pricing data that was not accurate or
                                                credit card purchases. The Postal Service is also
                                                                                                     complete; and contractor financial system
                                                one of America’s largest owners, developers,
                                                                                                     audits, such as accounting, estimating, and
                                                and managers of real estate, committing over
                                                                                                     billing systems that are reviewed to determine
Types and Number of Contract                    $700 million in FY 2002 for repair, renovation,
                                                                                                     their adequacy to account for contract costs.
Audits Completed                                and construction of new facilities, and over
                                                                                                           These audits, which are summarized in
                                                $800 million in rent.
                                                                                                     the graph in the margin, focus on whether
                                                     The OIG is responsible for contract audits
                                                                                                     contractors’:
                                                designed to assist Postal Service contracting
                    6                           officers in determining fair and reasonable con-     ◆   Proposed and incurred costs were allow-
                  OTHERS
                                                tract prices as well as providing them with              able and reasonable;
                                  6             reviews of contractor financial systems. In the      ◆   Pricing data was accurate, complete, and
                               PROPOSALS
   1   INCURRED
       COSTS                                    past 6 months, the OIG conducted 20 reviews              current; and
                                                of contracting and facilities-related issues with    ◆   Accounting systems for allocating costs
          3                                     the assistance of a contract audit agency. Also,
        CLAIMS          4                                                                                to the Postal Service were adequate.
                     SYSTEM                     the OIG has many open criminal investigations
                     REVIEWS
                                                                                                          In addition to raising questions about cost,
                                                targeting fraud and corruption in these areas.
                                                                                                     the audits disclosed a major contractor’s
                                                Highlights of some contracting and facilities
                                                                                                     proposal was not prepared in accordance with
The OIG completed 20 audits of contracts        reviews follow below:
                                                                                                     Postal Service policy. The following is a sum-
valued at almost $790 million.
                                                POSTAL SERVICE DISCONTINUED                          mary of seven significant contract audits com-
                                                CONTRACT WITH A FORMER                               pleted in the last 6 months:
                                                MAJOR ACCOUNTING FIRM
                                                                                                     ◆   An audit of a contractor’s $120 million
                                                    On or about April 15, 2002, the Postal               termination for convenience settlement
                                                Service suspended or discontinued service with           proposal for operation of an air trans-
                                                16 companies and/or individuals related to the           portation network disclosed questioned
                                                Arthur Andersen, LLP and Enron Corporation               costs of over $38 million. All of the


                                      PAGE 30   FINANCIAL MANAGEMENT REVIEWS
    questioned costs are generally classified        OIG did not consider the claims to be
    as unallowable or unreasonable under             acceptable as a basis for settlement of a
    Postal Service policies and procedures or        fair and reasonable price increase and
    in noncompliance with generally accept-          recommended the contracting officer
    ed accounting principles.                        contact the OIG or Defense Contract                   DID YOU
    (OIG CA-CAR-02-043)                              Audit Agency prior to negotiating a final
                                                     settlement. (OIG-CA-CAR-02-051)
                                                                                                           KNOW?
◆   A review of a contractor’s $3.8 million
    termination for convenience settlement       ◆   An audit of a contractor’s accounting
    proposal for the Tray Management Sys-            system controls revealed the overall         Who determines what the OIG
    tem at a Postal Service facility disclosed       accounting system and related internal
    questioned costs of over $1.6 million for        control policies and procedures were         audits or investigates?
    proposed wind up costs, contract impact          inadequate. Significant deficiencies were    The OIG receives requests to
    costs, and settlement costs. The ques-           found in the design and operation of the
    tioned contract impact costs represented         internal control structure including:        conduct audits and investigations
    unallowable overhead and general and             inadequate accounting system policies
                                                                                                  from many sources. However, the
    administrative costs for other contracts         and procedures; irreconcilable proposal
    affected by the termination. Questioned          and cost work breakdown structures;          OIG independently determines
    settlement costs were unallowable costs          insufficient material and production
                                                                                                  what it audits or investigates.
    associated with severance pay and                labor cost detail; excessive volume of
    employee transfer and reassignment               material transfers; and inadequate man-
    costs. (OIG CA-CAR-02-042)                       agement risk assessment and monitoring.
◆   An analysis of a contractor’s equitable          The OIG recommended disapproval of
    adjustment claim related to the construc-        the contractor’s accounting system and
    tion of a new post office questioned the         proposed several corrective actions. The
    entire claim amount of over $1 million.          contractor concurred and is in the
    Approximately 76 percent of the claimed          process of implementing the corrective
    amount represented unallowable antici-           actions. (OIG CA-CAR-02-052)
    pated profit and the contractor did not      ◆   An analysis of a contractor’s billing sys-
    provide sufficient documentation to sup-         tem and related controls revealed the
    port the remaining costs. Therefore, the         billing system and related internal con-
    OIG did not consider the claim accept-           trol policies and procedures were inade-
    able as a basis for negotiation of settle-       quate. Significant deficiencies were
    ment. (OIG CA-CAR-02-045)                        found in the design or operation of the
◆   An evaluation of a contractor’s firm fixed       internal control structure including:
    price proposal for various configurations        inadequate monitoring of timely pay-
    of automated package processing system           ment of vendors; inadequate contracts
    machines and related spares and support          department policies and procedures; use
    items disclosed unsupported costs of over        of indirect billing rates on legacy con-
    $117 million and questioned costs of             tracts; inaccurate estimates to complete;
    over $577,000. Due to the significant            and failure to exclude advance payments
    cost and pricing inadequacies, the OIG           to subcontractors from requests for
    did not consider the proposal to be              progress payment. The contractor con-
    acceptable as a basis for negotiation of a       curred with identified deficiencies and is
                                                                                                  An OIG review of a contractor’s
    fair and reasonable price.                       in the process of implementing correc-
                                                                                                  termination for convenience settlement
    (OIG-CA-CAR-02-050)                              tive actions. The Postal Service contract-   proposal for a Tray Management System
                                                     ing officer agreed to ensure the contrac-    disclosed questioned costs of over $1.6
◆   A review of three equitable price adjust-        tor implemented all corrective actions.      million. The Tray Management System is
    ment claims concerning renovation of             (OIG CA-CAR-02-053)                          designed to automate the moving and
    toilets at a Postal Service processing and                                                    staging of mail.
    distribution center questioned the entire
    claim of over $620,000, and disclosed
    alleged delays and additional supervision
    costs were not adequately supported with
    sufficient auditable documentation. The


                                                                                                    PAGE 31
                                         POSTAL TRAINING CENTER                               agreed to require tracking and monitoring, clar-
                                         CONSTRUCTION PROJECT COSTS                           ify policies over use and justification, enforce
                                         DEEMED REASONABLE                                    policies for preparing cost or price estimates,
                                               An OIG audit of capital construction           and document rationale for best value determi-
                                         projects at a Postal Service center for leadership   nations. (OIG CA-AR-02-004)
                                         development found that, over the past 5 years,
                                                                                              NONCOMPETITIVE PURCHASING
                                         17 projects totaling approximately $8.3 million      PROCESS LED TO OVERPAYMENT
                                         were necessary and reasonably completed.             FOR TABBING SYSTEMS
                                         However, a review of the site’s $6.3 million mas-         An OIG audit revealed the Postal Service
                                         ter plan found at least $300,000 of the project’s    did not effectively use the competitive purchas-
                                         costs were nonessential enhancements.                ing process to purchase tabbing systems.
                                         Additionally, the OIG found the current center       Consequently, the OIG concluded the Postal
                                         marketing strategies to attract external cus-        Service overpaid approximately $7.2 million for
                                         tomers might not be appropriate when com-            tabbing equipment and lost the opportunity to
                                         pared with the primary Postal Service mission of     take $130,000 in quantity discounts. The tab-
                           Before        delivering the mail.                                 bing system places a translucent tab on open-
                                               The OIG recommended future capital             ended mail such as fliers and booklets, allowing
                                         construction projects at the center include only     the mail to be handled by high-speed automa-
                           After         essential repairs. Postal Service management         tion equipment without being torn or jammed.
                                         disagreed but planned actions met the intent of      The OIG also found 30 of the 83 tabbing sys-
                                         the recommendation. The OIG also recom-              tems were underutilized because the Postal
                                         mended postal management evaluate the cen-           Service did not perform an adequate needs
                                         ter’s marketing strategies to ensure investment      analysis. While postal management disagreed
                                         in areas appropriate to the overall mission.         with the estimated $7.2 million overpayment,
                                         Postal management did not explicitly agree or        the OIG considers this amount to be accurate
                                         disagree with these recommendations. Instead,        and fully supported. Postal management agreed
                                         postal management stated the center functions        with the recommendation to ensure justifica-
An OIG audit found that at least         and marketing strategies add revenue and train       tions provided in support of noncompetitive
$300,000 of the Postal Service’s         Postal Service managers who support the over-
costs for renovating a training
                                                                                              purchases are valid and purchases are consoli-
                                         all Postal Service mission. The OIG is actively      dated in order to take advantage of available
center were for nonessential
enhancements. Shown here is a
                                         working with postal management to resolve this       quantity discounts. Postal management also
the training center courtyard            issue. (OIG CA-AR-02-006)                            agreed with the recommendation to remove the
before and after renovation.                                                                  tabbing system from the catalog of approved
                                         WEAKNESSES IDENTIFIED IN
                                         UNDEFINITIZED CONTRACT                               products, to perform needs analysis, and to rede-
                                         ACTIONS                                              ploy tabbing systems. (OIG CA-AR-02-005)
                                              An OIG review identified weaknesses in
                                                                                              OIG CONTRACTOR
                                         the Postal Service’s controls over undefinitized     INVESTIGATIONS TARGET
                                         contract actions. Undefinitized contract actions     FRAUD & CORRUPTION
                                         are letter contracts or contract modifications             The OIG conducts investigations relating
                                         that direct a contractor to provide products or      to the Postal Service’s contracting and facilities
                                         services without agreed to price or terms. The       areas. These investigations target contractors
                                         OIG reviewed 51 contracts and found 20 con-          who have attempted to defraud the Postal
                                         tracts containing 81 undefinitized actions total-    Service by submitting false invoices, performing
                                         ing over $728 million. The audit found that          poor work, or using substandard construction
                                         postal management did not effectively track and      material. These investigations ensure the finan-
                                         monitor undefinitized contract actions and use       cial interests of the Postal Service are protected
                                         proper price-to-be-determined-later notifica-        in these areas. In some instances, these investi-
                                         tions. Also, independent postal cost/price esti-     gations often result in significant recoveries and
                                         mates, negotiations, and best value                  improve the safety of employees and customers.
                                         determinations were not always documented,
                                         and were not always timely. Postal management


                               PAGE 32   FINANCIAL MANAGEMENT REVIEWS
During the past 6 months, the OIG has                     managers, but billed the Postal Service
reported significant activity in this area, some of       for higher rated technical positions. The
which are highlighted below:                              OIG analysis revealed a potential loss of
                                                          over $1.4 million to the Postal Service.
◆    The OIG partnered with various federal               The company claimed these were not
     law enforcement agencies, including the              false claims, but contractual issues. The
     Environmental Protection Agency,                     OIG worked closely with the Postal Ser-
     Defense Criminal Investigative Service,              vice Law Department during the litiga-
     and the Federal Bureau of Investigation,             tion to achieve the settlement.
     to identify fraudulent practices used by a
     contractor when testing underground              ◆   As a result of a joint investigation by the
     storage tanks. The efforts of this team              OIG and the Inspection Service, a con-
     resulted in the filing of 10 criminal com-           tractor pled guilty to one count of wire
     plaints in nine states. The company                  fraud for attempting to defraud the Postal
     charged the Postal Service, and other                Service of almost $10,000 by submitting
     government agencies, for underground                 false invoices. The Postal Service paid a
     storage tank testing that was never per-             contractor over $2,300 based on false
     formed or inadequately conducted.                    invoices that stated a truck lift gate was
                                                          purchased recently. The investigation
◆    The OIG initiated an investigation after
                                                          disclosed the contractor already owned
     receiving information from the St. Louis
                                                          the lift gate and submitted false invoices
     Service Center, concerning a $679,700                                                                The OIG found the Postal Service under-
                                                          to two different offices.
     erroneous payment to a contractor. The                                                               utilized 30 of 83 tabbing systems. The
     investigation disclosed the contractor           ◆   As the result of an OIG investigation, a        tabbing system allows open-ended mail
                                                          structural engineer was indicted for            such as fliers and brochures to be han-
     was mistakenly paid for service actually
                                                          fraudulent construction practices at two        dled by high-speed automation equip-
     performed by another contractor. The                                                                 ment.
     contractor was contacted for repayment               Maryland postal facilities. Investigation
     but fled to New Zealand. The OIG coor-               revealed the engineer defrauded the
     dinated with the Department of Justice               Postal Service by accepting $12,500 from
     and the New Zealand authorities to                   a subcontractor for construction and
     apprehend and extradite the contractor.              design work for which the prime contrac-
     The Department of Justice seized approx-             tor had already compensated the engi-
     imately $27,000 of the contractor’s assets           neer. Problems with construction at the
     and is in the process of seizing approxi-            facilities disrupted postal operations,
     mately $470,000 held in other foreign                which were relocated while repairs were
     bank accounts. Additionally, the con-                made.
     tractor repaid the Postal Service $59,000
     of the $679,700 and is currently awaiting        LEGISLATIVE, REGULATORY
     trial for theft of government property
                                                      & POLICY REVIEWS
     and money laundering.                                 During this reporting period, the OIG
                                                      identified legislation, regulations, and policies
◆    As a result of an OIG investigation, a
                                                      affecting Postal Service financial management.
     major technology company, hired by the
                                                      Some of the legislation, regulations, and poli-
     Postal Service to ensure that systems
     would function properly for the Y2K              cies reviewed are below:
     deadline, paid the Postal Service                                                                    OIG investigators worked with
                                                      ENACTED LEGISLATION                                 Department of Justice and New Zealand
     $882,000 to settle a complaint regarding
     labor rates. The complaint alleged the
                                                      Public Law No. 107-206 —                            authorities to apprehend and extradite
                                                                                                          a contractor who had received a
     company placed employees in labor cate-          The Supplemental Appropriations Act
                                                                                                          $679,700 payment in error and fled to
     gories with higher labor rates than those             This law provides an additional $87 mil-       New Zealand.
     for which the employees were qualified.          lion funding to the Postal Service for emer-
     An OIG analysis determined the compa-            gency expenses to enable the Postal Service to
     ny hired employees for administrative            protect its employees and customers from expo-
     positions; then billed the Postal Service        sure to biohazardous material and to sanitize
     for documentation specialists. In addi-          and screen the mail.
     tion, the company hired several people as             The law contains a provision of the Rural


                                                                                                           PAGE 33
                                     Service Improvement Act of 2002, amending                 S. 2740 would appropriate $60 million for
                                     the Alaska Bypass Mail Service law, governing        the Postal Service. H.R. 5120 requests $76.6
                                     the selection of carriers for non-priority bypass    million for the Postal Service. The apparent dif-

        DID YOU                      mail to remote areas of Alaska, referred to as
                                     “the bush.” It prescribes requirements for the
                                                                                          ference between the recommended amounts of
                                                                                          the two bills relates to timing of the payments
        KNOW?                        selection of bypass mail to: (1) bush passenger      by the advanced funding provisions of the
                                     carriers and non-mail freight carriers for the       authorizing legislation.
                                     delivery of non-priority bypass mail at mainline
                                                                                          H.J. Resolution 98 — Postage Rate
What are the OIG’s values?           service rates, bush rates, or composite rates; (2)
                                     mainline and non-mainline air carriers to hub        Moratorium
The OIG’s core values are                                                                      This joint resolution would provide for a
                                     points; and (3) all air carriers providing sched-
teamwork, leadership, creativity,    uled passenger service to bush points. The OIG       3-year moratorium on postage rate increases for
communication, and                   conducted a fact-finding review of the bypass        nonprofit organizations and certain other mail-
conceptualization (TLC3).            mail system and plans to address some of the         ers. During the proposed moratorium, rates of
                                     public policy issues pertaining to bypass mail in    postage would not be increased for: periodicals
                                     future reviews. Our future work will include         with a paid circulation of less than 50,000; any
                                     operational and financial aspects of bypass mail     issue of a periodical with an advertising portion
                                     service.                                             of less than 20 percent; and any publication of a
                                                                                          nonprofit organization. Although the resolution
                                     PROPOSED LEGISLATION                                 does not have the force of law, the OIG has con-
                                     H.R. 5120/S. 2740 — Treasury and                     cerns about whether revenue-depressing mea-
                                     General Government Appropriations Act                sures are appropriate at a time when the Postal
                                     of 2003                                              Service faces serious financial challenges.
                                          These companion bills include the Postal
                                     Service Appropriations Act for FY 2003, pro-
                                     viding for a $60 million payment to the Postal
                                     Service Fund for revenue forgone on free mail
                                     for overseas voting, mail for the blind, and
                                     reduced rate mail. None of the funds provided
                                     in this Act can be used to consolidate or close
                                     small rural and other small post offices in
                                     FY 2003.




                           PAGE 34   FINANCIAL MANAGEMENT REVIEWS
                                                    ◆   A former remote encoding center man-
INSPECTION SERVICE                                      ager was sentenced to 10 months in


W
             ithin the financial management             prison and two years supervised release
             area, the Inspection Service per-          for submitting false information on travel
             forms revenue investigations to            vouchers. The former manager reported
help ensure that Postal Service revenue is prop-        personal travel expenses, expenses for
erly assessed and collected. Priority is given to       relatives, vacation expenses, false travel
investigations of alleged schemes to avoid pay-         and relocation expenses, and duplicate
ment of postage and to identify, pursue, and            claims for miscellaneous expenses as offi-
seek prosecutive actions against violators              cial travel expenses. The investigation
                                                        revealed the manager used a ficticious
through civil, administrative, and criminal
                                                        name as the approving official. The for-
remedies.
                                                        mer manager was ordered to pay over
     Postal Inspectors focus on revenue investi-
                                                        $94,700 in restitution to the Postal Ser-
gations where there is intent by a customer to          vice.
defraud the Postal Service. In the last 6 months,
                                                    ◆   As the result of an investigation, a for-
there were 34 arrests and 14 successful criminal
                                                        mer Louisiana postmaster was sentenced
convictions resulting from revenue investiga-
                                                        to 1 year in prison and 3 years probation
tions.
                                                        for stealing postal funds. The postmaster
     Further, the Inspection Service investi-
                                                        failed to remit money order, postage, and
gates embezzlements involving employee theft            vending sales and also posted fraudulent
from cash drawers and schemes involving postal          or inflated disbursements to accounts.
money orders. Postal Inspectors initiated               The postmaster first claimed the office
208 investigations of employee embezzlements            had been robbed at gunpoint several
this reporting period, which documented losses          times and that it was never reported and     Postal Inspectors work diligently to protect
of over $2.6 million. Examples of investigations        losses were covered up because the rob-      the elderly from being victims of fraud.
in this area are summarized below:                      bers threatened harm if the authorities
                                                        were notified. The former postmaster
◆   A former Oklahoma officer-in-charge
                                                        was also ordered to pay over $77,400 in
    was sentenced to 15 months imprison-
                                                        restitution.
    ment, 3 years probation, 104 hours of
    community service, and ordered to pay           ◆   A former Virginia sales and service asso-
    restitution of over $43,700 for embezzling          ciate was sentenced to 1 year in prison
    postal money orders and stamp stock                 and 3 years probation for conspiring to
    sales. The officer-in-charge issued over            negotiate stolen postal money orders.
    $23,000 in postal money orders without              Postal Inspectors discovered that money
    making payment and deposited the funds              orders missing from the station had been
    into checking accounts controlled by the            imprinted for $700 with an inkjet printer
    officer-in-charge. The investigation also           and were cashed in Virginia and Alaba-
    found that approximately $5,800 was not             ma. The former employee was also
    deposited into postal bank accounts from            ordered to pay $30,800 in restitution to
    stamp stock sales. The scheme was dis-              the Postal Service.
    covered during the investigation of a fire
    at the office, which occurred the day
    before the office was to be transferred to
    a new officer-in-charge.
◆   A former New York letter carrier pled
    guilty to theft of postal money orders.
    The Inspection Service investigation dis-
    closed serious deficiencies in internal
    controls relating to the receipt and distri-
    bution of money orders at the post office.
    The plea agreement ordered the carrier
    to make full restitution of approximately
    $503,000 to the Postal Service.

                                                                                                       PAGE 35
PAGE 36   FINANCIAL MANAGEMENT REVIEWS
Technology Reviews




   OFFICE OF INSPECTOR GENERAL
        Developmental Reviews
        Information Systems Reviews
        Systems Development Reviews
        eCommerce Reviews
        Computer Intrusion Investigation Activities
        Legislative, Regulatory & Policy Reviews

   INSPECTION SERVICE




                                               PAGE 37
                                                                                               systems, information systems, electronic com-
                                           This section highlights audits, reviews,
                                                                                               merce, and computer intrusion detection activ-
                                           and investigations performed by the OIG
                                                                                               ities. In the past 6 months, the OIG performed
                                           and summarizes Inspection Service activi-
                                                                                               24 reviews in the technology area, some of
                                           ties in the technology area. Report num-
                                                                                               which are highlighted below:
                                           bers are shown in parentheses after the
                                           narrative, as appropriate. Also, the OIG
                                                                                               DEVELOPMENTAL REVIEWS
                                           legislative, regulatory, and policy reviews
                                           are included at the end of this section.                 The Postal Service is developing business
                                           In order to differentiate the work reported         systems and mail processing equipment to
                                           by the OIG and Inspection Service, the              improve performance, enhance service, and
                                           page containing the activities reported by          reduce operating costs. The typical develop-
                                           the Inspection Service has been color-              ment process begins with the identification of a
                                           screened.                                           business need. After the business need has been
                                                                                               identified, a solution is developed, followed by
                                                                                               the proof of concept, and first article tests and
                                                                                               final deployment. The OIG understands the
                                          OFFICE OF INSPECTOR                                  importance of reviewing these systems as they
                                          GENERAL                                              are developed and has completed 8 audits of
                                                                                               major projects currently under development


                                          T
                                                   he Postal Service recognizes that tech-
                                                   nology is key to productivity and afford-   during the reporting period. These reviews are
                                                   ability. Through technology, the Postal     highlighted below:
                                          Service handles more than 660 million pieces of      TESTING OF HUMAN
                                          mail every day and maintains its network of          TRANSPORTER INADEQUATE
                                          over 38,000 post offices and facilities. Its tech-         An OIG audit determined that the first
                                          nology strategy is to provide convenient and         testing phase of the Human Transporter pro-
                                          secure access to all customers on a daily basis      gram did not have a written test plan. As a
                                          through increasingly sophisticated retail sys-       result, there was no assurance that test proce-
The OIG found that the first testing      tems, expansion in new electronic access chan-
phase of the Human Transporter pro-                                                            dures and data collection methodologies were
                                          nels, and electronic linkages that integrate         uniform or consistent. Furthermore, the admin-
gram lacked a written test plan. As a
result, there was no assurance that       customer and postal processes. In addition, the      istration of the testing by the Postal Service did
test procedures or data collection were   Postal Service is using modern technology, such      not ensure an independent assessment of the
uniform or consistent.                    as NetPost™ Mailing Online, NetPost™                 program. Postal management agreed to delay
                                          Cardstore, and eBillPay™. These initiatives will     the first testing phase until a written test plan is
                                          improve and build on its existing services and       developed in collaboration with the Postal
                                          relationships with customers and continue            Service’s Test, Evaluation, and Quality group. In
                                          meeting traditional customer demands.                addition, postal management agreed to provide
                                               Last year’s terrorist attacks have demon-       the OIG with a written test plan and to perform
                                          strated how the nation’s infrastructure, includ-     future tests of the Human Transporters with the
                                          ing information systems, may be vulnerable to        Postal Service’s Test Evaluation and Quality
                                          attacks. Computer systems are also a critical        group. (OIG DA-AR-02-009)
                                          component of every aspect of postal operations
                                          that must be protected from potential cyber-ter-     CONFIRM MAIL TRACKING
                                          rorism to prevent disruption in service.             SYSTEM NOT USED
                                          Technology investments not only need to be           CONSISTENTLY IN POSTAL
                                                                                               OPERATIONS FOR
                                          scrutinized to minimize the risk of compromise,
                                                                                               DIAGNOSTIC PURPOSES
                                          but also to ensure that sound business decisions
                                                                                                    An OIG audit revealed that Confirm
                                          are made. This is particularly important as the
                                                                                               should be a valuable tool in managing the mail
                                          Postal Service reviews several technologies to
                                                                                               and improving customer satisfaction; however,
                                          identify an efficient, effective, and safe method
                                                                                               at this time the service is not consistently used
                                          to sanitize mail.
                                                                                               as a diagnostic tool to improve Postal Service
                                               OIG reviews have covered developmental


                               PAGE 38    TECHNOLOGY REVIEWS
operations. Confirm is a new Postal Service         examined the official results of the pre-produc-
mail-tracking system intended to improve cus-       tion test. The system is designed to reduce the
tomer satisfaction by allowing business cus-        expenses related to handling undeliverable as
tomers to track individual letter-size and flat     addressed mail. The OIG identified issues with
mail pieces using a special barcode. The audit      testing that was used to justify the purchase.
also disclosed several weaknesses in the con-            The OIG recommended that postal man-
tract process, including lack of documentation      agement not approve the request for $307.6
for contract negotiations, inappropriate            million for production until the system meets
increases in costs, and improper disclosure of      higher performance requirements. Postal
contract information to the contractor.             Service management stated that OIG concerns
     Postal Service management agreed with          were already addressed because the contractor
seven OIG recommended improvements.                 receives payment incentives when performance
However, postal management disagreed with           objectives are met. In addition, postal manage-
recommendations to explore the feasibility of       ment is committed to improving performance
using Confirm to supplement the External First-     and the contractor has designed a system that
Class Measurement System and refrain from           will allow the existing system to work with the
disclosing budget information to the contractor     new system. The OIG plans to perform follow-
prior to contract award. The OIG does not plan      up work on these performance issues as the
to pursue these recommendations through for-        project progresses. (OIG DA-AR-02-006)
mal audit resolution. (OIG DA-AR-02-007)
                                                    POSTAL SERVICE PAID
WEAKNESSES FOUND IN                                 $39 MILLION TO AUTOMATED
SURFACE-AIR MANAGEMENT                              SEAMLESS DISPATCH PROGRAM
SYSTEM                                              CONTRACTOR WITHOUT A
     An OIG audit disclosed the Surface-Air         SPECIFIED CONTRACT                                   An OIG audit revealed that the Confirm
Management System was an improvement over                At the request of postal management, the        mail tracking system is not used
                                                    OIG reviewed the Automated Seamless                  consistently as a diagnostic tool to
the Air Contract Data Collection System being
                                                                                                         improve operations and measure per-
replaced. However, the OIG found the system         Dispatch program. That review revealed short-
                                                                                                         formance.
does not comply with some Postal Service soft-      comings in the management of the program,
ware requirements. In addition, the system has      and contract administration negatively affected
insufficient security controls and unreliable       the program’s cost and integrity. In addition,
information due to weaknesses in operational        mismanagement of the Automated Seamless
and functional areas. The Surface-Air               Dispatch program and related contracts con-
Management System assigns mail to air carriers      tributed to improper contracting practices. For
and supports air contract payments. Postal          example, the Postal Service paid the contractor
Service management agreed to ensure the sys-        approximately $39 million without validating
tem complies with Postal Service standards and      whether reported costs were allowable and
policy for computer access and system classifica-   properly charged.
tion, and to update the system’s risk assessment.        In addition, a statement of work was not
Further, postal management agreed to train          completed until 11 months after the funds were
field maintenance staff and take advantage of       initially authorized. Specifically, the contractor
future opportunities to obtain the best contrac-    claimed it had been performing and delivering
tual value. (OIG DA-AR-02-005)                      to the requirements of the program without a
                                                    specified contract. As a result, the contractor
PRE-PRODUCTION TEST                                 claimed its costs to complete the program grew
SHOWS LOWER THAN                                    to an estimated $78 million, far exceeding the
ANTICIPATED PERFORMANCE
                                                    original $25 million proposal. After Postal
FOR THE POSTAL AUTOMATED
REDIRECTION SYSTEM                                  Service management stopped work on the pro-
                                                    gram, it limited the contractor’s liability, redi-
    The OIG conducted a survey to validate
                                                    rected the remaining integration work, and
the justification to purchase the Postal
                                                    completed deployment of the dispatch equip-
Automated Redirection System, Phase I, and
                                                    ment within budget.


                                                                                                           PAGE 39
                                                 Additionally, postal management identi-        tested on various mail processing equipment.
                                            fied but took no action regarding $2.9 million in   The OIG had concerns with the air collection
                                            costs incorrectly included in the program. The      efficiency and testing of the alarm notification
                                            OIG considers the $2.9 million as questioned        system. The Postal Service generally agreed to
                                            costs requiring action by postal management.        continue to search for complementing technolo-
                                                 The OIG made eight recommendations to          gies, such as trigger capabilities. Additionally,
                                            improve contracting and program management.         postal management agreed to address air collec-
                                            Postal management generally agreed with the         tion efficiency differences during tests and iden-
                                            recommendations; however, postal manage-            tify requirements needed for the alarm
                                            ment’s response to four of the recommendations      notification system. The Postal Service stated it
                                            was not responsive. Two of those recommenda-        has an ongoing effort to conduct further testing
                                            tions are being pursued through the audit reso-     and evaluation of promising technologies to be
                                            lution process. The OIG will follow-up on the       integrated with the existing Biohazard
                                            other two recommendations in a future audit         Detection System. (OIG DA-MA-02-001)
                                            report. (OIG DA-AR-02-010)
                                                                                                EFFECTIVENESS OF BIOHAZARD
                                            BIOHAZARD PREVENTION AND                            FILTRATION SYSTEM
                                            DETECTION TECHNOLOGY NEEDS                          QUESTIONED
                                            SIMULTANEOUS TESTING                                      An OIG review questioned the effective-
                                                 In response to last year’s anthrax attacks,    ness and level of protection of the Postal
                                            the Postal Service has assessed various tech-       Service’s Ventilation and Filtration System.
                                            nologies to address the threat of biohazards in     The audit revealed the Postal Service needs to
                                            the mailstream and is currently focusing on fil-    test the filtration portion of the system to deter-
                                            tration and detection systems. The goal of fil-     mine its effectiveness and base its testing strat-
                                            tration technology is to reduce the risk of         egy on a detailed risk assessment. Additionally,
                                            biohazards being introduced into the mail-          the total cost of site upgrades could outweigh
The OIG found that the Postal Service did
not effectively manage the Automated        stream, reduce the risk of exposure to employees    the benefits of installing the system. Postal
Seamless Dispatch Program.                  and the public, and prevent cross contamina-        Service management agreed with OIG recom-
                                            tion of mail. The Postal Service will rely on       mendations to continue to assess the system to
                                            detection technology to identify potential bio-     determine whether it is beneficial to install.
                                            hazardous materials as early as possible in the     Further, the Postal Service agreed to have the
                                            mailstream.                                         National Institute for Occupational Safety and
                                                 Testing of prototype filtration systems and    Health test the filtration unit to determine its
                                            biohazard detection systems is currently under-     actual efficiency. (OIG DA-MA-02-002)
                                            way at various postal facilities. However, OIG
                                            reviews found that the Postal Service had not       INFORMATION SYSTEMS
                                            tested the systems concurrently to determine        REVIEWS
                                            how either system will affect the performance of         The Postal Service relies on a complex
                                            the other. Postal Service management agreed to      computer infrastructure to accomplish and
                                            test the filtration and detection systems simul-    streamline operations, manage one of the
                                            taneously on a single piece of mail processing      largest civilian workforces in the world, and
                                            equipment to ensure there are no adverse effects    move billions of pieces of mail each year. The
                                            on either system prior to acquisition. Of the       Postal Service has initiated several information
OIG reviews recommended                     $587 million appropriated by Congress to            technology projects to enhance efficiency and
improvements to the Postal Service’s        address the biohazard threat, the Postal Service    increase revenue. The Postal Service must con-
biohazard prevention and detection
                                            has designated a portion for filtration systems     tinue to ensure computer security is maintained
efforts, including the ventilation and
filtration system.                          and biohazard detection equipment.                  and improved to reduce the risk of fraud, inap-
                                            (OIG DA-AR-02-008)                                  propriate disclosure of sensitive data, unautho-
                                                                                                rized disclosure of customer information, and
                                            BIOHAZARD DETECTION SYSTEM                          disruption of critical operations and services.
                                            IMPROVEMENTS NEEDED                                 The OIG has initiated a major telecommunica-
                                                The Biohazard Detection System was              tions review and reviews of Postal Service


                                 PAGE 40    TECHNOLOGY REVIEWS
general controls at an engineering research and         audit revealed that these databases resided on
development center. In addition, the OIG con-           servers that were not secure. The vulnerabilities
ducts annual assessments of general controls at         occurred because, at the time of our review, the
major processing centers. The most significant          Postal Service did not have complete and cur-
reviews are highlighted below:                          rent guidance for securing databases, and semi-                 DID YOU
SENSITIVE TEST DATA
                                                        annual reviews of user permissions had not been                 KNOW?
                                                        documented. Postal Service management
VULNERABLE TO DISCLOSURE
AND UNAUTHORIZED                                        agreed with four OIG recommendations regard-
MODIFICATIONS                                           ing improving server and database security and
                                                                                                            Did You Know?
                                                        corrective actions are planned or taken.
     While conducting a survey review of gen-                                                               In 1777, the Continental
                                                        (OIG IS-AR-02-014)
eral controls and the network layout at an engi-                                                            Congress created a system for
neering research and development center site,           FY 2002 INFORMATION                                 handling “dead letters”, pieces of
the OIG identified vulnerabilities in the pro-          SYSTEMS CONTROLS AUDIT
                                                                                                            mail rendered undeliverable by
tection of sensitive test data used in developing       CONDUCTED
new mail processing systems and supporting                                                                  incomplete, improper, or even
                                                             The OIG conducts an audit of information
new equipment acquisitions. Disclosure or               systems controls each year in support of the        missing addresses. Employees of
unauthorized modification of this data could            annual financial statement audit. The FY 2002       the Dead Letter Office were and
result in a loss of public trust, fraud, or manipu-     audit revealed that controls over software and      still are, allowed to break the
lation for financial gain by vendors competing          data security at the Information Technology         sanctity of the mail by opening
for Postal Service automation equipment con-            and Accounting Service Centers were adequate        and reading mail only as far as
tracts. The Postal Service agreed with the OIG’s        and postal management had taken action to           needed to ascertain the proper
recommendations and has initiatives com-                resolve recommendations made in previous
pleted or in progress to install firewalls or filters
                                                                                                            recipient. If they are unable to
                                                        reports. However, additional improvements
and encrypt sensitive data traveling over the           were necessary in the area of computer equip-       determine either who the letter
network. (OIG IS-AR-02-007)                             ment accountability and access badge permis-        came from, or to whom it was
                                                        sions for employees, contractors, and visitors      intended, the letter is destroyed.
SECURITY WEAKNESSES
IDENTIFIED BY NETWORK                                   who no longer needed to access the facilities
VULNERABILITY TESTS                                     where the badges were assigned. Postal Service
                                                        management has taken or planned appropriate
      The OIG issued six technical reports on
                                                        corrective actions. (OIG IS-AR-02-015)
security weaknesses in network switches and
selected servers at Postal Service Headquarters         NETWORK SECURITY COULD
and other localities nationwide. These vulnera-         BE IMPACTED BY GENERAL
bilities, if left uncorrected, could result in the      CONTROL WEAKNESSES
loss of confidentiality, integrity, and availability         The OIG’s reports on general controls at
of vital financial and operational systems; or          two locations collectively identified weak-
allow an unauthorized user to gain access to            nesses in implementing the information secu-
additional information and systems. Postal              rity assurance process and/or physical and
Service management agreed with the OIG’s                network security. The OIG identified a need
recommendations and indicated corrective                to follow the formal security assurance
actions were planned or taken.                          process to ensure that minimum system secu-
(OIG IS-AR-02-008, OIG IS-AR-02-009,                    rity requirements are defined and properly
OIG IS-AR-02-010, OIG IS-AR-02-011,                     implemented. Vulnerability tests conducted
OIG IS-AR-02-012, and OIG IS-AR-02-013)                 on selected network equipment identified a
                                                        variety of weaknesses that require immediate        The OIG conducted vulnerability tests
MULTIPLE VULNERABILITIES
DISCOVERED IN DATABASES                                 management attention. The network deficien-         on selected servers at Postal Service
                                                        cies occurred because at the time of the OIG’s      headquarters and other localities
     OIG vulnerability tests on selected data-                                                              nationwide.
                                                        review, the Postal Service did not have defini-
bases at a Postal Service data center revealed
                                                        tive guidance for managing and securing these
multiple vulnerabilities that, if uncorrected,
                                                        devices. Postal Service management indicated
could result in the loss of confidentiality and
                                                        that corrective actions were planned or taken to
integrity of vital application data. Further, the


                                                                                                              PAGE 41
                                            address all OIG recommendations.                     mer financial systems director for an informa-
                                            (OIG IS-AR-02-016 and OIG IS-AR-02-017)              tion technology company pled guilty to one
                                                                                                 count of wire fraud. The director defrauded the
                                            SYSTEMS DEVELOPMENT
                                                                                                 company by manipulating the payroll system to
         DID YOU                            REVIEWS
                                                 Reviewing systems during the development
                                                                                                 embezzle over $1.1 million. The company pro-
         KNOW?                              process provides an opportunity to identify
                                                                                                 vided outsourcing and information technology
                                                                                                 solutions to various federal, state, and local gov-
                                            potential cost and time savings, and a greater
                                                                                                 ernment agencies including the Postal Service.
                                            assurance that appropriate internal controls will
What is computer hacking?                                                                        As a result of this theft, the overhead rates for
                                            be included in the completed system. Industry
                                                                                                 government contracts with the company were
Computer hacking is an event in             practices show that it is 50 to 100 times more
                                                                                                 inflated.
which someone within or outside             costly to make changes after a system is placed
the Postal Service illegally                into production. During system development,
                                                                                                 eCOMMERCE REVIEWS
                                            the OIG reviewed two initiatives. The first,
attempts to gain entry into the                                                                       The Postal Service continues to provide
                                            which is designed to improve mail tracking to
Postal Service computer systems.            support service measurement, is an umbrella          customers with new online products and ser-
The OIG’s computer intrusion                covering multiple programs. The OIG recom-           vices to enhance their personal and professional
team investigates hacking                   mended that Postal Service management fur-           lives. In addition, the Postal Service continues
attempts.                                   ther define the project and address information      to improve the performance and usability of its
                                            security requirements. Postal Service manage-        web presence to ensure secure access and pro-
                                            ment disagreed with two recommendations and          tect customer privacy. The Postal Service has
                                            provided existing documentation that further         also eliminated or consolidated initiatives that
                                            defined the program and appointed an execu-          do not fully support the core products and con-
                                            tive sponsor. Management agreed with the             tribute to revenue. OIG efforts during this
                                            remaining recommendations and has imple-             period focused on security, privacy, access, con-
                                            mented corrective actions to address them.           tract, and cost containment issues. Three of
                                                 The second initiative provides data to a        these efforts are highlighted below:
                                            program that enables the Postal Service to share     eBUSINESS AGREEMENTS NEED
                                            mail tracking and status information with            IMPROVED CONTRACT
                                            mailers. The OIG identified concerns with the        LANGUAGE
                                            communications approach, software change                   Based on a review of selected eBusiness
                                            management, information security require-            agreements, the OIG found that the Postal
                                            ments, and hardware resources. Postal Service        Service did not always include in its contracts
                                            management disagreed with two recommenda-            clauses relating to computer security, Privacy
                                            tions; however, corrective actions planned satisfy   Act issues, and access to contractor records. As
                                            the intent of one recommendation and the OIG         a result, the Postal Service’s systems, trusted
                                            does not plan to pursue the second item through      third-party status, and access rights were placed
                                            the formal audit resolution process. Postal          at risk. For example, one contract for a greeting
                                            Service management has taken or has planned          card service the Postal Service offers on its web-
                                            corrective actions to address the remaining rec-     site did not have a security clause in the agree-
                                            ommendations.                                        ment with its service provider. The Postal
An OIG audit made recommendations           (OIG EM-AR-02-013 & OIG EM-AR-02-014)                Service identified that the service was transmit-
to improve Postal Service policy and                                                             ting customer data in a way that exposed per-
procedures for a pilot program to           DIRECTOR OF AN
                                            INFORMATION TECHNOLOGY                               sonal and financial data to other Internet users.
auction off the contents of undeliverable
mail online.                                COMPANY EMBEZZLED                                    After the problem was identified, the Postal
                                            $1.1 MILLION FROM PAYROLL,                           Service took immediate corrective action.
                                            PLED GUILTY TO FRAUD                                 However, if adequate contract language and
                                                As a result of a joint investigation by the      controls had been in place, this situation may
                                            OIG, Federal Bureau of Investigation, Defense        have been mitigated. Postal management ini-
                                            Criminal Investigative Service, and the Air          tially disagreed with seven recommendations;
                                            Force Office of Special Investigations, the for-     however, all disagreements have been resolved.
                                                                                                 (OIG EM-AR-02-012)


                                PAGE 42     TECHNOLOGY REVIEWS
INTERNET AUCTION PROCESS                            of system usage, satisfaction, and decision-mak-
CAN BE STRENGTHENED                                 ing capabilities. The Retail Data Mart System is
     In response to three Hotline allegations,      designed to warehouse and provide retail infor-
the OIG conducted an audit of mail recovery         mation captured through the POS One termi-
center auctions. The Postal Service auctioned       nals on products sold. Survey results revealed
the contents of undeliverable mail and parcels      that employees using the system gave it an over-
under a pilot program using an online auction       all positive rating. Of the 71 authorized users
company. The audit revealed that by using an        and 50 district managers who responded to the
online auction company, the Postal Service          survey, the majority were generally pleased with
increased revenue, the frequency of auctions,       the system, indicating that it provided useful
and its customer base. For example, online auc-     and timely data; and was accurate, reliable,
tions of undeliverable mail from one of the         complete, and cost justified. However, users
three mail recovery centers brought in addi-        indicated that few respondents use the system in
tional revenue totaling $1.7 million over 10        the decision-making process, specifically in
accounting periods. The audit substantiated one     areas such as inventory, finance, and marketing.
of the allegations that Postal Service employees,   The report made no recommendations to postal
their families, and friends were not always         management. (OIG EM-MA-02-002)
restricted from purchasing Postal Service items
                                                                                                           The OIG surveyed postal employees who
on the auction website. Because policies and        COMPUTER INTRUSION                                     used the Retail Data Mart System to
controls were not adequate, the Postal Service      INVESTIGATION ACTIVITIES                               determine their satisfaction with the
may not be able to detect improper auction pur-          The OIG Computer Intrusion Team inves-            system. The system provides retail
chases. The OIG did not substantiate the other      tigates criminal violations of state and federal       information captured through the POS
                                                    laws enacted to protect the authenticity, privacy,     One terminal shown here.
two allegations related to non-compliance with
the Americans with Disabilities Act and con-        integrity, and availability of electronically stored
tract awards.                                       and transmitted information. eCommerce ven-
     The audit also revealed that privacy and       tures make the protection of postal information
security issues were not adequately addressed       systems critical to the financial viability of the
and concluded that the Postal Service may not       Postal Service. Because such ventures involve
be adequately maintaining and protecting infor-     connectivity between postal systems and
mation collected through online auctions.           eCommerce partners, the Computer Intrusion
Furthermore, the Postal Service did not perform     Team conducts investigations of attacks on the
the required security review of the online auc-     security of those systems in order to maintain the
tion system, thereby increasing security risks      integrity of eCommerce information. The team
and exposure to potential problems. The OIG         informs Postal Service management and
recommended Postal Service management               eCommerce partners regarding emerging
update its guidance for online auctions, deter-     threats to information systems, and assists them
mine whether the Privacy Act applies to online      in identifying and eliminating potential vulner-
auctions, implement the appropriate protec-         abilities. These efforts include assisting the
tions, and complete the required security           Postal Service in developing security policies,
review. Postal management agreed with the           information systems, and eCommerce proce-
majority of recommendations; however, because       dures that conform to the best practices in
the online auction pilot project was discontin-     industry and government. During this reporting
ued, postal management responded that no fur-       period, the OIG completed a number of
ther action was necessary.                          investigations and provided technical assistance
(OIG EM-AR-02-010)                                  to the Postal Service. Some efforts are high-
                                                    lighted below:
USERS SURVEYED SATISFIED
WITH THE RETAIL DATA MART                           CANADIAN ARRESTED FOR
SYSTEM                                              INVOLVEMENT IN HACKING
     The OIG conducted two agency-wide              OIG WEB SITE
surveys of Postal Service employees using the           In June 2002, based upon information
Retail Data Mart System to determine the level      provided by OIG investigators, the Royal


                                                                                                            PAGE 43
                                   Canadian Mounted Police arrested a 20-year-
                                   old Canadian citizen for involvement in hack-
                                   ing a postal web page. OIG investigators deter-
                                   mined that an individual participated in the
        DID YOU                    hack by using computers at a Canadian college.
        KNOW?                      Based upon information provided by the OIG,
                                   the Royal Canadian Mounted Police deter-
                                   mined that the Canadian college’s computers
What law enforcement               had also been hacked. The Royal Canadian
                                   Mounted Police identified and arrested the
authority do OIG investigators     hacker, who now faces charges in Montreal.
have?                              OIG PROTECTS THE POSTAL
OIG criminal investigators have    SERVICE’S INFRASTRUCTURE
full law enforcement authority.         The OIG computer intrusion team, work-
These special agents are autho-    ing jointly with the Postal Service’s Computer
rized to carry firearms, serve     Incident Response Team, analyzed approxi-
subpoenas, execute search          mately 1,000 events reported as potential
warrants, and make arrests.        attacks or suspicious activity against the Postal
                                   Service’s information network.
                                        The computer intrusion team continues to
                                   work with the Postal Service to enhance its
                                   ability to detect, report, and respond to attacks
                                   on the Postal Service’s information network.
                                   LEGISLATIVE, REGULATORY &
                                   POLICY REVIEWS
                                        During this reporting period, the OIG did
                                   not identify legislation, regulations, and policies
                                   affecting Postal Service technology.




                         PAGE 44   TECHNOLOGY REVIEWS
INSPECTION SERVICE

T
         he Inspection Service plays an impor-
         tant role in the support of Postal Service
         Internet products and services. The
Inspection Service evaluates the need for and
processes security clearances of employees and
contractors accessing postal systems or sensitive
information. In addition, the Inspection Service
monitors the development of new postal prod-
ucts and services and provides consultation to
postal managers on security, loss prevention,
revenue protection, and evidence retention
capabilities. The Inspection Service also moni-
tors and reviews the physical security of individ-
ual systems before and after implementation.




                                                      Postal Inspectors were presented with an
                                                      award by the National Center for Missing
                                                      and Exploited Children at the 2002
                                                      Congressional Breakfast.




                                                                                                 PAGE 45
PAGE 46   TECHNOLOGY REVIEWS
Labor Management
Reviews




 OFFICE OF INSPECTOR GENERAL
      Workplace Environment Reviews
      Human Resources Process Reviews
      Health Care Reviews
      Legislative, Regulatory & Policy Reviews

 INSPECTION SERVICE




                                             PAGE 47
                                         This section highlights audits, reviews, and         completed 5 reviews and 10 investigations in
                                         investigations performed by the OIG and              the labor management area.
                                         the Inspection Service in the labor manage-
                                         ment area. Report numbers are shown in               WORKPLACE ENVIRONMENT
                                         parentheses after the narrative, as appro-           REVIEWS
                                         priate. Also, the OIG legislative, regulato-              The Postal Service has identified signs of
                                         ry, and policy reviews are included at the           workplace stress in many of its facilities and is
                                         end of this section. In order to differentiate       developing comprehensive steps to improve the
                                         the work reported by the OIG and Inspec-             workplace environment, including improving
                                         tion Service, the page containing the work           relations between managers and employees and
                                         reported by the Inspection Service has been          aligning human resources with business require-
                                         color-screened.                                      ments. During this reporting period, the OIG
                                                                                              completed 39 inquiries into complaints of a hos-
                                                                                              tile work environment or other health and
                                                                                              safety issues, some of which are highlighted
                                         OFFICE OF INSPECTOR                                  below:
                                         GENERAL                                              ◆   Postal Service district management pro-


                                         T
                                                 he Postal Service has characterized              posed a reduction in pay for a postmaster
                                                 labor management as one of the most              after an OIG review determined the
The Postal Service deals with four               important challenges in achieving its            postmaster caused a hostile work envi-
labor unions and two management          mission in the 21st century. A key Postal                ronment. An employee alleged the post-
associations.                            Service goal in the labor management area is to          master created a hostile work environ-
                                         foster an inclusive, welcoming, and productive           ment through sexual harassment.
                                         workplace consistent with its values of fairness,    ◆   As a result of an OIG review, a supervi-
                                         opportunity, safety, and security. With more             sor at a California processing and
                                         than 850,000 full and part-time employees                distribution center was detailed to
                                         working at more than 38,000 facilities nation-           another position after it was determined
                                         wide, the Postal Service realizes that to operate        the supervisor may have caused a hostile
                                         effectively, in a rapidly changing environment,          work environment. An employee com-
                                         it needs to give employee issues a higher priority       plained of deteriorating working condi-
                                                                                                  tions when the supervisor returned to the
                                         and enhance each employee’s contribution to
                                                                                                  center. Postal Service management took
                                         organizational performance. Additionally, in
                                                                                                  corrective action to resolve this issue
                                         light of terrorist attacks, including attacks
                                                                                                  including remedial training for the
                                         involving the transport of anthrax through the
                                                                                                  supervisor.
                                         mail, the Postal Service must take every precau-
                                         tion to ensure the safety and well-being of its      HUMAN RESOURCE PROCESS
                                         employees.                                           REVIEWS
                                              The OIG supports the Postal Service in its           Postal Service managers are responsible for
                                         overall goal of fostering an inclusive and wel-      preserving and protecting official records and
                                         coming workplace consistent with the Postal          privacy information. In addition, managers
                                         Service values of fairness, opportunity, safety,     must avoid conflicts of interest, which could
                                         and security. The labor management area              affect both the public’s trust and confidence in
                                         includes workplace environment, human                Postal Service human resources processes.
                                         resources, and health care. While the OIG has        Postal Service managers are also responsible for
                                         worked diligently with the Postal Service and        complying with existing policies and procedures
                                         Congress to address these areas of concern,          regarding sexual harassment, overtime, leave,
                                         reviewing labor management areas continues to        compensation and benefits, and training. The
                                         be one of the OIG’s greatest challenges. In this     OIG conducted the following audits and inves-
                                         regard, the OIG has received over 3,896 indi-        tigations to assess controls over these processes:
                                         vidual labor management complaints since
                                         1997. During this reporting period, the OIG


                               PAGE 48   LABOR MANAGEMENT REVIEWS
$700,000 CREDIT ADJUSTMENT                          little or no change in others. The Postal Service
POSSIBLE IN WORKERS’                                agreed it could improve its representation of
COMPENSATION PROGRAM                                women and minorities at the Postal Career
     An OIG audit of the Southwest Area             Executive Service level. Postal Service manage-
revealed the Postal Service did not receive         ment agreed to improve the corporate succes-                      DID YOU
credit adjustments for approximately $286,000       sion planning process by fully documenting the
                                                    process, and to identify and address obstacles to
                                                                                                                      KNOW?
in wage compensation overpayments and
refundable disbursements from the Department        increase diversity of postal executives.
of Labor. Based on sample results, the OIG pro-     (OIG LH-AR-02-004)
                                                                                                          Why are workers’
jected approximately $700,000 in overpay-           ECONOMIC VALUE ADDED PAY
ments were not monitored to ensure the Postal                                                             compensation costs
                                                    FOR PERFORMANCE PROGRAM
Service received appropriate credits. Although      TERMINATED                                            increasing?
the Postal Service had policies to ensure appro-          The OIG performed a comprehensive               Many factors contribute to this.
priate credit adjustments for wage compensa-        review of the Postal Service’s executive pay for      Some are beyond the control of
tion overpayments, and third-party liability        performance program. In August 2001, the              the Postal Service such as higher
refundable disbursements were received, some        Board of Governors asked the Postmaster
locations did not implement the procedures.                                                               medical costs, claim overpayments
                                                    General to find alternatives to its pay for per-
     Postal Service management agreed with                                                                by the program administrator,
                                                    formance program after an OIG report raised
OIG recommendations to renew its emphasis           questions about whether the program, as struc-        increased incidents of fraud by
on monitoring overpayments and disburse-            tured, was appropriate for the Postal Service’s       doctors and hospitals, and an
ments; issue follow-up procedures that adhere       breakeven operating environment.                      aging work force. The OIG and
to existing policies; develop a system to track           Some highlights of the two reports issued       Postal Service are focusing their
previously identified wage compensation over-       include advising management that there                efforts on improving the program
payments; and review the cases the OIG did not      appeared to be little connection between the          and reducing costs.
audit to determine whether credit adjustments       amount of incentive awards paid and financial
were received. In addition, Postal Service man-     performance. While incentive awards remained
agement agreed to implement these recommen-         fairly level at about $300 million per year, at the
dations nationwide. (OIG LH-AR-02-003)              same time profits steeply declined from $1.8
CORPORATE SUCCESSION                                billion in 1995 to a loss of $1.7 billion in
PLANNING CAN BE BETTER                              FY 2001. After the pay for performance pro-
DEFINED AND DOCUMENTED                              gram was established in 1996, on-time mail
     At the Board of Governors’ request, the        delivery service improved, but results were only
OIG conducted an audit, which revealed the          measured for one-half of the year. The Postal
Postal Service’s corporate succession planning      Service spent an extra $130 million per year for
process for filling vacant Postal Career            fall and winter mail delivery; however, they
Executive Service positions included many fea-      stated service during this period was not mea-
tures the OIG identified as best practices for      sured because the impact of weather and airline
successful organizations. However, the Postal       traffic did not equally affect transportation
Service had not fully documented its corporate      networks at all locations.
succession planning process or clearly defined            In addition, participants received almost       An OIG audit revealed that the Postal
how the plan would help meet corporate strate-      $223 million in incentive awards based on mea-        Service needs to improve its monitoring
                                                    sures and targets that did not challenge partici-     to obtain credits for wage compensation
gic goals, and address significant changes in the
                                                    pants to improve workplace relations or overall       overpayments.
Postal Service business environment.
Additionally, the Postal Service needed to          safety. For instance, while employee safety
improve its oversight of potential successors’      improved significantly overall, program partici-
executive development and the associated            pants received approximately $117 million in
training costs.                                     incentive awards for achieving targets even
     The OIG also found the Postal Service          though the number of lost workdays increased
implemented diversity programs into the corpo-      in FYs 1999 and 2000 when compared to FY
rate succession planning process, resulting in a    1998. Additionally, the program resulted in
slight increase of some diversity statistics, and


                                                                                                            PAGE 49
                                        managers receiving over $500 million in incen-    considers these issues resolved.
                                        tive awards for allegedly improving financial     (OIG LH-AR-02-005)
                                        performance, when all indicators showed finan-
                                        cial performance declined.                        HEALTH CARE REVIEWS
                                             While the Postal Service announced the            Controlling injury claim costs continues to
                                        end of its pay for performance program, it gen-   be key to the Postal Service’s financial well-
                                        erally agreed with OIG recommendations to         being because it is self-insured for workers’ com-
                                        add performance measures to the new program       pensation costs and makes payments out of
                                        and hold managers accountable for improving       operating funds, which directly affect the net
                                        labor management relations and financial per-     income. In FY 2002, the Postal Service paid
                                        formance. Improvements included reducing          over $760 million for employee injury claims, a
                                        debt, and establishing controls to assure a       $66 million increase over the $694 million paid
                                        return on its investments.                        in FY 2001.
                                        (OIG AC-AR-02-005 & OIG AC-AR-02-006)                  The OIG assists in protecting the health
                                                                                          and welfare of the Postal Service’s workforce by
                                        ASSOCIATE SUPERVISOR
                                        PROGRAM BENEFITS NOT                              conducting audits and investigations to prevent
                                        FULLY REALIZED                                    and detect fraud, waste, abuse, and mismanage-
                                             An OIG audit revealed while the Great        ment related to health care program costs. In
                                        Lakes Area was successful in training over 900    addition, involvement in health care fraud
                                        employees through the Associate Supervisor        investigations is vital to controlling costs related
An OIG audit revealed that the Postal
                                        Program, the Postal Service had not fully         to health care premiums. To enhance these
Service had not fully assessed the                                                        efforts, the OIG entered into a partnership with
Associate Supervisor Program to         assessed the program to determine its impact on
                                        labor management relations and operations.        the Department of Labor Office of Inspector
determine its impact on labor
management relations and operations.    Specifically, the OIG found procedures for        General to conduct joint reviews of workers’
                                        screening applications and selecting program      compensation claims.
                                        candidates were adequate; however, these pro-          The OIG investigates allegations of fraud
                                        cedures were not always followed. The OIG also    involving health care providers who are paid by,
                                        found the Postal Service deviated from the        or on behalf of, the Postal Service for medical
                                        selection procedures when processing applica-     services rendered to Postal Service employees
                                        tions and selecting candidates for the program.   related to:
                                        In addition, benefits of the program were not     ◆    Federal Employees’ Compensation Act.
                                        maximized because postal management did not            This act is administered by the Depart-
                                        determine the appropriate number of entry-             ment of Labor with costs charged back to
                                        level supervisor positions, nor place graduates        the Postal Service.
                                        when and where needed. Furthermore, Postal        ◆    Postal Service-contracted doctors and
                                        Service management did not have a budget or            facilities. Approximately 1,500 physi-
                                        track expenditures for the program. Finally,           cians and facilities are contracted and
                                        oversight was not provided to ensure the pro-          paid directly by the Postal Service to pro-
                                        gram was implemented efficiently and effec-            vide medical services to its employees.
                                        tively.                                           ◆    Federal Employees Health Benefits
                                             Postal management agreed to the majority          Program. Under the program, the Postal
                                        of the findings and recommendations. However,          Service pays 80 percent of approximately
                                        they did not agree with recommendations to             850,000 employees’ health care premi-
                                        assess the impact of the program to improve            ums, which is a direct expenditure for the
                                        labor management relations and Postal Service          Postal Service.
                                        operations, or to establish a budget and cost          In the past 6 months, the OIG completed
                                        center to capture program expenditures Postal-    10 investigations in this area. These investiga-
                                        wide. OIG meetings with postal management         tions identified improper billing practices, such
                                        resulted in planned actions by the Postal         as false claims and false statements by health
                                        Service, which satisfy the intent of the recom-   care providers. The OIG’s health care fraud
                                        mendations. Based on these meetings, the OIG      investigations have resulted in 9 arrests,


                              PAGE 50   LABOR MANAGEMENT REVIEWS
10 indictments, and 5 convictions. Some inves-       former employee revealed the provider
tigations are highlighted below:                     fraudulently billed the Department of
                                                     Labor, Postal Service, and other private
◆   A joint OIG investigation with the
                                                     insurance carriers.
    Defense Criminal Investigative Service,
    Federal Bureau of Investigation and          ◆   As a result of an OIG investigation, a
    Internal Revenue Service, Criminal               Postal Service employee was removed
    Investigation Division, resulted in a den-       from a temporary position with the
    tist pleading guilty and being sentenced         Postal Service for working as a part-time
    to 27 months in prison and 3 years pro-          chiropractor with an expired license.
    bation. The investigation disclosed the          The investigation disclosed the former
    dentist was involved in a scheme to sub-         employee wrote a light duty status note
    mit insurance claims for dental services         on Postal Service letterhead for a fellow
    never rendered to government employ-             employee.
    ees, including Postal Service employees.     ◆   As part of a joint investigation by the
    The dentist was ordered to pay restitu-          OIG, the Postal Inspection Service, the
    tion of more than $264,000 to several            Defense Criminal Investigative Service,
    health insurance companies, surrender a          and the Florida Department of Insurance
    license to practice dentistry, and pay the       Fraud, four subjects were arrested in
    Internal Revenue Service approximately           Miami for involvement in a fraudulent
    $1 million.                                      health care billing scheme. The investi-
◆   Two Texas siblings were indicted and             gation was initiated based on fraudulent
    pled guilty in a Texas court for involve-        medical claims submitted by fictitious
    ment in a health care fraud scheme               medical providers to the Federal Employ-
    involving durable medical equipment.             ees Health Benefits Program, TRICARE,
    The siblings, who owned and operated a           and private medical insurance companies      The OIG issues subpoenas in support
    telemarketing company, allegedly con-            for services never rendered. A total of      of its activities and of selected
    tacted disabled people and offered free          over $660,000 in fraudulent health care      investigations undertaken by the
    medical equipment such as hospital beds,         insurance checks were cashed in this         Inspection Service.
    motorized vehicles, and wheelchairs. The         scheme.
    disabled were told, if the equipment was     ◆   An OIG investigation revealed a Kansas
    covered under their insurance policy and         City doctor recommended or performed
    their doctor submitted a prescription, the       unnecessary surgeries and billed for surg-
    equipment would be provided free. Cus-           eries not performed. Convicted of 33
    tomers’ information was used to file             counts of health care fraud, 7 counts of
    claims with insurance companies, includ-         mail fraud, and 3 counts of perjury, the
    ing claims on behalf of Postal Service           doctor was sentenced to 72 months in
    employees, for equipment not delivered           prison, 3 years of supervised release, and
    or inferior to that claimed.                     ordered to pay a $4,300 special assess-
◆   As a result of a joint OIG investigation         ment fee. The doctor also agreed to be
    with the Department of Labor, Office of          excluded from Medicare, TRICARE,
    Inspector General, Texas Workers’ Com-           Medicaid, and all Federal Employee
    pensation Commission, and the Texas              Health Benefit Programs, for 15 years
    Mutual Insurance Company, a Texas                after being released from jail.
    health care provider pled guilty to steal-   ◆   As a result of an OIG analysis, the
    ing fees in excess of $100,000 in a health       Department of Labor, Office of Workers’
    care fraud scheme. The provider was              Compensation reimbursed the Postal
    ordered to pay over $168,000 in restitu-         Service nearly $70,000. The investiga-
    tion to numerous federal and state work-         tion disclosed that although a series of
    ers’ compensation system participants.           payments made to a provider were never
    The Postal Service received over $8,000          negotiated, the charges were passed to
    in restitution and $10,000 for investiga-        the Postal Service. The charges were
    tive costs. The investigation was con-           cancelled and the credits were issued to
    ducted after an audit of the provider            the Postal Service.
    identified deceptive billing practices. A

                                                                                                     PAGE 51
                                                                                               data provided to the Equal Employment
                                                                                               Opportunity Commission; and any adjustment
                                          LEGISLATIVE, REGULATORY, &                           to comply with the reimbursement requirement
                                          POLICY REVIEWS                                       under this Act.
                                               During this reporting period, the OIG                Additionally, the law directs each federal
                                          identified and reviewed legislation, regulations,    agency to post on its public website specified
                                          and policies affecting Postal Service labor man-     summary statistical data relating to equal
                                          agement. Some of the legislation and regula-         employment opportunity complaints filed with
                                          tions reviewed are highlighted below:                such agency by employees or applicants; the
                                          ENACTED LEGISLATION                                  Equal Employment Opportunity Commission
                                                                                               to post on its public website summary statistical
                                          Public Law 107-174 — The Notifica-                   data relating to hearings requested on such com-
                                          tion and Federal Employee Anti-dis-                  plaints and appeals filed with it from final
                                          crimination and Retaliation Act of 2002              agency actions; and the Equal Employment
                                          (No FEAR Act)                                        Opportunity Commission to issue rules govern-
                                               This law requires federal agencies, includ-     ing the posting of such data.
                                          ing the Postal Service, to be accountable for             The OIG strongly supports statutes to pro-
                                          violations of anti-discrimination and whistle-       tect employees from discrimination and retalia-
The OIG uses search warrants as an
investigative tool to obtain critical     blower protection laws. Accordingly, the             tion resulting from reporting misconduct, fraud,
information.                              amount of any claim, final judgment, award, or       waste, and abuse. The OIG is assisting the
                                          compromise settlement paid to any current or         Postal Service in extending reprisal protection
                                          former federal employee or applicant in connec-      afforded to other federal employees under the
                                          tion with specified anti-discrimination and          Whistleblower Protection Act, to its employees.
                                          whistleblower protection complaints will be          Although the Postal Service agreed to extend
                                          paid out of the operating expenses of the agency     protection in May 2001, the regulations have
                                          to which the discriminatory conduct is attribut-     not been finalized. The OIG has raised its con-
                                          able. The legislation sets forth requirements for:   cerns in this matter with senior postal manage-
                                          the written notification of federal employees        ment as well as certain members of Congress
                                          and applicants of their rights and remedies          including Representative John McHugh,
                                          under these laws, including posting that infor-      Representative Henry Waxman, and Senator
                                          mation on the Internet; and providing                Daniel Akaka, Chairman of the Senate
                                          employee training regarding such rights and          Subcommittee on International Relations,
                                          remedies.                                            Proliferation and Federal Services. In response,
                                               It requires each federal agency to submit an    the Postal Service has stated it plans to issue reg-
                                          annual report to the Speaker of the House of         ulations soon. If that is not the case, legislation
                                          Representatives, the President pro tempore of        may be necessary to secure this protection for
                                          the Senate, the Committee on Governmental            Postal Service employees.
                                          Affairs of the Senate, the Committee on
                                          Government Reform of the House of
                                                                                               PROPOSED LEGISLATION
                                          Representatives, each congressional committee        H.R. 4763 — Federal Law Enforcement
                                          with jurisdiction relating to the agency, the        Officers Pay Equity and Reform Act
                                          Equal Employment Opportunity Commission,
                                          and the Attorney General. The report includes        Similar: S. 2770 — The Federal Law
                                          the number and status of cases arising under         Enforcement Pay Reform Amendments
                                          such laws and the amount of money involved;          Act
                                          the number of employees disciplined; data                 H.R. 4763 would amend chapter 55 of Title
                                          relating to complaints filed; agency policy relat-   5, United States Code, to exclude availability
                                          ing to disciplinary actions against employees        pay for criminal investigators from the limita-
                                          who discriminated or committed another pro-          tion on premium pay. S. 2770 is similar to the
                                          hibited personnel practice; an analysis of all       House version of the bill as one of its provisions
                                          such information in conjunction with certain         increases the federal special pay differential for



                                PAGE 52   LABOR MANAGEMENT REVIEWS
federal law enforcement officers employed in
specified metropolitan statistical areas.
     In addition, H.R. 4763 would also require a
study by the Office of Personnel Management
regarding the need for, and potential benefits of,
the establishment of a separate pay, evaluation,
and promotion system for federal law enforce-
ment officers. The bill authorizes Office of
Personnel Management to implement a
demonstration project for such a system.
     Generally, federal laws dealing with com-
pensation do not apply to the Postal Service.
However, under 39 U.S.C. § 1003(b), compen-
sation for OIG employees must be comparable
to that of other offices of inspector general.
Therefore, the OIG has historically followed
federal law enforcement pay statutes. Should
this legislation become law, OIG management
will assess whether the compensation it pays its
law enforcement personnel is comparable with
what is provided for in this legislation and take
appropriate action.




                                                     PAGE 53
                                                                                                   employee suffered a back injury in 1983
                                          INSPECTION SERVICE                                       for which total disability was claimed. A


                                          P
                                                 ostal Inspectors investigate a number of          joint investigation with the Inspection
                                                 labor management areas, including work-           Service and the Department of Labor,
                                                 place safety, workers’ compensation,              Office of Inspector General revealed the
                                          postal robberies, and drugs in the workplace.            claimant had been employed in Germany
                                               The Inspection Service regards the preven-          as early as 1993. A subsequent investiga-
                                          tion of robberies as one of its highest organiza-        tion disclosed the former employee oper-
                                          tional priorities and affords task force attention       ated a second-hand store in 2001. A
                                                                                                   future cost savings of over $250,000 was
                                          to facility, letter carrier, and other postal rob-
                                                                                                   attained for the Postal Service.
                                          beries to deter these attacks on employees.
                                          Letter carrier robberies are generally committed     ◆   A former Florida clerk was sentenced to
                                          for the purpose of stealing mail and postal keys         27 months imprisonment and 3 years
                                          to mail receptacles, while robberies of facilities       supervised probation for mail fraud. The
                                          are committed for cash and money orders.                 former employee claimed total disability
                                                                                                   due to carpal tunnel syndrome. The
                                          Postal Inspectors investigate the possession, per-
Surveillance is just one of the many                                                               symptoms consisted of pain in both
                                          sonal use, and sale of narcotics by Postal Service
investigative tools used by Postal                                                                 wrists, which prevented writing in a nor-
                                          employees or others while on postal property.
Inspectors.                                                                                        mal manner. The investigation disclosed
                                          Postal Inspectors also partner with Postal               the claimant ran a travel business and
                                          Service management and employee groups in                arranged tours throughout the world. A
                                          early interventions and other efforts to prevent         review of business records revealed
                                          violence in the workplace. During this period,           $100,000 in the business account. In
                                          there were 179 arrests and 117 convictions for           addition, the former employee failed to
                                          assaults and threats, and 43 arrests and 43 con-         report income from a travel business to
                                          victions related to robberies. In addition, 22           the Department of Labor and the Postal
                                          individuals were arrested and 15 convicted for           Service as required. As a result of the
                                          the sale of drugs on postal property.                    investigation, the court ordered restitu-
                                               The Inspection Service investigates fraudu-         tion of $321,000 and a future cost savings
                                          lent claims and receipt of workers’ compensa-            of over $330,000 were attained for the
                                          tion benefits by individual employees.                   Postal Service.
                                          Prosecution of workers’ compensation fraud           ◆   A former New Jersey clerk was sentenced
                                          serves as a deterrent and prevents future benefit        to 3 months probation and ordered to
                                          payments from being made to violators. During            pay $25,000 in restitution for making
                                          this period, 26 individuals were arrested and 15         false statements to obtain federal employ-
                                          were convicted for workers’ compensation                 ees’ compensation benefits. The employ-
                                          fraud. Examples of workers’ compensation fraud           ee claimed total disability as the result of
                                          cases worked by the Inspection Service are               a 1985 work-related anxiety disorder.
                                                                                                   The investigation disclosed that although
                                          highlighted below:
                                                                                                   claiming to be unable to work, the for-
                                          ◆   In the Northern District of Ohio, a letter           mer employee operated a kennel and fal-
                                              carrier was sentenced following a guilty             sified statements to the Department of
                                              plea of making false statements to obtain            Labor about job and income. As a result,
                                              federal employees’ workers’ compensation             the Postal Service received a future costs
                                              benefits and mail fraud. The carrier was             savings of over $654,300.
                                              sentenced to 3 years probation, 150 hours
                                              of community service, and ordered to pay
                                              over $39,000 in restitution to the Postal
                                              Service. In addition, the carrier agreed
                                              to return over $14,000 in wage loss bene-
                                              fits received up to the time the plea
                                              agreement was signed. The former



                                PAGE 54
Oversight of the
Inspection Service and
Other Significant
Activities




 OFFICE OF INSPECTOR GENERAL
      Oversight Reviews
      Other Significant Activities
      Legislative, Regulatory & Policy Reviews


 INSPECTION SERVICE




                                             PAGE 55
                                                                                                 ment by reporting the activities of the OIG and
                                          This section highlights audits, reviews,
                                                                                                 the Inspection Service in these areas.
                                          and investigations performed by the OIG
                                                                                                      During the last 6 months, the OIG com-
                                          in conducting its oversight of the Inspec-
         DID YOU                          tion Service. This section also highlights
                                                                                                 pleted oversight reviews, as well as numerous
                                                                                                 monitoring activities, which are highlighted
         KNOW?                            reviews and investigations performed by
                                          the OIG and summarizes Inspection
                                                                                                 below:
                                          Service activities in other significant                HEALTH EXAMINATION
                                          areas. Report numbers are shown in                     PROGRAM MAY NOT ENSURE
Are OIG employees Postal                  parentheses after the narrative, as appro-             APPROPRIATE PHYSICAL
                                          priate. In order to differentiate the work             ABILITIES
Service employees?
                                          reported by the OIG and Inspection Ser-                     The OIG initiated an audit of the Postal
Yes. OIG employees are Postal             vice, the page containing the activities               Inspection Service’s health examination pro-
Service employees; however, the           reported by the Inspection Service has                 gram based in part on several complaints alleg-
                                          been color-screened. The OIG legisla-                  ing Inspection Service management used the
OIG is not a part of the Postal           tive, regulatory, and policy reviews are               program to inappropriately remove a targeted
Service management chain and              included at the end of this section.                   group of postal inspectors. The audit revealed
                                                                                                 Inspection Service management did not use the
does not report to the Postmaster                                                                program inappropriately to remove a targeted
General, as do other Postal                                                                      group of postal inspectors from service.
                                         OFFICE OF INSPECTOR                                     Although the allegations were not substanti-
Service employees.
                                         GENERAL                                                 ated, the audit disclosed management did not
                                                                                                 ensure postal inspectors possessed the physical
                                         OVERSIGHT REVIEWS                                       abilities necessary to effectively perform their


                                         O
                                                   ne of the primary reasons the OIG was         duties. Specifically, Inspection Service manage-
                                                   established within the Postal Service         ment did not finalize physical requirements or
                                                   was to provide oversight of all               medical standards governing periodic health
                                         Inspection Service activities. The Inspector            examinations; ensure postal inspectors com-
                                         General Act, as amended, provides for the OIG           pleted health examinations as required; use a
                                         to conduct, supervise, coordinate, and provide          rating system which clearly defined conditions
                                         policy direction for the programs and operations        that would result in postal inspectors not meet-
                                         of the Postal Service, including the Inspection         ing the physical requirements of their positions;
                                         Service. In addition, the 1996 amendment to             and did not appropriately update, maintain and
                                         the Inspector General Act provided specific             store employees’ medical files.
                                         “oversight responsibility for all activities of the          Inspection Service management agreed to
                                         Inspection Service, including any internal              ensure health examinations are taken as
                                         investigations performed by the Inspection              required, medical standards for postal inspector
                                         Service.” This additional authority means that          positions are finalized, and inspectors’ medical
                                         any and all activities of the Inspection Service        files are appropriately retained and stored.
                                         are subject to the OIG’s scrutiny and review.           Although Inspection Service management dis-
                                              The OIG provides independent and objec-            agreed with OIG recommendations to develop
OIG criminal investigators undergo       tive information and analyzes to the Governors,         physical position requirements and a revised
rigorous annual physical examinations
                                         Congress, and postal management regarding               health examination rating system, they initiated
to ensure they possess the physical
abilities necessary to effectively       Inspection Service operations. As a law enforce-        actions that should correct the deficiencies
perform their duties.                    ment agency, it is essential that the Inspection        identified. (OIG OV-AR-02-003)
                                         Service be held to the highest standards of con-
                                         duct to maintain the public’s trust and the
                                                                                                 MAIL SECURITY COULD BE
                                                                                                 STRENGTHENED DURING
                                         Postal Service’s reputation of reliability. In addi-
                                                                                                 DECONTAMINATION AND
                                         tion, the OIG keeps the Governors, Congress,            IRRADIATION EFFORTS
                                         and postal stakeholders fully informed of Postal
                                                                                                    An OIG review found Inspection Service
                                         Service law enforcement efforts to detect and
                                                                                                 management responded reasonably in ensuring
                                         prevent fraud, waste, abuse, and mismanage-


                               PAGE 56   OVERSIGHT OF THE INSPECTION SERVICE AND OTHER SIGNIFICANT ACTIVITIES
mail security during anthrax decontamination         employees, and the general public concerning a
and irradiation efforts. The review found            variety of issues, including adequacy and selec-
Inspection Service management appropriately          tion of investigations.
focused their efforts on the safety of Postal
                                                     INSPECTION SERVICE INTERNAL
Service employees and the public. However,
                                                     INVESTIGATIONS
postal management could not ensure all mail
                                                          The OIG conducts investigations of
located at decontaminated facilities or
                                                     alleged misconduct by senior Inspection
processed at irradiation facilities was secure.
                                                     Service personnel, and monitors the conduct of
Specifically, postal inspectors who initially
                                                     internal investigations of other Inspection                    INTERNAL INVESTIGATIONS
maintained a presence inside 2 contractor irra-                                                                           CONDUCTED
                                                     Service employees. These investigations are
diation facilities after anthrax was detected
                                                     conducted when allegations of employee mis-                                                           NUMBER OF
stopped maintaining their presence in                                                                                                                    INVESTIGATIONS
                                                     conduct affect the performance of duties or
December 2001. Later, rifling of the mail was                                                             Active Investigations at Beginning of Period        59
                                                     when managers have information of employee
detected by Postal Inspectors at a capital metro                                                          Investigations Opened                               32
                                                     misconduct.                                          Investigations Closed                               36
processing and distribution plant. Furthermore,
                                                          The OIG receives information regarding          Active Investigations at End of Period              55
the OIG found postal management did not
                                                     Inspection Service internal investigations,
ensure contract employees decontaminating
                                                     including conclusions reached and recom-                  SUMMARY OF CLOSED INTERNAL
Postal Service facilities and irradiating the mail                                                              INVESTIGATION ALLEGATIONS
                                                     mended actions. Inspection Service internal
obtained security clearances as required.                                                                 TYPES OF ALLEGATIONS                             NUMBER OF
                                                     investigations for this period included allega-
     The OIG also found Postal Service’s facil-                                                                                                           CASES CLOSED
                                                     tions of sexual misconduct, physical assault, and    Code of Conduct (violations involving
ity manager’s checklist, included in the Postal
                                                     obstructing an internal investigation. The           evidence, funds, firearms)
Service’s interim guidelines addressing their                                                               Inspectors                                          0
                                                     charts to the right summarize the internal inves-
response to the anthrax threat, did not require                                                             Postal Police                                       1
                                                     tigations conducted by the Inspection Service,         Support Personnel                                   0
the Inspection Service be notified when a bio-
                                                     the types of allegations reviewed, and the types
hazard threat is detected. Postal management
                                                     of actions taken during this reporting period.       Code of Conduct (violations involving
agreed to develop, and update as appropriate,                                                             integrity, property, conduct, behavior)
contingency plans addressing physical security       OTHER SIGNIFICANT ACTIVITIES                            Inspectors                                       12
of the mail in response to biohazard threats;                                                                Postal Police                                    15
                                                          The OIG is responsible for reviewing alle-
                                                                                                             Support Personnel                                 2
include a requirement for background security        gations involving senior-level Postal Service
checks in future contracts addressing biohazard      executives for criminal violations and miscon-       Other                                                 6
threats; and update the Postal Service’s anthrax     duct, including retaliation against individuals
guidelines to require the Inspection Service be      who have previously provided the OIG with                     ACTIONS TAKEN ON CLOSED
notified immediately when a biohazard threat is      information about possible fraud, waste, abuse,               INTERNAL INVESTIGATIONS
detected. (OIG OV-MA-02-001)                         and mismanagement. During this reporting             DISCIPLINARY ACTIONS                             FREQUENCY

REVIEW OF COMPLAINTS                                 period, the OIG completed 13 investigative           Non-bargaining – adverse
REGARDING THE INSPECTION                             efforts and reviews of other significant issues        Removal/Resignation                                1
SERVICE                                              related to Postal Service operations, some of          Suspensions >14 days                               0
                                                     which are highlighted below:                         Non-bargaining – non-adverse
     The OIG’s oversight of the Inspection                                                                  Letter of Warning                                  5
Service provides customers, employees, and           BACKGROUND INVESTIGATIONS                              Letter of Warning
other interested persons with an independent                                                                in lieu of time-off suspensions                    0
                                                     OF THREE CANDIDATES FOR
                                                                                                            Official Counseling                                4
avenue to address complaints regarding the           CHIEF POSTAL INSPECTOR                               Bargaining (per collective bargaining
Inspection Service. At the same time, the OIG        COMPLETED EXPEDITIOUSLY                              agreements) – adverse
provides the Inspection Service with an unbi-             At the request of the Postmaster General,         Removal/Resignation                                3
                                                                                                            Suspensions>14 days                                0
ased review of accusations that, if left unre-       OIG investigators conducted background inves-        Bargaining (per collective bargaining
solved, could harm its reputation as a               tigations of three candidates for the Chief Postal   agreements – non-adverse
professional law enforcement agency and              Inspector position. Although these types of            Letter of Warning                                  5
reduce the public’s confidence in the Postal                                                                Letter of Warning
                                                     investigations often take Office of Personal           in lieu of time-off suspensions                    0
Service. Over the past 6 months, the OIG             Management investigators several months to             Official Counseling                                1
closed several inquiries related to the Inspection   perform, OIG agents expedited the investiga-
Service. The inquiries resulted from complaints      tions and accomplished them in a matter of
made by Postal Service and Inspection Service        days.


                                                                                                          PAGE 57
                                         POSTAL SERVICE PROGRAM                                       Unlike the Senate bill, the House bill pro-
                                         MANAGER DEVELOPED                                       vides for a limitation on liability for providers of
                                         IMPROPER CONSULTANT                                     biohazard detection equipment to all customers.
                                         RELATIONSHIP                                            An OIG review of contracts for anthrax detec-
                                         WITH CONTRACTOR                                         tion and decontamination found the Postal
                                              An OIG investigation of a Postal Service           Service deviated from standard indemnification
                                         executive revealed the executive, who was a             provisions that would have otherwise shielded it
                                         program manager, developed a consultant rela-           from financial risk in the event of contamina-
                                         tionship with a former Postal Service contractor        tion. The risk management provisions of the
                                         who had been awarded a $1.4 million procure-            House bill would address this problem.
                                         ment contract. The investigation also revealed
                                         the executive was participating in a discussion
                                         with the same contractor concerning future full-
                                         time employment in violation of the Postal
                                         Service Code of Ethical Conduct. The execu-
                                         tive elected to retire in lieu of confronting pos-
                                         sible disciplinary action.
                                         LEGISLATIVE, REGULATORY &
                                         POLICY REVIEWS
OIG special agents conduct inter-
                                              During this reporting period, the OIG
views of potential suspects during
investigations.                          identified legislation, regulations, and policies
                                         affecting Postal Service law enforcement.
                                         Legislative, regulatory and policy reviewed dur-
                                         ing this period are highlighted below:

                                         PROPOSED LEGISLATION
                                         H.R. 5005 —
                                         Homeland Security Act of 2002
                                         Similar: S. 2794 —
                                         Homeland Security Act of 2002
                                              These similar, though not identical, bills
                                         would establish a Department of Homeland
                                         Security, as an executive department of the
                                         United States, headed by a Secretary of
                                         Homeland Security, appointed by the President,
                                         by and with the advice and consent of the
                                         Senate, to deal with the threat of terrorist
                                         attacks in the United States. The legislation
                                         gives primary responsibility for investigating
                                         and prosecuting acts of terrorism in federal,
                                         state, and local law enforcement agencies with
                                         proper jurisdiction except as specifically pro-
                                         vided by law with respect to entities transferred
                                         to Department of Homeland Security under this
                                         Act.




                               PAGE 58   OVERSIGHT OF THE INSPECTION SERVICE AND OTHER SIGNIFICANT ACTIVITIES
                                                                      The Inspection Service considers investi-
INSPECTION SERVICE                                               gations of biohazardous material sent through


T
        he Inspection Service conducts investi-                  the U.S. mail among its highest priorities. The
        gations and reviews of significant issues                Inspection Service also devotes significant
        related to: physical security; narcotics                 resources to prevent crimes by conducting
offenses and trafficking; child exploitation; pro-               employee and customer awareness training pro-
hibited mailings; postal burglaries; mail fraud                  grams and implementing security measures.
including fraud against consumers, fraud against                      The following chart provides the activity
businesses, and fraud against government; and                    during the reporting period.
money laundering.




             TYPE OF INVESTIGATION                                     ARRESTS         CONVICTIONS*
             Mailing of Controlled Substances
               Includes narcotics, steroids, drug-related
               proceeds, and drug paraphernalia                          770                 580

             Bombs, Threats, Hoaxes, and Explosive Devices                47                  20
             Child Exploitation, Mailing of Obscene Matter,                                                        Postal Inspectors often join forces with
             and Sexually Oriented Advisement                            139                 122                   FBI agents to investigate bombs placed in
             Prohibited Mailings                                                                                   mailboxes.
                Includes hazardous material, firearms, and weapons,
                intoxicants, explosives other than bombs, extortion,
                and false documents                                       79                  63

             Postal Burglaries                                            64                  73
             Mail Fraud
                Includes fraud against consumers, businesses,
                and government                                           935                 738

             Miscellaneous External Crimes
                Includes counterfeit and contraband postage,
                money order offenses, vandalism, and arson               173                 195

             Miscellaneous Employee Crimes
                Includes theft of postal property and sabotage
                of equipment                                              34                  30


         *Convictions reported in this time frame may be related to arrests made in prior reporting periods.




                                                                                                                     PAGE 59
PAGE 60   OVERSIGHT OF THE INSPECTION SERVICE AND OTHER SIGNIFICANT ACTIVITIES
Customer Service




 OFFICE OF INSPECTOR GENERAL
      External Communications
      Specialized Services

 INSPECTION SERVICE




                                PAGE 61
                                                                                               Relations, discussed the subject of “Oversight of
                                           This section describes the OIG and
                                                                                               the Management of the Office of Workers’
                                           Inspection Service’s efforts to provide cus-
                                                                                               Compensation Program: Are the Complaints
                                           tomer service, including initiatives by
                                                                                               Justified?” Because the Postal Service accounts
                                           support functions to enhance service to
                                                                                               for approximately one-third of the total federal
                                           internal customers. Customer satisfac-
                                                                                               workers’ compensation cost, controlling these
                                           tion and service is the underlying creed of
                                                                                               costs is a high priority. The OIG identified ways
                                           most successful organizations and busi-
                                                                                               the Postal Service could better administer its
                                           nesses. In order to differentiate work
                                                                                               workers’ compensation program to ensure its
                                           reported by the Inspection Service, pages
                                                                                               viability, including better program administra-
                                           concerning the Inspection Service have
                                                                                               tion, controlling costs, combating fraud, and
                                           been color-screened.
                                                                                               ensuring the health and safety of employees.
                                                                                               The testimony also addressed ways in which the
                                          OFFICE OF INSPECTOR                                  OIG is partnering with the Department of
                                          GENERAL                                              Labor to review options to address crucial issues
                                                                                               facing the workers’ compensation program.
                                          EXTERNAL COMMUNICATIONS                                   The second hearing was presented before
                                                                                               the Senate Committee on Governmental


                                          T
                                                   he OIG is responsible for keeping mem-
                                                                                               Affairs, Subcommittee on International
                                                   bers of Congress and the Governors
                                                                                               Security, Proliferation and Federal Services,
                                                   fully and currently informed. The OIG
                                                                                               which had received the Annual Report of the
                                          keeps Congress informed by issuing Semiannual
                                                                                               Postmaster General to the Senate. The OIG
                                          Reports to Congress, testifying at oversight and
                                                                                               submitted written testimony for the record,
In two written statements to Congress     other hearings, and briefing members and their
                                                                                               which discussed the benefits of the OIG’s work,
this reporting period, the OIG high-      staff on issues related to the Postal Service. The
lighted opportunities to improve the                                                           including the identification of $2 billion in
                                          OIG also regularly provides synopses of its audit
Postal Service’s workers’ compensation                                                         potential monetary benefits for the Postal
                                          and management advisory reports to
program, and noted the Postal Service’s                                                        Service.
need to improve its financial reporting   Congressional committees and subcommittees
                                                                                                    The OIG stated the Postal Service must be
systems.                                  with oversight interest in the Postal Service.
                                                                                               accountable to the public, and needs a clearly
                                          Additionally, the OIG keeps the Governors
                                                                                               defined, long-term strategy to achieve an appro-
                                          informed through regular briefings at monthly
                                                                                               priate balance between public service and com-
                                          Board meetings, activity reports from the
                                                                                               mercial enterprise that transcends short-term
                                          Inspector General, and responses to requests for
                                                                                               changes in senior management. The OIG cred-
                                          information.
                                                                                               ited the Postal Service for recognizing the need
                                          CONGRESSIONAL TESTIMONY                              to improve its financial reporting systems; how-
                                                Each year, the OIG has testified before        ever, the testimony pointed out the Postal
                                          Congress on matters affecting the Postal             Service needs to effectively protect revenues,
                                          Service. The OIG provided written statements         manage costs, and increase productivity in order
                                          to Congress on May 9 and September 27, 2002.         to improve its financial condition. Further, the
                                          These statements can be found in their entirety      Postal Service must provide users of its financial
                                          on the OIG’s website at http://www.uspsoig.gov.      reports with the necessary information to make
                                          In these statements, the OIG highlighted             informed decisions. Finally, the Postal Service
                                          opportunities to improve the Postal Service’s        needs to change certain procurement policies
                                          workers’ compensation program, and recognized        and procedures while continuing to be account-
                                          the need to improve its financial reporting sys-     able for its primary objective of delivering the
                                          tems. The testimony also highlighted the bene-       mail.
                                          fits of OIG work.
                                                                                               RESPONDING TO REQUESTS
                                                The first testimony, presented before the      FROM CONGRESS AND THE
                                          House Committee on Government Reform’s               POSTAL SERVICE GOVERNORS
                                          Subcommittee on Government Efficiency,                    The OIG provides accurate and timely
                                          Financial Management and Intergovernmental           responses to requests from Congress and the


                               PAGE 62    CUSTOMER SERVICE
Postal Service Governors. The OIG responds to            raising law enforcement retirement and
many of these requests by conducting audits or           periodic physical examination issues. The
investigations. However, the OIG does not gen-           OIG review revealed allegations were
erally perform audits or investigations when an          unsubstantiated and the individual was
inquiry involves a non-systemic issue that may           moved for obstructing operational
be resolved through Postal Service’s administra-         changes implemented by Inspection
tive processes, such as the equal employment             Service management. Since notification
                                                         of a move to another facility, the individ-
opportunity complaint process, contractual
                                                         ual is currently on sick leave. The OIG
grievance-arbitration procedures, or the Merit
                                                         plans to conduct a review of the issues
System Protection Board. Instead, the OIG
                                                         affecting postal police officers, including
incorporates individual concerns into a data-            their exclusion from the Inspection
base to identify systemic issues for review. When        Service’s health examination program.
systemic issues have been identified, the OIG
                                                     ◆   At the request of the Board of
may conduct independent audits or investiga-
                                                         Governors, the OIG conducted a survey
tions of Postal Service programs and operations
                                                         into whether Postal Service payments
to help ensure their economy, efficiency, and
                                                         to the Smithsonian for the National
integrity.                                               Postal Museum were in accordance with
      During this 6-month reporting period, the          the agreement. The OIG noted the
OIG completed 57 Congressional and                       Postal Service did not follow the estab-
Governors’ inquiries. Appendix G of this report          lished formula for calculating the
lists the OIG responses to these inquiries by sub-       museum annual operating budget and as
ject area. Some examples of OIG work in                  a result during a 4-year period over
response to Congressional and Governors’                 funded the museum budget by as much
requests are highlighted below:                          as $1.7 million. Instead of submitting
                                                         the annual budget through the coordi-
◆   An OIG review substantiated allegations
                                                         nating committee, which has not met in
    the Postal Service was not achieving
                                                         over 2 years, a Postal Service budget
    anticipated returns on investments in
                                                         officer determined the Postal Service
    automated mail processing. Specifically, a
                                                         contribution to the National Postal
    complainant alleged management
                                                         Museum’s budget.
    reprocessed mail already processed for
    delivery by bulk mail customers, thereby         ◆   An OIG review of allegations of false ter-
    not taking full advantage of the work                mination and a hostile work environ-
    sharing discount.                                    ment at a California facility determined a
                                                         hostile work environment might have
    Work sharing discounts occur when mail-
                                                         existed; however, at the time of our
    ers presort the mail for the Postal Service
                                                         review the allegation appeared to have
    and receive a discount for their services.
                                                         been resolved. An arbitrator ruled the
    The OIG found Postal Service facility
                                                         Postal Service had just cause to termi-
    managers reprocessed the mail stating
                                                         nate the complainant for falsifying pay-
    merging it with other mail was easier for
                                                         roll records. Regarding the hostile work
    delivery. This resulted in decreased cost
                                                         environment, the OIG found an action
    savings the Postal Service would have
                                                         plan was implemented based on a climate
    realized by not reprocessing already pre-
                                                         assessment conducted in previous years
    sorted mail. The OIG notified Postal
                                                         and ongoing focus groups are still active.
    Service management of the findings and
    plans to conduct a systemic review to                 In addition to the above requests, the OIG
    determine if savings realized justified          implemented a process to rapidly respond to
    work sharing discounts.                          requests made by the Governors and senior
◆   A review was conducted in response to a          postal management. This is driven by the need
    congressional inquiry regarding a postal         to quickly communicate information to assist
    police officer’s allegation of being moved       with decision-making or to clarify issues, poli-
    to another facility as part of a reprisal for    cies, and procedures. During this reporting



                                                                                                        PAGE 63
                                             period, the OIG provided information on the         ◆    Fifty-three percent were related to mis-
                                             following matters:                                       cellaneous requests for information such
                                                                                                      as ZIP Codes, postage meters, and other
                                             ◆   OIG work conducted to assist with the
                                                                                                      Postal Service-related matters;
                                                 Transformation Plan commitments;
                                                                                                 ◆    Twelve percent were related to opera-
                                             ◆   Differences between offices of inspector
                                                                                                      tional and human resource issues that
                                                 generals and internal audit organizations;
                                                                                                      were referred to Postal Service manage-
                                             ◆   Communicating and resolving audit                    ment; and
OIG HOTLINE                                      issues with Postal Service management;
                                                                                                 ◆    One percent was assigned to OIG staff
◆ Toll-Free, 1-888-USPS-OIG                  ◆   Factors that contribute to increased                 for further review for fraud, waste, abuse,
  (1-888-877-7644)                               workers’ compensation costs; and                     and mismanagement.
◆ TTY (Hearing Impaired)                     ◆   Goals of the Postal Service’s                       Some examples of OIG Hotline work are
  1-866-OIG-TEXT                                 Breakthrough Productivity Initiative            highlighted below:
  (1-866-644-8398)                               Awards Program.
◆To write to the United States                                                                   ◆    Designed, developed, and implemented a
  Postal Service, OIG:                       OIG HOTLINE PROVIDES A                                   new “user friendly” voice mail menu for
  ATTN: Hotline                              VITAL AND CONFIDENTIAL                                   its customers, enhancing the customer’s
  1735 North Lynn Street                     COMMUNICATIONS LINK                                      ability to receive prompt assistance;
  Arlington, VA 22209-2020                        The OIG Hotline provides a vital and con-      ◆    Developed a method for conducting data
◆To e-mail the OIG:                          fidential communications link between the                and trend analysis, providing auditors
  hotline@uspsoig.gov                        OIG and individuals who contact the Hotline              and investigators with information to
◆To fax information toll-free:               to report allegations of fraud, waste, abuse, and        support their audits, reviews and
  1-866-756-6741                             mismanagement.                                           investigations;
                                                                                                 ◆    Made a Hotline promotional video in
                                             Responding to Hotline Inquiries                          support of the OIG’s outreach and educa-
                                                   The Hotline receives complaints from               tional efforts;
                                             employees, customers, and the general public
                                                                                                 ◆    Established a Hotline Information
                                             concerning alleged violations of laws, rules, or
                                                                                                      Request mailbox giving OIG employees
                                             regulations; mismanagement; waste of funds;
                                                                                                      the opportunity to request and receive
                                             abuse of authority; and danger to public health
                                                                                                      information electronically on any com-
                                             and safety. Complaints and allegations received          plaint received by the Hotline since
                                             by the Hotline are analyzed to identify systemic         inception; and
                                             issues affecting the Postal Service, and referred
                                                                                                 ◆    Installed a telephone service to be used
                                             for appropriate action. The OIG also considers
                                                                                                      by the hearing impaired to open up an
                                             Hotline contacts when planning audits and pro-
                                                                                                      avenue of communication to those indi-
                                             jects.
                                                                                                      viduals with hearing impairments.
                                                   During this reporting period the Hotline
                                             received over 12,800 contacts on issues related     Hotline Achieves Major Milestone
                                             to deficient postal operations, personnel mat-           As one of the most recent offices to join the
                                             ters, waste, fraud, abuse, mismanagement, and       inspector general community, the OIG received
                                             other concerns. In addition:                        its first Hotline contact in August 1997.
                                                                                                 Within the first few months of operation, the
                                             ◆   Twenty-three percent were addressed by
                                                                                                 OIG had already received over 12,000 contacts,
                                                 the Inspection Service and involved
                                                                                                 averaging over 1,690 contacts per month from
                                                 criminal issues such as mail theft, assaults
                                                 and threats, and workers’ compensation          employees, customers and members of the gen-
The OIG Hotline posters are prominently
displayed in postal facilities nationwide.       fraud;                                          eral public reporting fraud, waste, abuse and
                                                                                                 mismanagement. On September 10, 2002, a lit-
                                             ◆   Eleven percent were addressed by the
                                                                                                 tle more than five years after its first contact, the
                                                 Postal Service’s Office of Consumer
                                                                                                 Hotline reached a major milestone, receiving its
                                                 Advocate involving complaints related
                                                                                                 100,000th contact. This is an exciting accom-
                                                 to customer service issues, particularly
                                                 mail delivery;                                  plishment for an organization that has only
                                                                                                 been in existence a little more than five years.


                                  PAGE 64    CUSTOMER SERVICE
     The OIG Hotline is staffed from 7 a.m.            many written requests for reports and other
to 7 p.m., Eastern Standard Time, Monday               information under the Freedom of Information
through Friday (except federal holidays). Calls        Act. As of July 15, 2002, the OIG transitioned
can be made 24 hours a day, 7 days a week.             into the role of deciding and responding to all
Threats and any other potentially violent work         OIG related Freedom of Information Act
situations are routed immediately to the Postal        appeals to more efficiently safeguard individual
Police Control Center for action 24 hours a day        privacy and sensitive OIG information while
either by an OIG Hotline analyst or through a          ensuring maximum access. Specifically,                FREEDOM OF INFORMATION ACT REQUESTS
caller-directed menu system. OIG Hotline con-          Freedom of Information Act appeals are han-               For the period April 1, 2002, through
tact information is provided in the margin on          dled in OIG legal services and the authority is                    September 30, 2002
page 64.                                               outlined under Title 39 United States Code of
                                                                                                             OIG                                    Number of
                                                       Federal Regulations §230.5(e).                        Activity                                Requests
PROPOSED LEGISLATION,
                                                            Prior to July 15, 2002, the OIG handled
REGULATIONS, AND POLICY
                                                       initial Freedom of Information Act requests for       Carryover from prior period                   5
     As required by the Inspector General Act,
                                                       OIG information, but the Postal Service Law           Received during the period                   63
the OIG monitors existing and proposed legisla-
                                                       Department received and decided OIG appeals.           Total on hand during the period             68
tion and regulations to advise Congress and the
                                                       The Postal Service Law Department worked              Processed during the period
Governors of the impact of such legislation and
                                                       closely with the OIG to ensure the smooth tran-          Released                                   29
regulations on Postal Service programs and
                                                       sition of this important function. In this report-       Withheld                                    6
operations. During the 6-month reporting
                                                       ing period, the OIG processed 63 Freedom of              Referred to Postal Service
period, the OIG evaluated 15 legislative propos-                                                                 or other agency                          15
                                                       Information Act requests, which were handled
als and 43 regulatory initiatives. Highlights of                                                                Otherwise closed*                         13
                                                       as indicated in the tables in the margin to the
the legislative and regulatory proposals are                                                                  Total processed during the period           63
                                                       right.
included at the end of the appropriate section                                                               Balance at end of the period (Pending)        5
that describes the OIG and Inspection Service          INSPECTOR GENERAL
reviews performed in the last 6 months.                SUBPOENAS                                             *Otherwise closed includes no responsive documents,
                                                            Pursuant to the Inspector General Act, the       improper requests, requests withdrawn, etc.
FREEDOM OF INFORMATION ACT
                                                       Inspector General is authorized to issue subpoe-
REQUESTS
                                                       nas for audits and investigations for which the
     The OIG is committed to making all final
                                                       OIG has investigative jurisdiction. This              FREEDOM OF INFORMATION ACT APPEALS
audit and management advisory reports available
                                                       includes authority to issue subpoenas in support         For the period April 1, 2002, through
to the public, unless the law prohibits disclosure.                                                                      September 30, 2002
                                                       of selected investigations of the Inspection
The OIG website, http://www.uspsoig.gov, con-
                                                       Service. An Inspector General subpoena is a
tains all releasable final audit and management                                                              OIG                                   Number of
                                                       valuable audit and investigative tool. It enables     Activity                                Appeals
reports. A list of all reports, including those that
                                                       the OIG to secure documentary information
are not releasable, is also included on the web                                                              Total appealed                                 6
                                                       and evidence that, unlike grand jury subpoenas,
page.                                                                                                        Total upheld                                   5
                                                       can be readily used in civil and administrative
     Before posting a report on the web page,                                                                Appeals pending                                1
                                                       proceedings, as well as criminal cases.
the OIG reviews each report in accordance with
                                                            Inspector General subpoenas are not self-
the Freedom of Information Act, the Privacy
                                                       enforcing. If a subpoena is not complied with,
Act, and the Postal Reorganization Act. The
                                                       OIG legal staff, OIG investigators, and Postal
OIG may coordinate its review with Postal
                                                       Inspectors first attempt to negotiate with the
Service management and attorneys. In deciding
                                                       subpoena recipient to obtain the requested doc-
what information to release, the OIG balances
                                                       uments. If this is not successful, the OIG seeks
the public right to access federal agency records
                                                       enforcement in United States district court.
with individual privacy rights, as well as, the
                                                       The courts generally enforce the subpoena so
Postal Service’s need to safeguard certain pro-
                                                       long as the inquiry is within the authority of the
tected information, such as those affecting busi-
                                                       agency, the information sought is reasonably rel-
ness needs and employee privacy. As a result,
                                                       evant to the agency’s inquiry, and the demand is
OIG reports may be withheld in whole or in
                                                       not unduly burdensome.
part to protect privacy as well as proprietary or
                                                            Since its inception, the OIG has been suc-
confidential information. The OIG responds to
                                                       cessful in enforcing every subpoena that has


                                                                                                            PAGE 65
                                                 been challenged in court because the subpoena        the Postal Service’s information infrastructure
                                                 review process is thorough in terms of scope of      concerns by working on the Cyber Interagency
                                                 review, level of supervisory review, and signa-      Working Group, chartered by the President’s
                                                 ture authority. All subpoenas are processed at       Critical Infrastructure Protection Board. As a
                                                 OIG headquarters and undergo thorough, pro-          result of the OIG’s representation on this work-
                                                 gressive investigative and legal reviews. The        ing group, the White House designated a new
                                                 subpoena process requires OIG investigators          Postal/Shipping sector within the nation’s criti-
                                                 and Postal Inspectors to submit a justification      cal infrastructure in the President’s new
          SUBPOENAS ISSUED
                                                 with their subpoena request. After supervisory       National Strategy to Secure Cyberspace. The
For the period April 1, 2002, through            review, the OIG legal staff evaluates each sub-      OIG computer intrusion team was designated as
         September 30, 2002
                                                 poena to ensure the subpoena can withstand a         the representative for the Executive Council on
    Types of                   Number            legal challenge. The Inspector General, the          Integrity and Efficiency to the newly designated
   Subpoenas                    Issued           Deputy Inspector General, the Assistant              Interagency Cyber Team, which will be the
OIG                                              Inspector General for Investigations, and the        vehicle for initially communicating future
  Related to                                     Deputy Assistant Inspector General for               national cyber emergencies. The OIG’s contri-
  Investigation                   60             Investigations are the only individuals autho-       butions to the Cyber Interagency Working
  Right to                                       rized to sign Inspector General subpoenas.           Group has become the blueprint for develop-
  Financial                                                                                           ment of a long-term Cyber Information
  Privacy Act                     7               SPECIALIZED SERVICES                                Assurance Implementation Plan, which will be
Inspection Service                                                                                    a principal function of the new Department of
   Related to                                    COMPUTER FORENSICS                                   Homeland Security.
   Investigations                113                   The OIG Computer Forensics Team is
   Right to                                      staffed with specialists trained and certified in    POLYGRAPH SERVICES
   Financial                                     the seizure of computers and the recovery of              The OIG polygraph program aids criminal
   Privacy Act                    15             electronic evidence. The team’s mission is to        investigators and is an effective tool to assist in
Total                            195             provide technical support to extract data to         proving guilt as well as innocence. OIG poly-
                                                 help identify individuals who use computers for      graph examiners represent the OIG within the
                                                 criminal purposes, generally in one of three         polygraph community and on the Federal
                                                 ways. First, a computer may be the target of the     Polygraph Executive Committee. Two exam-
                                                 offense. In these cases, the criminal’s goal is to   ples of the effective use of polygraph examina-
                                                 steal information or cause damage to a com-          tions follow:
                                                 puter. Second, the computer may be a tool of         ◆    An employee in the Treasury Inspector
                                                 the offense. This occurs when an individual uses          General for Tax Administration alleged a
                                                 a computer to facilitate some traditional                 co-worker made unwanted sexual
                                                 offense, such as fraud. Third, computers are              advances, which culminated in the co-
                                                 sometimes incidental to the offense but signifi-          worker kissing the individual. The OIG
                                                 cant to law enforcement because they contain              was requested to conduct a voluntary
                                                 evidence of a crime.                                      polygraph examination of the com-
                                                       The OIG Computer Forensics Team also                plainant. Subsequent to the polygraph
                                                 conducts forensic examinations of computer                examination, it was determined the indi-
                                                 media seized during OIG investigations. The               vidual demonstrated deception while
                                                 team also deploys during OIG search warrants              responding to the test questions. During
                                                 to seize or image computer media for later                an interview, the individual admitted ini-
    The OIG polygraph program is an                                                                        tiating the kiss with the co-worker and
                                                 examination, and during the reporting period
    effective investigative tool that                                                                      the previous statements to investigators
    assists in proving guilt or innocence.
                                                 the team imaged over 90 hard disk drives in sup-
                                                                                                           were erroneous. The investigation was
                                                 port of 10 OIG investigations.
                                                                                                           dropped and charges regarding false state-
                                                 OIG COMPUTER FORENSICS                                    ments were referred to the local Assistant
                                                 TEAM WORKS WITH CYBER                                     United States Attorney.
                                                 INTERAGENCY WORKING                                  ◆    The OIG administered a polygraph
                                                 GROUP                                                     examination to an individual who
                                                      The Computer Forensics Team represented              allegedly witnessed a “slip and fall” tort


                                       PAGE 66   CUSTOMER SERVICE
    claim at a post office in the Midwest              See write-up on page 49.
    Area. The alleged claimant sought civil        ◆   In concert with an audit team, an
    legal representation and $100,000 from             in-depth analysis of the Postal Service
    the Postal Service to cover the injury.
    The examination indicated deception.
                                                       Accounts Payable and Reporting System
                                                       was conducted to determine if the Postal
                                                                                                                DID YOU
    An interview of the witness subsequent
    to the examination revealed the injury
                                                       Service owed money to a utility company                  KNOW?
                                                       for electric services billed. See write-up
    actually occurred at the victim’s resi-            on page 27.
    dence and the victim and witness fabri-
    cated the story in an effort to defraud the    ◆   Identified and extracted data from the        What is bypass mail?
    government. The victim agreed to take              Postal Service Payroll System to deter-       Bypass mail refers to air
    the witness on a shopping spree and pay            mine whether the Postal Service was
                                                                                                     shipments primarily of commodi-
    several thousand dollars as compensation           effectively managing the Associate
                                                       Supervisor Program in the Great Lakes         ties, such as food, to remote areas
    for lying to investigators. Following the
    examination, the local Assistant United            Area. See write-up on page 50.                of Alaska where air is the only
    States Attorney pursued false statement        ◆   Worked with an audit team to analyze          means available for deliveries.
    charges against both the victim and the            the Postal Service Transportation             The mail bypasses post offices
    witness and the $100,000 civil tort claim          Information Management Evaluation             and goes directly to eligible air
    was dropped.                                       System to evaluate the effectiveness of
                                                                                                     carriers on a rotating basis. The
                                                       scheduled highway contract routes, and
COMPUTER-ASSISTED                                      to identify opportunities for cost savings.   Postal Service then reimburses air
ASSESSMENT TECHNIQUES                                  See write-up on page 20.                      carriers for delivery of the mail to
     The OIG Computer-Assisted Assessment                                                            consumers.
Techniques Team uses automated methods and
tools to extract and analyze electronic data
located in over 900 postal systems in support of
OIG audit and investigative efforts. The team
achieved success by developing programming
techniques to independently access the large
database systems in both San Mateo and
Minneapolis, as well as numerous remote
Oracle database systems throughout the postal
network. This team supported several signifi-
cant OIG efforts during this reporting period,
including:
◆   Identified and extracted data during the
    review of the Voyager Fleet card system
    to identify areas where the Postal Service
    could save money when purchasing gaso-                                                           The OIG analyzed the Postal Service
    line for delivery vehicles. See write-up on                                                      payroll system and provided detailed
    page 21.                                                                                         information to the Postal Service on
                                                                                                     12 CDs.
◆   In accordance with the computer-match-
    ing program agreement, conducted an
    analysis of the Postal Service payroll sys-
    tem, with the Department of Labor’s
    Automated Compensation Payment
    System and National Case Management
    Systems. The OIG provided postal man-
    agement with additional information
    regarding potential overpayments on a
    series of 12 CDs. The Postal Service can
    use this information to follow-up and
    identify additional overpayments.


                                                                                                      PAGE 67
          INSPECTION SERVICE

          T
                   he Inspection Service has adopted
                   numerous initiatives to improve cus-
                   tomer service. The Inspection Service
          alerts consumers and businesses to current
          crimes by attracting media attention to postal
          crime trends, publicizing positive law enforce-
          ment accomplishments, circulating media
          releases, and hosting crime prevention presenta-
          tions. The Inspection Service is responsible for
          communicating its law enforcement and crime
          prevention achievements to the American pub-
          lic, Congress, the Postal Service, and the law
          enforcement community.
               In an effort to maintain the integrity of the
          mail and ensure the confidence and trust that
          government agencies, businesses, and customers
          place in the Postal Service, the Inspection
          Service conducts mail fraud investigations that
          focus on a variety of complex schemes. To pro-
          mote consumer protection, the Inspection
          Service utilizes specialized investigative tools
          and techniques such as criminal forensic labora-
          tories, technical surveillance and communica-
          tions, polygraph examiners, and digital
          evidence recovery units to solve crimes com-
          mitted against the public.




          Inspection Service crime laboratories analyze evidence,
          which assist with solving crimes.




PAGE 68   CUSTOMER SERVICE
Goals and Strategies




   DID YOU
   KNOW?
  Is employee diversity important to OIG?
  Yes. The OIG is proud of the diverse talents,
  skills, and professional experience of our staff.
  The OIG believes diversity has enhanced our
  work environment.




                                               PAGE 69
                                            This section describes the OIG and                operations, while eliminating and preventing
                                            Inspection Service vision and goals for           fraud, waste, abuse, and mismanagement. This
                                            assisting the Postal Service in achieving its     plan was designed to address the Postal Service’s
                                                                                              strategic direction and objectives outlined in
        DID YOU                             operational, performance, and financial
                                            goals in the 21st century. In addition, this      the Postal Service’s Strategic Plan for
        KNOW?                               section describes the process by which the        FYs 2001-2005, which reflected a growing
                                            OIG translates its vision into an annual          uncertainty about the future implications of
                                            performance plan. In order to differentiate       emerging technologies, changing customer
The OIG is committed to                     between the OIG and Inspection Service,           requirements, and competitors’ actions on mail
excellence through a vision of “A           the page concerning the Inspection Service        volume and postal revenues. The OIG is cur-
                                            has been color-screened.                          rently working on updating its strategic plan
constellation of Talented People
                                                                                              that will be released in FY 2003.
Making a Difference Through
                                                                                                   The OIG’s strategic planning process has
Teamwork, Leadership,                                                                         four distinct steps. First, the OIG determines
Communication, Creativity,                 OFFICE OF INSPECTOR                                the major management issues facing the Postal
and Conceptualization (TLC3).”             GENERAL                                            Service. Second, the OIG assesses Postal
                                                                                              Service operations and activities, broadly
                                           STRATEGIC GOALS                                    defines realistic goals, sets priorities in line with


                                           I
                                               n March 2001, the OIG published a revised      the Postal Service business vision, and develops
                                               Five Year Strategic Plan for FYs 2001-2005.    effective strategies and action plans that align
                                               Each aspect of this plan is in accordance      the OIG’s activities to best help the Postal
                                           with President Bush’s management agenda and        Service improve its effectiveness and efficiency.
                                           the principles of the Government Performance       Third, the OIG measures progress in meeting
                                           and Results Act. The OIG’s strategic plan is       those goals. And fourth, the OIG updates and
                                           outcome-oriented and focuses on the funda-         revises goals, strategies, and performance mea-
                                           mental mission to increase the efficiency and      sures to continually align its efforts with the
                                           effectiveness of Postal Service programs and       changing business needs of the Postal Service.


                                                  Office of Inspector General
                                                 FY2002 Goals and Strategies

          GOALS                              STRATEGIES                              GOALS                               STRATEGIES


    The OIG will be the                     Annually identify major           The OIG is an independent                 Maintain a TLC3 values-
                                            management issues                                                           based organization that
    independent voice that                  and independently develop         entity that maximizes                     attracts, develops, and
                                            work priorities that assist                                                 retains a talented and
    provides its stakeholders               the Postal Service in             resources, leverages cutting-             diverse workforce.
    with timely, accurate, and              addressing major                  edge technology, and
                                            management challenges.
    relevant information                                                      provides a healthy                       Independently manage
                                            Independently provide                                                      and optimize OIG
    that contributes to the                 the right information to          organizational culture and               resources, including
                                            the right people at the                                                    leveraging cutting-edge
    success of the Postal Service.          right time.                       environment.                             technology.




                                 PAGE 70   GOALS AND STRATEGIES
      The OIG’s strategic plan identified two               The FY 2002 performance results were val-
overarching goals. Under each goal, OIG iden-         idated by an independent federal agency, which
tified two strategies designed to achieve each        found the OIG accomplished over 84 percent of
goal.                                                 its performance measures. Based upon informa-
                                                      tion gained from FY 2002, the OIG updated its
PERFORMANCE MEASURES AND
                                                      performance measures for FY 2003 and
RESULTS
                                                      increased its challenges.
      As a part of the planning process, it is nec-
essary to establish performance measures to           OIG PLANNING PROCESS
determine how well the OIG is achieving its                To ensure long-term success, it is necessary
goals. These measures provide a baseline and          for the Postal Service and the OIG to plan
give the OIG the ability to monitor and track         reviews, audits, and investigations appropri-
trends over time. It is imperative to ascertain a     ately. As part of its planning process, the OIG
benchmark of current performance, resources           asks key stakeholders, including Congress, the
used, products produced, and results achieved to      Governors, Postal Service managers, the Postal
identify appropriate performance measures that        Rate Commission, employee unions, manage-
lead to the OIG’s achievement of its strategic        ment associations, and major mailers to identify
goals. To that end, the OIG continually               risk areas and emerging challenges that would
reviews stakeholder input, data from tracking         benefit from the OIG’s review. Suggestions
systems, and cumulative management experi-            received are considered during the annual OIG
ence to ensure the OIG’s stated objectives are        planning process, and become part of the uni-
on target. As the OIG obtains new informa-            verse of projects for consideration. This creates
tion, it continually evaluates and updates OIG        a unique opportunity for the OIG to provide
goals, strategies, and performance measures.          independent analyses and information to assist
      Each of the performance measures identi-        Postal Service management officials in fulfilling
fied for FY 2002 are not intended to measure          their responsibilities.
the work of the OIG in its totality. Rather, they          Projects from the universe are selected on
are a means of focusing on select areas so efforts    the basis of risk and OIG resources available for
can be concentrated and substantive improve-          the year. The OIG selects the highest priority
ment made. The strategies contained in the            projects for inclusion in the annual perfor-
OIG’s strategic plan provide guidance and an          mance plan and the annual audit workload
overarching structure, while allowing for flexi-      plan. As part of the selection process, the OIG                    Planning System
bility in achieving the goals. OIG managers use       considers the project’s potential impact on:                       Interrelationship
this plan to identify and communicate general
                                                      ◆   Postal Service labor and capital resources
work product milestones and to monitor efforts                                                             OIG
                                                                                                                               OIG
toward strengthening the OIG’s capability to          ◆   Postal-wide operations and goals                 POSTAL              ANNUAL                AUDIT
                                                                                                           PROJECT             PERFORMANCE           WORKLOAD
fulfill its mission.                                  ◆   Public trust                                     UNIVERSE            PLAN                  PLAN

      The OIG continuously monitors its perfor-           This audit workload plan is presented to
mance and seeks ways to improve. By main-             the Postal Service Governors each year. The           AUDITS & AUDIT RELATED PROJECTS
taining objective data on key performance             plan is adjusted throughout the year as the           INVESTIGATIONS
areas, the OIG is able to periodically measure        OIG’s work reveals new issues or the Postal
                                                                                                                                              CONSULTING
                                                                                                            OTHER PROJECTS                    QUICK RESPONSE
and assess its progress in achieving goals.           Service encounters new challenges. The OIG                                              FACT-FINDINGS
                                                                                                            INTERNAL ENABLING FUNCTIONS
Annually, the OIG establishes performance             workload planning process is depicted in the
measures to emphasize program objectives, pro-        chart in the right margin.
mote teamwork, and encourage innovation
throughout the OIG. These measures are                OIG AUDIT WORKLOAD PLAN
linked to a team award that is structured to               In a previous section of this Semiannual
reward commitment to the strategic priorities of      Report, the ten major management issues facing
the OIG and to reinforce the importance of            the Postal Service were discussed. In preparing
providing high-quality and value-added services       its audit workload plan, the OIG consolidated
that contribute to the success of the Postal          the major management issues facing the Postal
Service.                                              Service into four major areas along with the


                                                                                                          PAGE 71
                                          oversight of the Inspection Service. The OIG           tion. The OIG will focus on the following:
                                          will continue to focus its audit attention on          ◆ Costs
                                          these major areas to help address critical issues          ◆ Injury compensation costs
                                          facing the Postal Service:
                                                                                                     ◆ Medical costs
                                          ◆    improving safety and security of the mail             ◆ Return to work
                                               for employees and customers;
                                                                                                 ◆   Outplacement efforts
                                          ◆    reducing workers’ compensation costs;
                                                                                                 ◆   Programs
                                          ◆    improving financial performance and
                                               accountability;                                       ◆ Administration

                                          ◆    enhancing productivity through technol-               ◆ Rehabilitation program
                                               ogy and improving the quality of elec-                ◆ Pre-injury safety programs
                                               tronic information; and
                                                                                                 Improving Financial Performance and
                                          ◆    overseeing the Inspection Service.
                                                                                                 Accountability
                                               The following presents each of the five                Increasing productivity while controlling
                                          areas and the focus of our audit efforts.              costs is crucial for the Postal Service to reduce
                                                                                                 anticipated losses. The cost of maintaining and
                                          Improving Safety and Security of the Mail
                                                                                                 servicing a growing universal delivery network
                                          for Employees and Customers                            has escalated while mail volumes have
During the planning process the OIG             The anthrax contamination of the mail last
                                                                                                 decreased. The Postal Service needs strong
creates a unique opportunity to obtain    year has threatened customer confidence in the
                                                                                                 controls and aggressive efforts to ensure that
input from all OIG resources.             Postal Service’s ability to continue to provide
                                                                                                 contracts and programs are managed effectively.
                                          safe and secure mail services. A decline in cus-
                                                                                                 Recent financial trends are encouraging; how-
                                          tomer confidence may cause customers to seek
                                                                                                 ever, the Postal Service needs to sustain the
                                          services other than traditional mail, which will
                                                                                                 progress made and continue to improve finan-
                                          reduce volume and revenue. The Postal Service
                                                                                                 cial performance and accountability. The OIG
                                          must restore and maintain customer confidence
                                                                                                 will focus on the following:
                                          in its ability to keep secure and safely deliver the
                                          nations mail. The OIG will focus on the fol-           ◆   Financial system integrity
                                          lowing:                                                ◆   Financial statements
                                          ◆    Biohazard detection and filtration                    ◆ Field installations
                                               ◆ Anthrax irradiation                                 ◆ Cost and revenue analysis
                                          ◆    Collection boxes                                      ◆ Treasury-related issues
                                          ◆    Mail processes                                    ◆   Budget
                                               ◆ Air mail                                            ◆ Planning
                                               ◆ International mail                                  ◆ Execution
                                          ◆    Crime prevention                                      ◆ Systems
                                               ◆ Security Cameras                                ◆   Contracting activities

                                          Reducing Workers’ Compensation Costs                       ◆ Fair and reasonable contract pricing
                                               Workers’ compensation costs have                      ◆ Reasonableness and allowability of
                                          increased 35 percent in the last three years. As             incurred costs
                                          the largest participant in the Federal Workers’            ◆ Adequacy of contractor systems
                                          Compensation Program, the Postal Service
                                                                                                     ◆ Contract administration
                                          accounted for $760 million of the total $2.2 bil-
                                          lion in federal workers’ compensation outlays              ◆ Identification of potential corruption
                                          for claims for 2002. Controlling workers’ com-               with the Postal Service’s contracting
                                          pensation costs is a priority issue for the Postal           and procurement process
                                          Service critical to improving its financial condi-



                                PAGE 72   GOALS AND STRATEGIES
◆   Facilities and real estate                      Overseeing the Inspection Service
    ◆ Justification, approval, and budgeting             Legislation requires the OIG to conduct
                                                    oversight reviews of the Inspection Service in
    ◆ Construction management
                                                    addition to OIG’s audit and investigative
◆   Logistics                                       responsibilities over postal operations. OIG
    ◆ Transportation systems and operations         efforts in this area will focus on the following:
    ◆ Material management                           ◆   Public trust
Enhancing Productivity Through                          ◆ Function and role
Technology and Improving The Quality of                 ◆ Operational effectiveness
Electronic Information                                  ◆ Management controls
     Enhancing productivity through the use of
                                                        ◆ Internal affairs
technology is key to the Postal Service’s ability
to improve its service, productivity, and prof-
itability. While it depends on technology to
handle more than 660 million pieces of mail
every day, the Postal Service also depends on
high quality information in order to improve
and sustain service performance. In addition,
changes in technology make timely and accu-
rate data critical for effective decision-making.
OIG efforts will focus on the following:
◆   Information systems
                                                                                                        The OIG’s mission statement, goals, and
    ◆ Information infrastructure and                                                                    strategies set forth in the Five-Year
      architecture                                                                                      Strategic Plan are the foundation for
                                                                                                        measuring, reporting, and improving the
    ◆ System performance and integrity                                                                  OIG’s performance over the next five
    ◆ Systems development and                                                                           years.
      implementation
    ◆ Disaster recovery and business
      continuity plans
◆   Computer security
    ◆ Access
    ◆ Data protection
    ◆ Data integrity
◆   Accepting and Processing
    ◆ Mail tracking (scanning)
    ◆ Breakthrough productivity initiatives
    ◆ Network integration and alignment
◆   Transportation/Delivery
    ◆ City carrier productivity
    ◆ Vehicle maintenance facilities




                                                                                                          PAGE 73
            INSPECTION SERVICE

            T
                    he Inspection Service must supplement its reactive capability with proactive strategies to
                    deter and prevent criminal activity. To accomplish this, the Inspection Service has devel-
                    oped five long-term strategic goals and related objectives. The new strategic plan begins
            with three critical imperatives: safety, security, and integrity.




                                      Inspection Service
                                  FY2002 Goals and Objectives

                                     GOALS                                                        OBJECTIVES


                                                                      • Reduce and deter employee on employee assaults and
               Ensure a Safe and Secure Drug-Free Work Environment      credible threats
Safety                                                                • Deter robberies of postal employees and facilities
                                                                      • Reduce and deter illegal drugs in the postal environment




                                                                      • Reduce and deter attacks on postal vehicles, apartment panels,
                                                                        collection boxes, NDCBU's and CBU's in Arizona and California
              Reduce Theft of the Mail                                • Identify and resolve domestic and international in-transit mail theft
                                                                      • Reduce and deter mail theft related identity theft and identity
                                                                        takeover crimes
Security
                                                                      • Reduce and deter embezzlements
                                                                      • Reduce and deter criminal misuse of the Postal Service’s workers’
              Reduce and Deter Criminal Attacks of Postal Products,     compensation program and reduce long-term compensation costs
              Services, and Assets                                    • Reduce and deter postage fraud schemes
                                                                      • Assure sanctity and security of U.S. Mail




                                                                      • Reduce and deter multi-state domestic and international
               Reduce the Use of the Mail to Defraud Consumers,         fraudulent telemarketing operations and direct mail operations
               Businesses, and Government Agencies                    • Reduce and deter deceptive mailing operations

Integrity
                                                                      • Reduce and deter the use of the nation’s mail system by
                                                                        organized groups to transport illegal narcotics
              Reduce and Prevent the Use of the Postal System for     • Reduce and deter the use of U.S. Postal Money Orders
              Prohibited, Illegal, and Dangerous Mailings               to launder money by disrupting money laundering operations
                                                                      • Reduce and deter the use of the U.S. mails for the procurement or
                                                                        delivery of materials that promote the sexual exploitation of children




  PAGE 74   GOALS AND STRATEGIES
Organizational Dynamics




    DID YOU
    KNOW?
   How do the OIG and Postal Service resolve report
   disagreements?
   The OIG and the Postal Service have developed a Report
   Response and Resolution process to resolve differences of
   opinion on audit findings and recommendations.
   Disagreements are elevated through successively higher
   levels of management in an attempt to reach resolution.
   If agreements is not reached, the Inspector General may
   elect to submit the disagreement to the Governors for
   final resolution.




                                             PAGE 75
                                              This section describes the OIG and the               ◆   Reviews computer security and conducts
                                              Inspection Service organizational vision,                computer intrusion activities to identify
                                              values, culture, and diversity that assist               vulnerabilities in postal systems.
                                              with providing value-added service to the            ◆
              DID YOU                         Postal Service. In order to differentiate the
                                                                                                       Serves as an objective venue for all
                                                                                                       Postal Service employees and other
              KNOW?                           work reported by the OIG and the Inspec-                 stakeholders to report fraud, waste, abuse,
                                              tion Service, the page containing the work               mismanagement, and other improprieties
                                              reported by the Inspection Service has been              and concerns, with protection from man-
                                              color-screened.                                          agement retaliation.
    Did You Know?
                                                                                                   ◆   Identifies cost savings and recommends
    The Citizen’s Stamp Advisory
                                                                                                       improvements for contract and program
    Committee, established in 1957,
    is tasked with evaluating the             OFFICE OF INSPECTOR                                      administration, employee integrity, and
                                                                                                       program efficiency.
    merits of all postage stamp pro-          GENERAL                                              ◆   Facilitates audit resolution, which pro-
    posals. Each year, Americans                                                                       vides a mechanism for resolving findings
                                              AN INDEPENDENT VOICE
    submit proposals to the Postal                                                                     and recommendations when the OIG


                                              T
                                                      he OIG is an independent agency                  and Postal Service management disagree.
    Service on literally thousands of                 within the Postal Service and is under
    different topics. The Committee                   the general supervision of the nine pres-         To improve Postal Service programs and
    considers every stamp suggestion,         identially appointed Postal Service Governors.       operations, the OIG provides independent and
    regardless of who makes it or how         From 1988 until the establishment of the OIG         objective information, analysis, and recommen-
                                              in 1996, the Chief Postal Inspector performed        dations. The OIG is continuing to work with
    it is presented. Committee mem-
                                              dual roles as the Inspector General and Chief        Postal Service management to inform them of
    bers are appointed by the Post-                                                                the duties and responsibilities of the OIG and to
                                              Postal Inspector and reported to the Postmaster
    master General and are comprised                                                               demonstrate how the OIG adds value to Postal
                                              General. In January 1997, Karla W. Corcoran
    of 15 members whose back-                                                                      Service processes.
                                              was sworn in as the first independent Inspector
    grounds reflect a wide range of           General of the Postal Service. In carrying out its   OIG VISION AND VALUES
    educational, artistic, historical,        responsibilities under the Inspector General              The vision of the OIG is “A Constellation
    and professional expertise.               Act, the OIG:                                        of Talented People Making a Difference.” This
                                              ◆   Provides Congress, the Governors, and            vision reflects the OIG’s mission to shed light
                                                  Postal Service management with timely,           on Postal Service challenges and identify oppor-
                                                  objective, and complete information on           tunities for improvement by emphasizing five
                                                  and analysis of Postal Service operations.       fundamental values:
                                              ◆   Conducts audits and investigations of all        ◆   Teamwork—Diverse talents and levels
                                                  Postal Service operations and activities,            working cooperatively and collaborative-
                                                  including ratemaking, contract adminis-              ly toward producing timely, relevant, and
                                                  tration, labor management, accepting                 quality work products and services that
                                                  and processing, transportation, delivery,            add value to the Postal Service and the
                                                  financial management, developmental,                 OIG.
                                                  information systems, computer intrusion,
                                                  electronic commerce, and marketing.              ◆   Leadership—Encouraging each employee
                                                                                                       to be the best they can be regardless of
                                              ◆   Maintains oversight of Inspection Service            position or grade, understanding that all
                                                  operations and performs independent                  levels of employees are expected to play a
                                                  reviews of complaints against its employ-            role in developing and directing every
The OIG’s values make up the core                 ees.                                                 effort performed.
of its culture and define how it
performs its work.                            ◆   Adds value to Postal Service operations,         ◆   Creativity—Cultivating fresh perspec-
                                                  contributes to a more efficient, economi-            tives in the development of new process-
                                                  cal and effective organization, and helps            es and techniques that will improve
                                                  the Postal Service maintain its integrity            Postal Service and OIG operations.
                                                  through independent investigations,
                                                  audits, and reviews.                             ◆   Communication—Ensuring cross-level
                                                                                                       and cross-functional sharing of all infor-


                                    PAGE 76   ORGANIZATIONAL DYNAMICS
    mation as well as facilitating honesty,         30, 2002, the OIG had 712 employees, of whom
    openness, respect, and consideration of         51 percent were women and 49 percent minori-
    the contributions and opinions of others.       ties. The senior management staff is composed
◆   Conceptualization—Keeping one’s “eye            of approximately 38 percent women and 23 per-
    on the ball” and recognizing interrela-         cent minorities. Based on the September 2000
    tionships to accomplish desired results.        U.S. Office of Personnel Management Federal
                                                    Civilian Workforce estimates, the OIG work-
OIG CULTURE AND EMPLOYEES                           force has exceeded the representation in the
Enhancing the Work Environment                      federal civilian workforce of Asians, Blacks,
                                                    Hispanics, and women. The federal civilian
     The OIG’s culture is defined by the diver-
                                                    workforce is comprised of the executive branch
sity of its employees, who share the organiza-
                                                    and non-Postal Service employees. Because
tion’s core values of teamwork, leadership,
                                                    Bureau of Labor Statistics census data is now
creativity, communication, and conceptualiza-
                                                    over 10 years old, and new census civilian labor
tion. The OIG is committed to creating and
                                                    force data will not be released until 2003, the
maintaining a workplace that is enriched by the
                                                    OIG is using the more up-to-date Federal
talents, contributions, and full participation of
                                                    Civilian Workforce data as a comparison.
all of its employees and reflects the tremendous
                                                          The OIG also continued to take proactive
diversity of the postal community. Diversity is a
                                                    actions to ensure a productive, inclusive, and
tool for achieving the OIG’s mission and
                                                    quality work culture and environment for
enhancing its organizational effectiveness by
                                                    employees. Employees are the OIG’s most valu-
using the creative energies of employees who
                                                    able resource. Therefore, it is essential that the
contribute different approaches, solutions, and
                                                    OIG maintain the best workplace for employees                  Comparison of OIG
innovations.                                                                                                       Diversity Statistics to
                                                    to do their best work. The OIG established an
     The OIG workforce is diverse in age, race,                                                                 Federal Civilian Workforce
                                                    organizational performance measure for FY
ethnicity, gender, and background, as well as
                                                    2002 designed to engage all employees in shar-                                                        OIG
education, professional accomplishments, work
                                                    ing responsibility for enhancing their work                                           Federal Workforce
experience, and work style. The OIG workforce
                                                    environment and work relationships. This mea-        70%
includes Certified Public Accountants,
                                                    sure required all employees to complete at least     60%
Certified Internal Auditors, Certified Fraud                                                             50%
                                                    20 credits of activities intended to enhance
Examiners, Certified Information Systems                                                                 40%
                                                    their skills in areas such as effective communi-
Auditors, Certified Information Systems                                                                  30%
                                                    cation, resolving differences, teamwork, and         20%
Security Professionals, Certified Government
                                                    managing stress. Ninety-seven percent of all         10%
Audit Professionals, Certified Government
                                                    OIG employees achieved, and most exceeded,             0   WHITE   BLACK   HISPANIC     ASIAN   NATIVE AMERICAN
Financial Managers, and Certified Acquisition
                                                    this goal.
Auditors. OIG employees also hold law                                                                     OIG exceeds minority representation in
                                                          The OIG also launched a sexual harass-          nearly every category.
enforcement specialty certifications in areas
                                                    ment prevention online training program for all
such as polygraph examinations. In addition,
                                                    employees to ensure a harassment-free work-
many OIG employees have undergraduate or
                                                    place environment. The training included the
advanced degrees, while other employees are
                                                    OIG’s Sexual Harassment Prevention Policy,
continuing to work towards professional and
                                                    information on what constitutes sexual harass-
academic achievements. OIG employees work
                                                    ment, and responsibilities and strategies for
in teams of auditors, evaluators, criminal inves-
                                                    addressing and preventing it. As of
tigators, lawyers, technicians, and administra-
                                                    September 30, 2002, over 92 percent of all
tive personnel. These employees have diverse
                                                    employees had completed the training.
backgrounds and experiences from federal and
state government agencies, private industry,        ADHERING TO THE HIGHEST
non-profit organizations, and the Postal            PROFESSIONAL STANDARDS
Service.                                                 The OIG reports to Congress and the nine
     The OIG continues to carry out an aggres-      presidentially appointed Governors. The
sive hiring initiative to staff the organization    Inspector General is under the “general supervi-
with highly skilled employees. As of September      sion” of these Governors and is not supervised


                                                                                                           PAGE 77
                                          by the Postmaster General. This independence          Complaints against senior OIG management
                                          from postal management is crucial to the OIG’s        officials are handled pursuant to Executive
                                          credibility and allows the OIG to objectively         Order and are investigated by the Integrity
                                          conduct audits and investigations of program          Committee of the President’s Council on
                                          operations and to report its findings to the          Integrity and Efficiency, headed by a high-rank-
                                          Governors, Postmaster General, and Congress.          ing official of the Federal Bureau of
                                          To help respond to the challenges the Postal          Investigation.
                                          Service faces, the OIG annually identifies major
                                                                                                PUBLIC RELATIONS AND
                                          management issues and independently develops
                                                                                                OUTREACH
                                          work priorities that assist the Postal Service in
                                                                                                     This past year, the OIG made a concerted
                                          addressing these issues.
                                                                                                effort to reach out and educate diverse audi-
                                               OIG work is performed in accordance with
                                                                                                ences, large and small, not only about the results
                                          a variety of professional standards, such as:
                                                                                                of the OIG’s work, but also about the role, func-
                                          ◆   The General Accounting Office’s                   tion, and value of an inspector general’s office.
                                              Government Auditing Standards; and                Outreach performance is one of the OIG’s
                                          ◆   The President’s Council on Integrity              annual performance measures, and the results
                                              and Efficiency’s Quality Standards for            are tracked. This past year, the OIG outreach
                                              Inspections and Quality Standards for             performance exceeded last year’s result by 224
                                              Investigations.                                   percent.
                                               Each audit is subject to supervisory review           The OIG placed particular emphasis on
                                          at each stage of the audit process and must meet      presenting speeches to outside audiences and
                                          established standards for due professional care,      arranged speaking opportunities for senior staff.
                                          quality, and independence. Each report is sub-        In this last reporting period, the Inspector
                                          ject to review by the OIG’s statisticians, attor-     General delivered major speeches to 2,500 post-
                                          neys, editors, and other experts, and is              masters attending the National Association of
                                          independently referenced by individuals not           Postmasters of the United States annual 2002
                                          associated with the project. Draft reports are        convention; 560 members of Women In Federal
                                          submitted to Postal Service management, who           Law Enforcement; 160 members of the Institute
                                          has the opportunity to provide written com-           of Internal Auditors; and 500 members of
                                          ments in response to the report’s findings and        MAILCOM. The Deputy Inspector General
                                          recommendations. These comments are evalu-            addressed 2,000 rural letter carriers attending
                                          ated and incorporated in the final report.            the National Rural Letter Carriers Association
                                               In addition, the OIG ensures the highest         annual 2002 convention. Members of the OIG’s
                                          ethical standards by performing full security         Leadership Team addressed over 2,500 atten-
                                          background investigations of its employees.           dees of Postal Service state and area manage-
                                          Nearly all OIG employees are required to pro-         ment association conventions, and OIG special
                                          vide annual financial disclosure statements for       agents gave 270 fraud awareness and 27 com-
                                          review to determine potential conflicts of inter-     puter intrusion briefings to postal audiences.
                                          est. All employees are required to complete                In addition, the OIG increased its news
                                          ethics training each year and meet the OIG’s          releases by over 400 percent, using targeted
                                          established standards for continuing profes-          media mailing lists and Internet postings. This
As part of its public relations and       sional education.                                     resulted in getting messages regarding OIG
outreach efforts, the OIG staffed an           Further, the OIG ensures its own compli-         work to the media, employee unions, other
informational booth at the Women                                                                “watchdog” groups, and the American public.
                                          ance with professional, legal, and ethical stan-
in Federal Law Enforcement
                                          dards through established processes. Every three      The public can access audit reports, press
conference.
                                          years, the OIG is selected for a peer review of its   releases, and other OIG information on its web-
                                          audit processes by another Inspector General          site at http://www.uspsoig.gov. Groups desiring
                                          organization. The OIG also has an effective           an OIG speaker are invited to contact the OIG’s
                                          quality assurance function that evaluates inter-      Public Relations Director at (703) 248-2100.
                                          nal processes, programs, and work performed.



                                PAGE 78   ORGANIZATIONAL DYNAMICS
NOTABLE OIG ACHIEVEMENTS                             TRANSFORMATION PLAN
                                                     STEERING COMMITTEE
OIG EMPLOYEE REQUESTED BY                                  In order to address its short and long-term
CONSUL GENERAL FOR JERICHO
                                                     challenges, the Postal Service published a
DETAIL
                                                     Transformation Plan in April 2002. The OIG
      In May 2002, OIG evaluator Dave Zielinski
                                                     established a Transformation Plan Steering
was requested by the Consul General and Chief
                                                     Committee to coordinate and oversee OIG
of Mission in Jerusalem, Department of State, to
                                                     efforts related to postal transformation. OIG
assist with an international peacekeeping effort
                                                     Steering Committee members represent each of
in the Middle East. The Department of State
                                                     the OIG’s major teams in order to ensure ade-
selected Mr. Zielinski based on his success as a
                                                     quate coverage of issues in the plan.
Department of Justice employee working with
                                                           In August 2002, the committee issued two
Palestinian authorities. Mr. Zielinski was asked
                                                     internal reports that provided information and
to serve in Jericho, Israel, on an international
                                                     analyses for OIG managers to consider when
team of monitors overseeing the confinement of
                                                     planning their work. The first report compared
Palestinian prisoners involved in the Church of
                                                     Transformation Plan areas to completed and
Nativity standoff. He worked closely with
                                                     ongoing OIG work. By conducting this compar-
American, British, and Israeli officials to ensure
                                                     ison, the OIG was able to identify areas that did
the prisoners were held in accordance with
                                                     not have audit coverage and use this data in
international agreements. As the only U.S. gov-
                                                     developing its FY 2003 Audit Workload Plan.
ernment employee on the monitoring team, Mr.
                                                     The second report presented the results of the
Zielinski has given the Postal Service interna-
                                                     OIG’s review of the Transformation Plan as it
tional recognition. The OIG is proud to have
                                                     relates to the Postal Service’s voice of the busi-
such a distinguished, internationally recognized
                                                     ness, voice of the customer, and voice of the
individual as one of its own.
                                                     employee. This report highlighted areas where
OIG PEER REVIEW EXEMPLARY                            the OIG could consider placing greater audit
     In February 2002, the National Railroad         coverage. The reports will be updated periodi-       OIG Evaluator Dave Zielinski assisted the
Passenger Corporation (AMTRAK) Office of             cally.                                               Department of State in an international
Inspector General conducted a peer review of               The Steering Committee coordinated sev-        peacekeeping effort in the Middle East.
the OIG’s audit program. Government                  eral OIG projects related to transformation in
Auditing Standards require that each audit           order to maximize efficiency and avoid overlap
organization conducting audits in accordance         of efforts. These projects included reviews of the
with these standards have an external quality        Transformation Plan, the Postal Service’s com-
control review at least once every 3 years. The      pliance with Government Performance and
peer review team concluded the OIG’s internal        Results, and ratemaking. In addition, the
quality control system was exemplary. This is a      Steering Committee plans to periodically issue
tremendous accomplishment, particularly in           capping reports on OIG reviews that corre-
light of recent high-profile events related to the   spond to transformation issues. The Steering
work quality of the auditing profession and the      Committee will continue to play an active part
fact that this was the OIG’s first peer review.      in planning, oversight, and coordination as
     The peer review assures the OIG has an          transformation unfolds.
effective audit program. The objective of the        OIG EXPERTISE SOUGHT
review is to determine whether an internal           IN INTERNATIONAL
quality control system is in place and operating     ANTI-CORRUPTION EFFORTS
effectively to provide reasonable assurance that          The U.S. Department of Treasury’s Office
established policies, procedures, and applicable     of Technical Assistance asked the OIG to share
auditing standards are being followed. The           its expertise in fighting fraud, waste, and abuse
results are presented in an external report and,     to help with anti-corruption programs for devel-
when applicable, a letter of comments contain-       oping countries. The OIG will be providing its
ing recommendations for improvements to the          expertise in the areas of auditing and anti-cor-
quality control system.                              ruption in order to help countries such as


                                                                                                            PAGE 79
                                           Armenia, South Africa, and others create anti-     develop, and implement an internal software
                                           corruption policies, develop enabling legisla-     application for criminal investigators to plan,
                                           tion, implement regulations, and train             execute, document, track, and report investiga-
                                           anti-corruption personnel.                         tive casework. This innovative software applica-
                                                                                              tion gives the OIG real-time access to sensitive
                                           OIG IMPLEMENTS
                                                                                              investigative data, the ability to share informa-
                                           ENTERPRISE-WIDE RESOURCE
                                           PLANNING SYSTEM                                    tion with other federal law enforcement enti-
                                                                                              ties, and the tools necessary to account for
                                                 The OIG effectively implemented an
                                                                                              resources used in investigative processes, all
                                           enterprise-wide resource planning system that
                                                                                              within an encrypted, secure operational envi-
                                           provides state-of-the-art technical capabilities
                                                                                              ronment.
                                           to conduct business processes and support
                                                                                                   The development and implementation of
                                           employees. Specifically, the OIG enhanced its
                                                                                              this software application demonstrates the
                                           strategic planning capabilities, program man-
                                                                                              OIG’s core values and significantly increases
                                           agement, and employee productivity. The sys-
                                                                                              productivity. The system also enhances the
                                           tem also supports the OIG’s core values of
                                                                                              OIG’s position as a leader in the federal law
                                           teamwork, leadership, creativity, communica-
                                                                                              enforcement community, as witnessed by the
                                           tion, and conceptualization by providing real-
                                                                                              interest and enthusiasm it has generated within
                                           time communication and data access to its
                                                                                              the community. The OIG has provided demon-
                                           management committee, leadership team, and
                                                                                              strations of the software to 11 agencies, and
                                           employees. In addition to implementing the sys-
                                                                                              more are scheduled to receive demonstrations.
                                           tem on time and within budget, the OIG real-
                                           ized over $900,000 in savings by documenting       OIG IMPLEMENTS PROTECTIVE
                                           business processes, developing training materi-    REVIEW PROGRAM
                                           als, and using in-house resources to provide the         The OIG is implementing a Protective
                                           training.                                          Review Program. These reviews are designed to
OIG teams received Awards of                                                                  provide critical coverage of the almost 38,000
Excellence from the President’s            OIG HOSTS ANNUAL FEDERAL
                                           AUDIT EXECUTIVE COUNCIL                            facilities of the Postal Service. This program
Council on Integrity and Efficiency
                                           CONFERENCE                                         will provide valuable and timely feedback
and Executive Council on Integrity
and Efficiency.                                                                               about office and program management to local
                                                In May, the OIG hosted the annual Federal
                                                                                              and headquarters-level management and iden-
                                           Audit Executive Council Conference in
                                                                                              tify systemic issues for quick resolution.
                                           Norfolk, Virginia. The theme was “The Future
                                           of Auditing.” The conference provided              OIG DIRECTOR SELECTED FOR
                                           attendees with thought-provoking insight into      GENERAL ACCOUNTING OFFICE
                                           the direction of the audit profession and how      EXECUTIVE DEVELOPMENT
                                           audit executives can meet future challenges.       PROGRAM
                                           Inspector Generals and other audit executives           The OIG’s former director of Oversight was
                                           from federal agencies attended. The OIG’s          one of 10 individuals selected to participate in
                                           Assistant Inspector General of Financial           the General Accounting Office’s Executive
                                           Management, is Chairman of the council. The        Candidate Assessment and Development
                                           council consists of Assistant Inspector Generals   Program. This individual was the only candi-
                                           for Auditing or individuals in similar positions   date selected from outside the General
                                           from federal agencies, and discusses and coordi-   Accounting Office. The program, which began
                                           nates matters affecting audit policy and opera-    in 1981, identifies individuals who have the
                                           tions of common interest in the federal audit      potential to undertake executive-level responsi-
                                           community.                                         bility and provides them with training to
                                                                                              enhance their leadership skills. The OIG is
                                           OIG DEVELOPS CRIMINAL
                                                                                              extremely proud that one of its former leaders
                                           INVESTIGATIVE SOFTWARE
                                           APPLICATION                                        was selected for this program.
                                               The OIG Information Technology and
                                           Investigative Teams worked together to design,


                                 PAGE 80   ORGANIZATIONAL DYNAMICS
OIG RECEIVES AWARDS OF                              and commitment to their country, and looks
EXCELLENCE                                          forward to their safe return.
    The OIG received 11 Awards of                   OIG SPECIAL AGENTS CONDUCT
Excellence from the President’s Council on          NATIONWIDE OUTREACH
Integrity and Efficiency and the Executive          EFFORTS
Council on Integrity and Efficiency for                  This reporting period, OIG special agents
FY 2002. The OIG was recognized for excel-          continued their outreach and education efforts
lence in the areas of audits, investigations,       nationwide. Special agents worked to develop
administrative support, and assistance after the    new cases by providing information to various
September 11, 2001, attacks. The OIG won            Postal Service and law enforcement entities on
awards for:                                         the mission and structure of the OIG, the cur-
◆   innovation and dedication during a              rent designation of functions between the OIG
    national biohazard attack by assisting the      and the Inspection Service, and the ways in
    Postal Service in responding to anthrax         which OIG investigative and audit teams work
    contamination by evaluating the steps           together. The OIG also conducted numerous
    taken and providing concurrent sugges-          fraud awareness briefings to postal employees
    tions to improve their ongoing process of       nationwide and continued to make its presence
    action;                                         known in the health care fraud arena. Special
◆   successful prosecution of four postal con-      agents attended a Health Care Task Force
    tractors and a postal employee for con-         meeting at the U.S. Attorney’s Office in
    spiring to defraud the Postal Service by        Atlanta, Georgia, and attended the Health
    making and receiving payments in return         Care Fraud Working Group meeting at the U.S.
    for awarding contracts valued at nearly         Attorney’s Office, Western District of
    $16 million;                                    Tennessee. Representatives attended these
◆   using state-of-the-art technology to            meetings from various federal, state, and local
    transform its Hotline into a paperless          law enforcement and health care agencies.
    environment;
                                                    CHALLENGES FACING THE OIG
◆   designing and applying critical safeguards
                                                         As the OIG moves forward in its efforts to
    that ensure the security of network appli-
                                                    help the United States Postal Service enhance
    cations, and implementing an enterprise-
                                                    its position as the world’s leading postal service,
    wide resource planning system to support
                                                    it must address the following challenges, some
    all OIG employees; and
                                                    of which have an impact on OIG internal oper-
◆   achievement in a multi-agency investiga-        ations, and others on OIG oversight of the
                                                                                                          OIG teams received Awards of Excellence
    tion that identified improper and fraudu-                                                             from the President’s Council on Integrity
                                                    Postal Service. These include:                        and Efficiency and Executive Council on
    lent testing practices for underground
                                                    ◆    Balancing the OIG’s Responsibility to            Integrity and Efficiency.
    storage tanks in Postal Service facilities,
    military bases, and a National Aeronau-              Report Information with the Postal Ser-
    tics and Space Administration facility.              vice’s Concern About Withholding Pro-
                                                         prietary Data. The OIG carefully weighs
     This year a special category was included to
                                                         the public’s right of access to information
recognize the unprecedented efforts of the
                                                         under the Freedom of Information Act
inspector general community in responding to             against the Postal Service’s commercial
the September 11, 2001, terrorist attacks on the         and security needs when considering
United States and efforts to protect the people          whether to release audit reports and
of the United States. The OIG was recognized             other information. To accurately assess
for contributing to this effort.                         the sensitivity of information, the OIG
                                                         works closely with postal management
OIG EMPLOYEES ASSIST IN THE
                                                         and its law department. The challenge of
FIGHT AGAINST TERRORISM
                                                         balancing the OIG’s responsibility to
     Eight OIG employees were called back to             keep the public informed against the
active military duty after the attacks. The OIG          Postal Service’s interest in non-disclosure
is proud of these employees’ dedicated service           becomes particularly critical as the Postal


                                                                                                            PAGE 81
                                            Service enters into new business ventures         Inspection Service questioning the OIG’s
                                            that might involve commercially sensi-            oversight authority and not providing
                                            tive information and prepares to respond          unrestricted access to Inspection Service
                                            to the increased threat of terrorism.             personnel and information. The OIG
                                        ◆   Educating Stakeholders About the                  continues to work with Inspection Ser-
                                            OIG’s Role. A continuous challenge for            vice and senior postal management to
                                            the OIG is to inform stakeholders about           resolve these challenges, and looks for-
                                            the OIG’s mission, responsibilities, and          ward to establishing an environment of
                                            audit and investigative efforts. The OIG          cooperation with the new Chief Postal
                                            has proactively reached out to stakehold-         Inspector.
                                            ers regarding how it prevents and detects     ◆   Protecting OIG Organizational Inde-
                                            fraud, waste, abuse, and mismanagement            pendence and Authority. The Inspector
                                            and otherwise adds value to the Postal            General Act clearly establishes the OIG’s
                                            Service. The OIG will continue its out-           independence from postal management
                                            reach efforts until all stakeholders              and its unrestricted right of access to per-
                                            become familiar with the OIG’s roles and          sonnel and records. However, postal
                                            responsibilities. As part of those efforts,       management has at times had difficulty
                                            the OIG is conducting outreach by deliv-          understanding this independence and
                                            ering presentations at postal management          authority. Postal management has some-
                                            association and postal union state and            times attempted to direct the efforts of
                                            national conventions.                             the OIG and control OIG access to indi-
                                        ◆   Managing OIG Resources to Accommo-                viduals and records. The OIG will con-
                                            date Changing Postal Service Priorities.          tinue its outreach and education efforts
                                            The current environment of the Postal             to assist management in understanding
                                            Service challenges the OIG to manage its          its independence and authority.
Inspector General Karla Corcoran
                                            resources to accommodate and rapidly          ◆   Recruiting and Retaining Talented
was interviewed for a MAIL
magazine cover story.                       respond to changing priorities. In addi-          Staff. The OIG is committed to attract-
                                            tion, the urgency of the anthrax threat,          ing and retaining the best and brightest
                                            escalating workers’ compensation costs,           staff, and continues to promote a diverse
                                            labor management issues, and other chal-          workforce. After the attacks of Septem-
                                            lenges facing the Postal Service require          ber 11, 2001, other agencies, such as the
                                            the OIG to use innovative methods to              Transportation Security Administration,
                                            assist in addressing these challenges in a        have recruited many OIG employees
                                            timely manner. These methods include              because of their experience and expertise.
                                            using the latest technology, reallocating         The OIG is challenged to continue to
                                            staff and financial resources, and main-          attract and retain talented staff at a time
                                            taining a workforce with diverse talents,         when these agencies and others are offer-
                                            backgrounds, and experiences.                     ing thousands of job opportunities to
                                        ◆   Overseeing Postal Inspection Service              people with the same qualifications the
                                            Activities. One of the primary reasons an         OIG is seeking.
                                            independent OIG was established within            To respond to the loss of experienced
                                            the Postal Service was to provide over-           staff, the OIG has continued to carry out
                                            sight of Inspection Service activities. The       an aggressive hiring initiative to main-
                                            OIG’s statutory mandate for providing             tain staffing levels needed to provide
                                            oversight is comprehensive, and requires          quality audit and investigative services to
                                            that it oversee all Inspection Service            stakeholders. This has required innova-
                                            activities, including the conduct of inter-       tive approaches to recruitment and work-
                                            nal investigations.                               force management. Some of the initia-
                                            Despite this clear mandate, the OIG con-          tives undertaken by the OIG include spe-
                                            tinues to face challenges in exercising its       cialized training and development, access
                                            oversight responsibility. Among the most          to the latest investigative and audit man-
                                            pressing challenges the OIG has faced in          agement technology, as well as greater
                                            fulfilling this responsibility has been the       deployment of staff to field locations.



                              PAGE 82   ORGANIZATIONAL DYNAMICS
    Part of the OIG’s recruiting and reten-      oversight of the hiring of the next
    tion efforts include maintaining a           Inspector General may be limited.
    healthy organizational culture and envi-     The OIG will embark on a communica-
    ronment through methods such as              tion program designed to prepare its
    employee advisory councils, workplace        employees for the organization’s first
    enhancement training, teambuilding,          change in leadership using a wide variety
    and career change opportunities.             of communications tools, including all-
◆   Providing User-Friendly Results to           hands meetings, video teleconferencing,
    Stakeholders. Keeping stakeholders fully     and the employee newsletter.
    and currently informed is the foundation
    of providing value-added audit and
    investigative services. One of the biggest
    challenges the OIG faces is providing
    timely, understandable, and useful infor-
    mation to its stakeholders. To meet this
    challenge, the OIG will continue to
    explore and utilize new avenues of com-
    municating user-friendly information.
    One such avenue is technology. The
    OIG’s innovative use of video reports
    provides a visual illustration of audit
    results that transcends the limitations of
    text reports. In addition, the OIG web-
    site provides comprehensive information
    about the OIG’s mission, culture, and
    work. The OIG also created an informa-
    tional CD for stakeholders and prospec-
    tive employees.
◆   Preparing for a New Inspector General.
    The Postal Service is the only federal
    agency where the Inspector General
    serves a statutory term. In January 1997,
    the Inspector General was appointed by
    the Postal Service Governors to a 7-year
    term that expires in just over 1 year. The
    Governors will need to identify a succes-
    sor, and the OIG will need to prepare for
    a change in leadership to ensure a seam-
    less transition.
    In addition, because the Inspector Gen-
    eral’s position is for a 7-year term, some
    highly qualified candidates, particularly
    senior executives from other agencies,
    may be deterred from seeking the posi-
    tion if they are not eligible to retire at
    the end of the term. This may also
    increase the possibility of postal manage-
    ment being appointed to the position,
    which could have an adverse impact on
    the actual or perceived independence of
    the OIG. Because the Inspector General
    is not appointed by the President and
    confirmed by the Senate, congressional



                                                                                             PAGE 83
                                                                                                upgrading management systems; developing,
                                        INSPECTION SERVICE                                      procuring and deploying electronic security and


                                        T
                                                 he Inspection Service, the traditional         surveillance equipment; publishing policy
                                                 law enforcement arm of the Postal              handbooks and consumer awareness guides and
                                                 Service, is a highly specialized, profes-      brochures; supplying photography and video
                                        sional organization that performs investigative         services; and facilitating direct communications
                                        and security functions essential to a stable and        with Congress and the public.
                                        sound postal system. Through its security and                 The Internal Affairs Division operates with
                                        enforcement functions, the Inspection Service           a staff of 11 Postal Inspectors, an Inspector in
                                        provides assurance to businesses for the safe           Charge, 4 support employees and 36 Postal
                                        exchange of funds and securities through the            Police Officers, and has a two-fold mission.
                                        U.S. mail; to postal customers of the “sanctity of      First, it ensures integrity and excellence within
                                        the seal” in transmitting correspondence and            the Inspection Service by conducting indepen-
                                        messages; and to postal employees of a safe work        dent internal investigations of its employees.
                                        environment.                                            Second, it protects the safety of postal employ-
                                              Postal Inspectors are federal law enforce-        ees and customers by providing security and pre-
                                        ment officers who carry firearms, make arrests,         ventive services at national Headquarters.
                                        execute federal search warrants, and serve sub-               The Office of Counsel provides legal
                                        poenas. Postal Inspectors work closely with U.S.        advice and services in support of Postal
                                        Attorneys, other law enforcement agencies, and          Inspection Service investigations, programs,
                                        local prosecutors to investigate postal cases and       and goals, processes requests for access to
                                        prepare them for court. There are approximately         Inspection Service records and provides legal
                                        1,900 Postal Inspectors stationed throughout            training to Inspection Service personnel. The
                                        the United States who enforce over 200 federal          Counsel’s office comprises 20 Inspector-
                                        laws covering investigations of crimes that             Attorneys, supported by an administrative staff
                                        adversely affect or fraudulently use the U.S.           including paralegals, information disclosure spe-
                                        mail and postal system.                                 cialists, a labor relations analyist, a program spe-
                                              To assist in carrying out its responsibilities,   cialist, and an administrative support specialist.
                                        the Inspection Service maintains a security                   The Inspection Service’s national informa-
                                        force staffed by over 1,400 uniformed Postal            tion technology infrastructure supports over
                                        Police Officers, who are assigned to critical           4,300 users at more than 220 sites nationwide.
                                        postal facilities throughout the country. The           Inspection Service offices are linked nationally
                                        officers provide perimeter security, escort high-       via a dedicated frame-relay network, with online
                                        value mail shipments, and perform other essen-          connections to the Postal Service, the National
                                        tial protective functions.                              Crime Information Center, the National Law
                                              The Inspection Service operates five foren-       Enforcement Telecommunications System, and
                                        sic crime laboratories, strategically located in        the Internet.
                                        cities across the country. The laboratories are               The Inspection Service extends full coop-
                                        staffed with forensic scientists and technical          eration to all federal, state, and local investiga-
                                        specialists who assist Postal Inspectors in analyz-     tive and prosecutorial authorities in law
                                        ing evidentiary material needed for identifying         enforcement matters to ensure greater protec-
                                        and tracking criminal suspects and in providing         tion to the public. Working with other agencies,
                                        expert testimony for cases brought to trial.            Postal Inspectors regularly participate in joint
                                              The Inspection Service’s 800 professional         task force cases aimed at curtailing widespread
                                        and technical employees also include program            criminal acts of an organized nature.
                                        analysts, financial analysts, information tech-               More information on the Inspection
                                        nology experts, and others who play a vital role        Service can be found at http://www.usps.com/
Inspection Service seal and badges      in supporting the criminal investigation and            postalinspectors.
                                        security functions of the Inspection Service.
                                        They perform a wide variety of tasks, including
                                        developing, maintaining and continually



                              PAGE 84   ORGANIZATIONAL DYNAMICS
Organizational Structure




   DID YOU
   KNOW?
  What is the background of the OIG’s staff?
  The OIG staff consists of auditors, criminal
  investigators, evaluators, lawyers, experts,
  technicians, and administrative personnel from
  federal and state government agencies, private
  industry, nonprofit organizations, and the
  Postal Service.




                                            PAGE 85
                     Office of Inspector General
                      Organizational Structure

             ESTIGATION                                                                                                                       AUDITS
            V
          IN           S
Assistant Inspector General                                                                                                      Assistant Inspector General
Investigative Operations                                                                                                         Audit Operations & Follow-up/ Quick Response
Deputy AIG for Investigations                                                                                                    AIG for Financial Management
Financial Crimes                                                                                                                 Contracting & Facilities
                                                                                                                                 Financial Field
Health Care Fraud
                                                                                                                                 Financial Statements
Executive Investigations & Retaliation
Computer Intrusion/Forensic                                                                                                                                         AIG for Core Operations
                                                                            BOSTON ◆ CHICAGO ◆
                                                                       TA ◆
   & Tech Services                                                                                                                                                  Accepting & Processing
                                                                     AN                        DAL
Hotline & Security                                                                                                                                                  Labor Management
                                                                  ATL                             LA
                                                                                                    S◆
                                                                ◆                                                                                                   Transportation & Delivery
                                                          ON                                                                      D                                 Health Care




                                                                                                                                      EN
                                               GT




                                                                                                                                                                    AIG for eBusiness
                                             IN




                                                                                                                                        VE
                                           SH




                                                                                                                                          R
                                                                                                                                                                    Developmental
                                                               Inspector General


                                                                                                                                         ◆
                                         WA




                                                                                                                                                                    eCommerce/Marketing




                                                                                                                                              LOS
                                            S:




                                                                                                                                                                    Information Systems
                                        FICE




                                                                                                                                                  ANG
                                                               Deputy                                                                                               Inspection Service
                              ◆ FIELD OF




                                                                                                                                                     ELES ◆
                                                               Inspector General
                                                               Quality Assurance & Internal Affairs


                                                                                                                                                             OLIS
                                                               Strategic Planning
                               TAMPA ◆




                                                               Public Relations
                                                                                                                                                  IN N E A P
                                                               Congressional & FOIA
                                                                                                                                               ◆M


                                                           Executive Representative
                                       ST. L




Assistant                                                  for Field Liaison
                                             OU




                                                                                                                                            RK




Inspector General
                                                                                                                                         YO




                                                           Field Offices
                                                IS




                                                                                                                                                                    General Counsel &
                                                                                                                                        W
                                                 ◆




                                                                                                                                                                    AIG for Oversight
                                                                                                                                      NE




Deputy AIG for
                                                     SA




                                                                                                                                 ◆




                                                          FR
                                                      N




Resources                                                      AN                                                                GH                                 & Legal Services
                                                                    CIS
                                                                          CO                                            B   UR
Administrative Services                                                        ◆R                               I   TTS                                             Deputy AIG for
                                                                                  ALEIG                      ◆P
Human Resources                                                                           H ◆ P O RTLA N D                                                          Oversight & Legal Services
Internal Quality                                                                                                                                                    Legal Services
Workplace Enhancement                                                                                                                                               Oversight                     S
Deputy AIG for Technology
                                                                                                                                                                                                IC E

Communications & Policy
Experts & CAATS
                                                                                                      OV




Information Technology
                                                                                                                                                                                         RV



                                                                                                             ER
     IN                                                                                                                                                                                  E
                                                                           S




          TE                                                       S                                                 SI                                                                S
                 RNA               I                            NE                                                           GH
                                                                                                                                            T & LEGA
                                                                                                                                                                                     L
                             L BUS




                 PAGE 86           ORGANIZATIONAL STRUCTURE
This section describes the organization of             QUALITY ASSURANCE & INTERNAL
the OIG and the Inspection Service. In                 AFFAIRS TEAM
order to differentiate between the OIG and             Director, George Davis - conducts internal
the Inspection Service, the page concerning            reviews of OIG operations and procedures to
the Inspection Service has been color-                 ensure they are effective and appropriate, and
screened.                                              reviews allegations against OIG employees.
                                                       STRATEGIC PLANNING
                                                       Director, Linda Libician (Acting) - incor-
OFFICE OF INSPECTOR                                    porates current and future Postal Service
GENERAL                                                changes into OIG operations, prepares and
                                                       updates the OIG strategic plan, develops and


T
         he OIG is a unique, nontraditional,
                                                       monitors the OIG annual performance mea-
         diverse organization that conducts
                                                       sures, and completes strategic studies as needed.
         audits, evaluations, investigations, and
other core functions identified by the Inspector       EXECUTIVE REPRESENTATIVE FOR
General Act of 1978, as amended. It is a matrix        FIELD LIAISON
organization with a non-hierarchical structure         Colleen McAntee - provides senior-level
organized into five core business functions.           communication links between the OIG Head-
     The OIG works in teams to maximize the            quarters and its 15 field offices, and all Postal
abilities of its employees and uses cutting-edge       Service field operations.
technology and the most advanced manage-
                                                       ◆   East Offices: Washington, New York,
ment principles available to add value to postal
                                                           Atlanta, Pittsburgh, Boston, Raleigh, and
programs and operations. Teams that focus on               Tampa
improving Postal Service business processes
and overall organizational achievement                 ◆   West Offices: Chicago, Los Angeles,
                                                           Dallas, Minneapolis, St. Louis, Denver,
demonstrate the OIG’s values of teamwork,
                                                           Portland, and San Francisco
leadership, communication, creativity, and
conceptualization. The following section               Audit Directors, Darrell Benjamin
describes the OIG organizational structure as          (West) and Debbie Pettitt (East) - plan
of September 30, 2002.                                 and coordinate staffing for audits and reviews as
                                                       initiated by Headquarters and responsible for       The OIG has 15 field offices nationwide.
                                                                                                           Pictured here are employees at the
DEPUTY INSPECTOR GENERAL                               overall audit field staff development.
                                                                                                           Minneapolis Field Office.
Thomas Coogan                                          Investigative Directors, William Hencken
CONGRESSIONAL & FOIA TEAM                              (Central) and Carl Puricelli (West) and
                                                       Rosa Howard (East) - plan and direct inves-
Director, Carrie Fox - serves as liaison and
                                                       tigations in coordination with Headquarters
responds to requests from Congress and the
                                                       staff and are responsible for overall investiga-
Board of Governors; coordinates congressional
                                                       tive field staff development.
testimony and presentations; and responds to
all Freedom of Information Act requests.               GENERAL COUNSEL & ASSISTANT
                                                       INSPECTOR GENERAL FOR
PUBLIC RELATIONS TEAM
                                                       OVERSIGHT AND LEGAL
Director, Laura Whitaker - plans and                   SERVICES
directs public relations activities; serves as liai-
son and responds to requests from media; plans
                                                       Kirt West
and directs all OIG outreach activities; and
                                                       DEPUTY ASSISTANT INSPECTOR
keeps OIG staff informed of news articles of           GENERAL FOR OVERSIGHT AND
interest.                                              LEGAL SERVICES
                                                       Gladis Griffith




                                                                                                            PAGE 87
                                     LEGAL SERVICES TEAM                                   audits and reviews of purchasing and con-
                                     Director, Andrea Bernardo (Acting) -                  tracting activities, as well as all aspects of
                                     provides legal advice to the Inspector General        postal facility repair, renovation, and new
                                                                                           construction.
        DID YOU                      and OIG staff in all areas of criminal, civil, and
                                     administrative law; processes subpoenas; man-         ASSISTANT INSPECTOR GENERAL
        KNOW?                        ages ethics program; and reviews existing and         FOR CORE OPERATIONS
                                     proposed legislation, regulations, and policies
                                     affecting the economy and efficiency of the           Wayne Goleski
Did You Know?                        Postal Service.
                                                                                           ACCEPTING & PROCESSING TEAM
The Postal Service did not require   OVERSIGHT TEAM                                        Director, Larry Chisley - plans and directs
city dwellers to have mailboxes at   Director, Howard Cox (Acting) - provides              audits and reviews focusing on the economy,
their homes until 1916. Before       oversight of Inspection Service functions and         efficiency, and effectiveness of mail acceptance,
that, carriers would deliver the     operations through inspections, reviews, moni-        collection, and processing operations, as well as
mail to the door, ring the bell      toring, and coordination, including assessing         logistics activities supporting these operations.
twice (the postman always rings      criminal investigative programs and operations.
                                                                                           TRANSPORTATION & DELIVERY TEAM
twice) to signal the mail was        ASSISTANT INSPECTOR GENERAL                           Director, Joe Oliva - plans and directs audits
there, or knock. To save wear        FOR AUDIT                                             and reviews focusing on delivery, and domestic
and tear on their knuckles, carri-   Robert Emmons, Acting                                 and international transportation operations,
ers also used wooden doorknock-                                                            specifically addressing economy, efficiency, and
ers to announce their presence.      AUDIT OPERATIONS AND                                  effectiveness of Postal Service fleet operations
                                     FOLLOW-UP/QUICK RESPONSE TEAM                         and contracts for air, highway, and rail services.
                                     Director, Kim Stroud - provides support, ser-         LABOR MANAGEMENT TEAM
                                     vices, and coordination of audit activities; facil-
                                                                                           Director, Chris Nicoloff - plans and directs
                                     itates the development of audit reporting poli-
                                                                                           audits and reviews focusing on labor relations
                                     cy and procedures; develops and oversees
                                                                                           and labor management issues within the Postal
                                     implementation of the audit workload plan;
                                                                                           Service to assist in maintaining a healthy and
                                     manages the closure of significant audit recom-
                                                                                           safe organizational climate for employees and
                                     mendations and the audit resolution process;
                                                                                           improving operational economy, efficiency, and
                                     and analyzes statistical audit data to accomplish
                                                                                           effectiveness.
                                     the OIG’s audit mission. In addition, assists
                                     Postal Service management by identifying best         HEALTH CARE TEAM
                                     practices for improving Postal Service opera-         Director, Erica Blackman (Acting) - plans
                                     tions and advises on critical, time sensitive         and directs audits and reviews focusing on
                                     issues.                                               health care issues within the Postal Service to
                                                                                           assist in improving operational economy, effi-
                                     ASSISTANT INSPECTOR GENERAL
                                     FOR FINANCIAL MANAGEMENT                              ciency, and effectiveness.

                                     John Seeba                                            ASSISTANT INSPECTOR GENERAL
                                                                                           FOR eBUSINESS
                                     FINANCIAL TEAMS
                                                                                           Ronald Merryman, Acting
                                     Director, Financial Statements, John
                                     Cihota (Acting) and Director, Financial               DEVELOPMENTAL TEAM
                                     Field, Sheila Bruck - plan and direct work in         Director, Tracy LaPoint - plans and directs
                                     support of the independent public accounting          audits and reviews of new or redesigned Postal
                                     firm’s annual financial audit opinion and con-        Service systems, programs, and operations that
                                     duct other financial-related audits to identify       are under development.
                                     areas for improvement.
                                                                                           eCOMMERCE & MARKETING TEAM
                                     CONTRACTING & FACILITIES TEAM
                                                                                           Director, Robert Batta - plans and directs
                                     Director, Lorie Siewert - plans and directs           audits and reviews of electronic commerce,


                          PAGE 88    ORGANIZATIONAL STRUCTURE
marketing programs, stamp services, retail oper-       Service and medical providers that have falsely
ations, international business, and support            billed the Postal Service for work-related injury
operations.                                            claims.
INFORMATION SYSTEMS TEAM                               COMPUTER INTRUSION AND
Director, Frances Cain (Acting) - plans                FORENSIC & TECHNICAL SERVICES
                                                       TEAM
and directs audits and reviews of major Postal
Service information systems to determine               Director, Ovie Carroll (Acting) - detects
whether general and application controls are           and investigates computer hacking and other
properly established and systems are designed          high-technology crimes involving Postal Ser-
to be secure and provide accurate data to man-         vice computers and telecommunications sys-
agement.                                               tems, and provides technical support in such
                                                       areas as surveillance, evidence recovery, and
INSPECTION SERVICE TEAM
                                                       computer forensics.
Director, Michael Thompson (Acting) -
                                                       HOTLINE AND SECURITY TEAM
plans and directs audits and reviews of Inspec-
tion Service functions and operations.                 Director, John DeMaggio - operates the              The OIG Legal Services team provides
                                                       OIG Hotline, providing a vital link for report-     legal advise to OIG staff, processes
ASSISTANT INSPECTOR GENERAL                            ing fraud, waste, abuse, and mismanagement;         subpoenas, manages the ethics
FOR INVESTIGATIONS                                     and provides physical and personnel security
                                                                                                           program, and reviews existing and
                                                                                                           proposed legislations, regulations,
Sam Maxey                                              services within the OIG.                            and policies affecting the Postal
                                                                                                           Service.
INVESTIGATIVE OPERATIONS TEAM                          ASSISTANT INSPECTOR GENERAL
                                                       FOR INTERNAL BUSINESS
Director, Russ Barbee - provides support
and coordination to field and headquarters             Ron Stith
investigative programs, facilitates the develop-
ment of investigative policy and procedures,           DEPUTY ASSISTANT INSPECTOR
compiles and analyzes statistical investigative        GENERAL FOR RESOURCES
data and results to accomplish the OIG’s inves-        Mary Demory
tigative mission.
                                                       HUMAN RESOURCES TEAM
DEPUTY ASSISTANT INSPECTOR
                                                       Director, Marta Erceg (Acting) - provides
GENERAL FOR INVESTIGATIONS
                                                       full-service human resource support to the
Daniel O’Rourke                                        OIG in the areas of employee relations, pay         The Human Resources Team provides
                                                       and benefits, recruitment, retirement, awards,      full-service human resources sup-
FINANCIAL CRIMES TEAM                                                                                      port to the OIG.
                                                       performance management, counseling, and
Director, Anthony Cannarella - identifies              training.
and coordinates investigations related to the
                                                       ADMINISTRATIVE SERVICES TEAM
expenditure of Postal Service funds, supports
investigations of purchasing activities and            Director, Stew Dorris - provides facility, pro-
operations, as well as all aspects of postal facili-   curement, financial, budget, and other internal
ty repair, renovation, and new construction.           services necessary to accomplish the OIG’s mis-
This team also identifies and coordinates inves-       sion.
tigations of bribery, kickbacks, conflict of inter-    WORKPLACE ENHANCEMENT TEAM
est, fraudulent tort claims, impact card fraud,
                                                       Director, Sharon Solomon - provides work
indemnity claims fraud, and cases involving
                                                       life, organizational climate, diversity, Equal
expenditures and contract fraud dealing with
                                                       Employment Opportunity, and other work-
product substitution.
                                                       place-related services.
HEALTH CARE FRAUD TEAM
                                                       INTERNAL QUALITY TEAM
Director, Mimi Band - identifies and coor-
                                                       Director, Bob Pemberton - develops pro-
dinates investigations of wrongdoing by med-
                                                       grams and activities that promote the vision
ical providers under contract with the Postal


                                                                                                            PAGE 89
                                   and core values of the OIG—teamwork,                        COMMUNICATIONS & POLICY TEAM
                                   leadership, communication, creativity, and                  Director, Jim Nugent - provides writing,
                                   conceptualization.                                          editorial, video, and graphic services; coordi-
                                   DEPUTY ASSISTANT INSPECTOR                                  nates and publishes OIG reports as well as
                                   GENERAL FOR TECHNOLOGY                                      other documents for Congress, the Gover-
                                                                                               nors, and Postal Service management; and
                                   Donna Edsall                                                manages development of internal policies and
                                                                                               procedures.
                                   INFORMATION TECHNOLOGY TEAM
                                   Director, David Sidransky - provides com-                   OIG FIELD LOCATIONS
                                   puter operations, telecommunications, agency-               The OIG Headquarters is located in Washing-
                                   wide information systems, computer security,                ton, DC. In addition, the OIG has 15 field
                                   and technical support.                                      offices located in San Francisco and Los Ange-
                                                                                               les, California; Denver, Colorado; Tampa,
                                   EXPERTS AND COMPUTER-ASSISTED
                                   ASSESSMENT TECHNIQUES TEAM                                  Florida; Atlanta, Georgia; Chicago, Illinois;
                                                                                               Boston, Massachusetts; Minneapolis, Minneso-
                                   This self-directed team provides support to
                                                                                               ta; St. Louis, Missouri; New York, New York;
                                   OIG in the areas of statistical sampling; quanti-
                                                                                               Portland, Oregon; Pittsburgh, Pennsylvania;
                                   tative and statistical methods; computer-assist-
                                                                                               Raleigh, North Carolina; Dallas, Texas; and
                                   ed assessment techniques for data retrieval and
                                                                                               Washington, DC. OIG locations are depicted
                                   analysis; economic forecasting; cost/benefit
                                                                                               in the chart below.
                                   analysis; estimation of monetary benefits;
                                   architecture; engineering; and activity-based
                                   costing.




                                            OIG Locations Nationwide

       PORTLAND, OR     PORTLAND, OR
                                                                                                   PITTSBURGH,
                                                                                             PITTSBURGH, PA      PA
                                                                                                                             BOSTON, MA
                                                          MINNEAPOLIS, MN
                                                                                                                       NEW YORK, NY
                                                                                                                                          BOSTON, MA
                                                     MINNEAPOLIS, MN
               SAN FRANCISCO, CA
                                                                          CHICAGO, IL
                                                                                                                                      NEW YORK, NY
                                                                                                                       WASHINGTON, DC
SAN FRANCISCO, CA                                 DENVER, CO              CHICAGO,
                                                                     ST. LOUIS, MO      IL                            RALEIGH, NC
                                                                                                                                  WASHINGTON,        DC
                      LOS ANGELES, CA                                                                        ATLANTA, GA
                                           DENVER, CO                                                                                  RALEIGH, NC
                                                                  ST. LOUIS, MO
     LOS ANGELES, CA                                                                                                          ATLANTA, GA
                                                                  DALLAS, TX                                     TAMPA, FL




                                                               DALLAS, TX                                                     TAMPA, FL




                    PAGE 90        ORGANIZATIONAL STRUCTURE
INSPECTION SERVICE

T
        he national headquarters offices of the                   which consists of the six Deputy Chief
        Inspection Service are organized into                     Inspectors and the three Inspectors in Charge
        functional groups that report to Deputy                   who report directly to the Chief Postal
Chief Inspectors for Investigations, Security &                   Inspector, establishes the direction of the orga-
Technology, and Professional Standards &                          nization. The National Leadership Team con-
Resource Development.         The Inspection                      sists of the Deputy Chief Inspectors and all
Service has 18 field divisions, which report                      Inspectors in Charge.
directly to three Deputy Chief Inspectors for                                                                                                                   Chief Postal Inspector
field operations. Five Inspection Service                                                                                                                       Lee R. Heath
Operations Support Groups support field offices.
The Inspection Service’s Executive Committee,




             Inspection Service Organizational Structure
                                                                                    Chief Postal Inspector
                                                                                     LEE R. HEATH



 Deputy Chief Inspector    Deputy Chief Inspector                Deputy Chief Inspector                      Deputy Chief Inspector    Deputy Chief Inspector       Deputy Chief Inspector
  Security/Technology          Investigations       Professional Standards & Resource Development            Field Operations - East   Field Operations West        Field Operations South
      J. ROWAN                K. NEWMAN                            (VACANT)                                      (VACANT)                  M. AHERN                   W. MITCHELL

   Inspector in Charge      Inspector in Charge     Inspector in Charge              Inspector in Charge      Inspectors in Charge      Inspectors in Charge         Inspectors in Charge
 Information Technology      Fraud, Child Expl.,     Strategic Plng. &                Office of Counsel            Mid Atl. -                                             Florida -
                                                                                                                                            Michiana -
     R. COCCIA               Asset Forfeiture &     Management Process                   L. KATZ              A. CRAWFORD                                                 J. BELZ
                             Money Laundering
                                                                                                                                        A. DAVIDSON
                                                    L. SPALLANZANI
                            L. MAXWELL                                                                            NY Metro -                 Midwest -                   Gulf Coast -
  Inspector in Charge                                                               Inspector in Charge
  Computer Crimes &                                                                 Office of Inspections        W. KEZER                R. BOWDREN                     R. DODD
                                                    Inspector in Charge
      Commerce              Inspector in Charge     Career Development                 (VACANT)              No. Jersey/Caribbean -          No. Ca -                 Rocky Mountain -
      J. EASLEY                Mail Theft &              Division                                                K. BURKE                   A. KIEL                     M. COBOS
                              Violent Crimes        J. STINCHFIELD                   Inspector in Charge          Northeast -              No. Illinois -                Southeast -
                             K. ROBERTS                                                Congressional &
   Inspector in Charge                                                                                            K. JONES                  I. GILLIS                  D. COLLINS
                                                     Inspector in Charge                Public Affairs
  International Security                                                                                      Philadelphia Metro -          Northwest -                  Southwest -
                            Inspector in Charge          Finance &                    D. MIHALKO
       D. HILL               Revenue & Asset                                                                      I. CARLE               R. MORGAN                     A. HOLMES
                                                        Adm. Services
                              Protection Prog.                                                                Washington Metro -
                                                        L. VISOS                                                                              So. Ca -
   Inspector in Charge         K. BOND                                                                        A. CLEMMONS                J. SOMERSET
        Security
    T. DENNENY                                           Manager                                                W. Allegheny -
                            Inspector in Charge
                                                      Human Resource                                              J. BIRCH
                             Forensic & Tech.
                                                       Performance
                                 Services
                              R. GEFFEN              N. JOHNSON


                               Lab Director
                                 F+TSD
                           L. MUEHLBERGER




                                                                                                                                           PAGE 91
PAGE 92   ORGANIZATIONAL STRUCTURE
Appendices




    DID YOU
    KNOW?
 Did You Know?
 The Postal Service’s technology infrastructure
 is one of five largest in the world with a
 network of more than 540,000 devices,
 1,800 employees, and operating at a cost of
 nearly $878 million annually.




                                                  PAGE 93
                                         APPENDIX A

                                         Reports Issued to Postal Management
                                         For the period April 1, 2002, through September 30, 2002

                                         OVERVIEW
                                         Office of Inspector General
                                         The OIG audit teams are aligned to conduct performance and financial audits, evaluations, and
                                         other reviews to address the business processes of the Postal Service. Each team issues audit
                                         reports (AR) or management advisory reports (MA) in accordance with the identified needs of
                                         the project.

                                         Inspection Service
                                         The Inspection Service provided Postal-wide attention in selected areas until September 30, 2000,
                                         when all audit functions were transitioned to the OIG.


                                         SUMMARY
                                         The following is a summary by principal area of reports issued to Postal Service manage-
                                         ment by the OIG. The following pages list the reports.
Definitions
Questioned Costs - A cost that is                                                                                        Recommend
                                                                            Number of      Questioned    Unsupported    Funds Put to   Unrecoverable
unnecessary, unreasonable, unsup-        Principal Area                 Reports Issued          Costs         Costs1      Better Use           Costs
ported, or an alleged violation of       Performance                               10              $0             $0    $21,459,787              $0
law, regulation, contract, etc.
                                         Financial Management                     255    $159,752,997   $117,650,903     $3,244,892      $8,301,831
Unsupported Costs - A cost that
                                         Technology                                24      $2,970,477             $0             $0              $0
is not supported by adequate docu-
mentation.                               Labor Management                           5              $0             $0      $835,000               $0
Funds Put to Better Use - Funds          Oversight                                  2              $0             $0             $0              $0
that could be used more efficiently      Other Significant Reviews                  2              $0             $0             $0              $0
by implementing recommended
actions.                                 GRAND TOTAL                             298 $162,723,474 $117,650,903         $25,539,679      $8,301,831
Unrecoverable Costs - A cost that
perhaps should not have been
incurred and is not recoverable.
Potential Additional Revenue -
Amounts from revenue generating
functions such as retail sales, rent,
leases, or fees that were underpaid
or not realized.




                                         1 Unsupported Costs are included with the amounts shown as Questioned Costs.
                                         2 Represents unrecoverable costs.

                               PAGE 94    APPENDICES
REPORT LISTING
The following is a list of each report grouped by core business processes and enabling functions

PERFORMANCE
                                                                        Un-    Recommend
Report          Subject Title/                       Questioned   supported   Funds Put to              Issue
Number          Project Type                              Costs       Costs     Better Use   Other2      Date
 ACCEPTING AND PROCESSING
AC-MA-02-001       Certified Mail Processing                $0          $0             $0       $0    8/30/02
                   Operations at the Sacramento
                   Processing and Distribution Center
AC-MA-02-002       Review of Nonprofit Standard Mail        $0          $0             $0       $0    8/14/02
QUICK RESPONSE
CQ-AR-02-001       Work Performed by Business Mail          $0          $0     $1,079,832       $0    9/26/02
                   Entry Employees in the Colorado
                   Wyoming Performance Cluster
MARKETING
EM-AR-02-011       National Postal Forum                    $0          $0             $0       $0    4/24/02
TRANSPORTATION AND DELIVERY
TD-AR-02-003       Highway Network Scheduling -             $0          $0     $4,500,417       $0    9/24/02
                   Pacific Area
TD-AR-02-004       Voyager Card Control Weaknesses -        $0          $0             $0       $0    9/26/02
                   Chicago
TD-AR-02-005       Delivery Vehicle Gasoline                $0          $0    $15,879,538       $0    9/30/02
TD-MA-02-003       New York Metro Area Trailer              $0          $0             $0       $0    7/10/02
                   Acquisition Requirements
TD-MA-02-004       Mishandled Mail at                       $0          $0             $0       $0    7/25/02
                   New York LaGuardia Airport
TD-MA-02-005       Delayed Letter Carrier Operations        $0          $0             $0       $0    8/29/02
                   in the Capital Metro Area
PERFORMANCE TOTALS                                          $0          $0 $21,459,787          $0


FINANCIAL MANAGEMENT
FINANCIAL OPINION
FT-MA-02-004       Terminated Station Contract         $58,248     $58,248             $0       $0     8/2/02
FISCAL YEAR 2001 FINANCIAL INSTALLATION AUDITS
FF-AR-02-208       Stamp Distribution Offices               $0          $0             $0       $0    4/26/02
FF-AR-02-214       Boulder Business Mail Entry Unit         $0          $0             $0       $0    5/10/02
FF-AR-02-309       District Accounting Offices              $0          $0             $0       $0    7/11/02
FF-AR-02-324       Post Offices, Branches, and Stations     $0          $0             $0       $0    7/26/02
FF-AR-02-326       Business Mail Entry Units                $0          $0             $0       $0    7/26/02
FISCAL YEAR 2002 FINANCIAL INSTALLATION AUDITS
FF-AR-02-212       Denver Business Mail Entry Unit          $0          $0             $0       $0    4/15/02
FF-AR-02-211       Peoria Business Mail Entry Unit          $0          $0             $0       $0    4/17/02
FF-AR-02-213       Milwaukee Business Mail Entry Unit       $0          $0             $0       $0    4/17/02
FF-AR-02-209       Churchs Ferry Post Office                $0          $0             $0       $0    4/23/02
FF-AR-02-210       Brocket Post Office                      $0          $0             $0       $0    4/23/02
FF-AR-02-215       McLean Business Mail Entry Unit          $0          $0             $0       $0     5/2/02
FF-AR-02-218       Marion Business Mail Entry Unit          $0          $0             $0       $0     5/2/02
FF-AR-02-216       Rye Main Post Office                     $0          $0             $0       $0     5/3/02
FF-AR-02-217       Hilltop Post Office                      $0          $0             $0       $0    5/21/02
FF-AR-02-219       Cupertino Business Mail Entry Unit       $0          $0             $0       $0    5/21/02
FF-AR-02-226       Carol Stream Business Mail Entry Unit $0             $0             $0       $0    5/24/02
FF-AR-02-227       South Temple Contract Postal Unit        $0          $0             $0       $0    5/31/02
FF-AR-02-233       Santa Ana Business Mail Entry Unit       $0          $0             $0       $0     6/3/02

                                                                                                                PAGE 95
                                                                              Un-    Recommend
          Report         Subject Title/                    Questioned   supported   Funds Put to             Issue
          Number         Project Type                           Costs       Costs     Better Use   Other      Date
          FF-AR-02-236   Tacoma Business Mail Entry Unit          $0          $0             $0      $0     6/3/02
          FF-AR-02-240   Bensenville Business Mail Entry Unit     $0          $0             $0      $0     6/3/02
          FF-AR-02-229   Belvedere Tiburon Post Office            $0          $0             $0      $0    6/13/02
          FF-AR-02-223   Wausau Business Mail Entry Unit          $0          $0             $0      $0    6/19/02
          FF-AR-02-230   Hollywood Station                        $0          $0             $0      $0    6/19/02
          FF-AR-02-247   Darlington Post Office                   $0          $0             $0      $0    6/19/02
          FF-AR-02-250   Cathedral City Post Office               $0          $0             $0      $0    6/19/02
          FF-AR-02-239   Frankfort Business Mail Entry Unit       $0          $0             $0      $0    6/20/02
          FF-AR-02-235   Fort Scott Business Mail Entry Unit      $0          $0             $0      $0    6/21/02
          FF-AR-02-237   Canon City Post Office                   $0          $0             $0      $0    6/21/02
          FF-AR-02-238   Garden Grove Business Mail               $0          $0             $0      $0    6/21/02
                         Entry Unit
          FF-AR-02-241   Gaithersburg Post Office                 $0          $0             $0      $0    6/21/02
          FF-AR-02-263   Tampa Business Mail Entry Unit           $0          $0             $0      $0    6/21/02
          FF-AR-02-264   Omaha Business Mail Entry Unit           $0          $0             $0      $0    6/21/02
          FF-AR-02-266   Farmingdale Business Mail Entry Unit $0              $0             $0      $0    6/21/02
          FF-AR-02-268   Somerville Business Mail Entry Unit      $0          $0             $0      $0    6/21/02
          FF-AR-02-269   Augusta Business Mail Entry Unit         $0          $0             $0      $0    6/21/02
          FF-AR-02-242   Pacific Palisades Postal Store           $0          $0             $0      $0    6/24/02
          FF-AR-02-248   Donovan Post Office                      $0          $0             $0      $0    6/24/02
          FF-AR-02-251   Watson Community Station                 $0          $0             $0      $0    6/24/02
          FF-AR-02-252   Tarzana Business Mail Entry Unit         $0          $0             $0      $0    6/24/02
          FF-AR-02-255   Huntington Business Mail Entry Unit $0               $0             $0      $0    6/24/02
          FF-AR-02-257   Edgerton Business Mail Entry Unit        $0          $0             $0      $0    6/24/02
          FF-AR-02-234   Aubrey Post Office                       $0          $0             $0      $0     7/1/02
          FF-AR-02-246   Syracuse Business Mail Entry Unit        $0          $0             $0      $0     7/1/02
          FF-AR-02-249   Gateway Contract Postal Unit             $0          $0             $0      $0     7/1/02
          FF-AR-02-253   Everett Main Office                      $0          $0             $0      $0     7/1/02
          FF-AR-02-254   Greenfield Business Mail Entry Unit      $0          $0             $0      $0     7/1/02
          FF-AR-02-256   Maitland Post Office                     $0          $0             $0      $0     7/1/02
          FF-AR-02-258   Wood Dale Post Office                    $0          $0             $0      $0     7/1/02
          FF-AR-02-259   Hazel Dell Contract Postal Unit          $0          $0             $0      $0     7/1/02
          FF-AR-02-260   Niland Post Office                       $0          $0             $0      $0     7/1/02
          FF-AR-02-262   Holiday Station                          $0          $0             $0      $0     7/2/02
          FF-AR-02-271   Minneapolis Business Mail Entry Unit $0              $0             $0      $0     7/3/02
          FF-AR-02-278   Olive Branch Business Mail               $0          $0             $0      $0     7/3/02
                         Entry Unit
          FF-AR-02-270   North Houston Business Mail              $0          $0             $0      $0     7/5/02
                         Entry Unit
          FF-AR-02-291   Santa Ana Window Section                 $0          $0             $0      $0     7/5/02
          FF-AR-02-261   Mason City Post Office                   $0          $0             $0      $0     7/8/02
          FF-AR-02-265   Thief River Falls Business Mail          $0          $0             $0      $0     7/9/02
                         Entry Unit
          FF-AR-02-272   Marysville Post Office                   $0          $0             $0      $0     7/9/02
          FF-AR-02-294   Sunny Isles Station                      $0          $0             $0      $0    7/12/02
          FF-AR-02-285   Republican City Post Office              $0          $0             $0      $0    7/16/02
          FF-AR-02-289   Babcock Post Office                      $0          $0             $0      $0    7/16/02
          FF-AR-02-290   Tempe Self-Service Postal Center         $0          $0             $0      $0    7/16/02
          FF-AR-02-301   Countryside Contract Postal Unit         $0          $0             $0      $0    7/16/02
          FF-AR-02-304   Hattiesburg Business Mail Entry Unit     $0          $0             $0      $0    7/16/02
          FF-AR-02-311   James C. Brown Window Section            $0          $0             $0      $0    7/16/02
PAGE 96   APPENDICES
                                                                  Un-    Recommend
Report         Subject Title/                  Questioned   supported   Funds Put to             Issue
Number         Project Type                         Costs       Costs     Better Use   Other      Date
FF-AR-02-288   Jetson Main Office                     $0          $0             $0      $0    7/17/02
FF-AR-02-296   Birmingham Stamp District Office and $0            $0             $0      $0    7/17/02
               Alabama District Accounting Office
FF-AR-02-297   St. Bernard Post Office                $0          $0             $0      $0    7/17/02
FF-AR-02-303   Ashtabula Business Mail Entry Unit     $0          $0             $0      $0    7/17/02
FF-AR-02-308   Sprague Post Office                    $0          $0             $0      $0    7/18/02
FF-AR-02-244   Wolsey Post Office                     $0          $0             $0      $0    7/23/02
FF-AR-02-273   Cedar Creek Post Office                $0          $0             $0      $0    7/23/02
FF-AR-02-275   Freeman Spur Post Office               $0          $0             $0      $0    7/24/02
FF-AR-02-245   Kendall Park Business Mail Entry Unit $0           $0             $0      $0    7/24/02
FF-AR-02-286   Adrian Post Office                     $0          $0             $0      $0    7/24/02
FF-AR-02-328   Smithtown Business Mail Entry Unit     $0          $0             $0      $0    7/26/02
FF-AR-02-307   Deland Business Mail Entry Unit        $0          $0             $0      $0    7/30/02
FF-AR-02-318   Port Orford Post Office                $0          $0             $0      $0    7/31/02
FF-AR-02-320   Newark Stamp District Office and       $0          $0             $0      $0 7//31/02
               Northern New Jersey District
               Accounting Office
FF-AR-02-325   Osborn Self-Service Postal Center      $0          $0             $0      $0     8/6/02
FF-AR-02-332   Mahwah Business Mail Entry Unit        $0          $0             $0      $0     8/6/02
FF-AR-02-331   Valley Forge Business Mail Entry Unit $0           $0             $0      $0     8/8/02
FF-AR-02-306   Port Bolivar Post Office               $0          $0             $0      $0     8/9/02
FF-AR-02-315   Enosburg Falls Post Office             $0          $0             $0      $0     8/9/02
FF-AR-02-316   Maysville Post Office                  $0          $0             $0      $0     8/9/02
FF-AR-02-317   Scotchtown Station                     $0          $0             $0      $0     8/9/02
FF-AR-02-335   St. Patrick Post Office                $0          $0             $0      $0     8/9/02
FF-AR-02-336   Goodrich Post Office                   $0          $0             $0      $0    8/13/02
FF-AR-02-276   Bel Air Contract Postal Unit           $0          $0             $0      $0    8/13/02
FF-AR-02-277   Kim Post Office                        $0          $0             $0      $0    8/13/02
FF-AR-02-295   East Los Angeles Station               $0          $0             $0      $0    8/13/02
FF-AR-02-299   Carmichael Business Mail Entry Unit $0             $0             $0      $0    8/13/02
FF-AR-02-300   Horton Plaza Postal Store              $0          $0             $0      $0    8/13/02
FF-AR-02-321   Santa Margarita Post Office            $0          $0             $0      $0    8/13/02
FF-AR-02-322   Yuba City Business Mail Entry Unit     $0          $0             $0      $0    8/13/02
FF-AR-02-357   Bakersfield Self-Service Postal Center $0          $0             $0      $0    8/15/02
FF-AR-02-319   Graniteville Post Office               $0          $0             $0      $0    8/20/02
FF-AR-02-327   Baton Rouge Downtown Post Office       $0          $0             $0      $0    8/20/02
FF-AR-02-339   Inlet Main Office                      $0          $0             $0      $0    8/20/02
FF-AR-02-341   Lake Post Office                       $0          $0             $0      $0    8/22/02
FF-AR-02-302   Windsor Business Mail Entry Unit       $0          $0             $0      $0    8/26/02
FF-AR-02-329   Paramus Main Post Office               $0          $0             $0      $0    8/26/02
FF-AR-02-346   Margaret L. Sellers Business Mail      $0          $0             $0      $0    8/26/02
               Entry Unit
FF-AR-02-305   Lebanon Business Mail Entry Unit       $0          $0             $0      $0    8/27/02
FF-AR-02-340   Coffeyville Business Mail Entry Unit   $0          $0             $0      $0    8/28/02
FF-AR-02-342   Framingham Business Mail Entry Unit $0             $0             $0      $0    8/29/02
FF-AR-02-354   Maple Grove Business Mail              $0          $0             $0      $0    8/29/02
               Entry Unit
FF-AR-02-343   Crawfordsville Business Mail           $0          $0             $0      $0    8/30/02
               Entry Unit
FF-AR-02-350   St. Leo Post Office                    $0          $0             $0      $0    8/30/02
FF-AR-02-349   Chandler Business Mail Entry Unit      $0          $0             $0      $0     9/4/02

                                                                                                         PAGE 97
                                                                               Un-    Recommend
          Report         Subject Title/                     Questioned   supported   Funds Put to             Issue
          Number         Project Type                            Costs       Costs     Better Use   Other      Date
          FF-AR-02-358   Marble Falls Post Office                  $0          $0             $0      $0     9/4/02
          FF-AR-02-359   Old National Station                      $0          $0             $0      $0     9/4/02
          FF-AR-02-360   West Chester Business Mail                $0          $0             $0      $0     9/4/02
                         Entry Unit
          FF-AR-02-344   Newtown Business Mail Entry Unit          $0          $0             $0      $0     9/5/02
          FF-AR-02-347   Notre Dame Business Mail Entry Unit $0                $0             $0      $0     9/5/02
          FF-AR-02-348   Montrose Business Mail Entry Unit         $0          $0             $0      $0     9/5/02
          FF-AR-02-365   Houston Business Mail Entry Unit          $0          $0             $0      $0     9/5/02
          FF-AR-02-338   Knightstown Business Mail Entry Unit $0               $0             $0      $0     9/6/02
          FF-AR-02-345   Camden New Jersey Business Mail           $0          $0             $0      $0     9/6/02
                         Entry Unit
          FF-AR-02-287   Hyannis Port Post Office                  $0          $0             $0      $0    9/12/02
          FF-AR-02-356   Joshua Self-Service Postal Center         $0          $0             $0      $0    9/12/02
          FF-AR-02-363   Manitowoc Business Mail Entry Unit        $0          $0             $0      $0    9/12/02
          FF-AR-02-372   New Brunswick Business Mail               $0          $0             $0      $0    9/12/02
                         Entry Unit
          FF-AR-02-361   Jonestown Contract Postal Unit            $0          $0             $0      $0    9/13/02
          FF-AR-02-377   Manassas Business Mail Entry Unit         $0          $0             $0      $0    9/13/02
          FF-AR-02-362   East Shore Drugs Contract Postal Unit $0              $0             $0      $0    9/17/02
          FF-AR-02-380   Columbus Business Mail Entry Unit         $0          $0             $0      $0    9/17/02
          FF-AR-02-381   Hartford Business Mail Entry Unit         $0          $0             $0      $0    9/17/02
          FF-AR-02-383   Wheeling Business Mail Entry Unit         $0          $0             $0      $0    9/17/02
          FF-AR-02-371   Indianapolis Self-Service Postal          $0          $0             $0      $0    9/18/02
                         Center #4
          FF-AR-02-392   Las Vegas Business Mail Entry Unit        $0          $0             $0      $0    9/18/02
          FF-AR-02-314   Bigfork Self-Service Postal Center        $0          $0             $0      $0    9/19/02
          FF-AR-02-352   Plano Business Mail Entry Unit            $0          $0             $0      $0    9/19/02
          FF-AR-02-379   Lincoln Business Mail Entry Unit          $0          $0             $0      $0    9/19/02
          FF-AR-02-391   Lancaster Business Mail Entry Unit        $0          $0             $0      $0    9/19/02
          FF-AR-02-395   Waite Park Business Mail Entry Unit       $0          $0             $0      $0    9/19/02
          FF-AR-02-407   Saratoga Business Mail Entry Unit         $0          $0             $0      $0    9/19/02
          FF-AR-02-337   Volcano Post Office                       $0          $0             $0      $0    9/20/02
          FF-AR-02-351   Ontario Business Mail Entry Unit          $0          $0             $0      $0    9/20/02
          FF-AR-02-373   Red Springs Post Office                   $0          $0             $0      $0    9/20/02
          FF-AR-02-402   Reedley Main Post Office                  $0          $0             $0      $0    9/20/02
          FF-AR-02-415   Franklin Park Business Mail               $0          $0             $0      $0    9/23/02
                         Entry Unit
          FF-AR-02-374   Portland Stamp Distribution and           $0          $0             $0      $0    9/24/02
                         District Accounting Office
          FF-AR-02-375   Visalia Business Mail Entry Unit          $0          $0             $0      $0    9/24/02
          FF-AR-02-378   Durham Business Mail Entry Unit           $0          $0             $0      $0    9/24/02
          FF-AR-02-384   Horace Harding Station                    $0          $0             $0      $0    9/24/02
          FF-AR-02-385   Talbott Main Office                       $0          $0             $0      $0    9/24/02
          FF-AR-02-386   Akron Stamp Distribution Office           $0          $0             $0      $0    9/24/02
                         and District Accounting Office
          FF-AR-02-393   Lenoir City Post Office                   $0          $0             $0      $0    9/24/02
          FF-AR-02-396   Central Station                           $0          $0             $0      $0    9/24/02
          FF-AR-02-398   Wilcox Station                            $0          $0             $0      $0    9/24/02
          FF-AR-02-401   Carlinville Business Mail Entry Unit      $0          $0             $0      $0    9/24/02
          FF-AR-02-422   Rocklin Post Office                       $0          $0             $0      $0    9/24/02
          FF-AR-02-423   Akron Main Office                         $0          $0             $0      $0    9/24/02

PAGE 98   APPENDICES
                                                                     Un-    Recommend
Report         Subject Title/                     Questioned   supported   Funds Put to             Issue
Number         Project Type                            Costs       Costs     Better Use   Other      Date
FF-AR-02-389   Fort Payne Post Office                    $0          $0             $0      $0    9/25/02
FF-AR-02-403   Rensselaer Polytechnic Institute          $0          $0             $0      $0    9/25/02
               Contract Postal Unit
FF-AR-02-404   Group 1 Self-Service Postal Center        $0          $0             $0      $0    9/25/02
FF-AR-02-405   Shade Gap Post Office                     $0          $0             $0      $0    9/25/02
FF-AR-02-406   Godley Post Office                        $0          $0             $0      $0    9/25/02
FF-AR-02-413   Miles City Business Mail Entry Unit       $0          $0             $0      $0    9/25/02
FF-AR-02-414   Peachtree City Branch                     $0          $0             $0      $0    9/25/02
FF-AR-02-408   Jamestown Post Office                     $0          $0             $0      $0    9/26/02
FF-AR-02-418   Painesville Self-Service Postal Center $0             $0             $0      $0    9/26/02
FF-AR-02-425   Hershey Business Mail Entry Unit          $0          $0             $0      $0    9/26/02
FF-AR-02-419   Watertown Furniture Barn                  $0          $0             $0      $0    9/27/02
               Contract Postal Unit
FF-AR-02-416   Maryville Main Office                     $0          $0             $0      $0    9/27/02
FF-AR-02-231   Lake Dallas Self-Service Postal Center $0             $0             $0      $0    9/30/02
FF-AR-02-293   Wilton Post Office                        $0          $0             $0      $0    9/30/02
FF-AR-02-313   Helena Self-Service Postal Center         $0          $0             $0      $0    9/30/02
FF-AR-02-370   Eustis Post Office                        $0          $0             $0      $0    9/30/02
FF-AR-02-376   Camden South Carolina Business            $0          $0             $0      $0    9/30/02
               Mail Entry Unit
FF-AR-02-382   Sioux Falls Stamp Distribution Office $0              $0             $0      $0    9/30/02
               and Dakotas District Accounting Office
FF-AR-02-387   Columbia Stamp Distribution Office        $0          $0             $0      $0    9/30/02
               and Greater South Carolina
               District Accounting Office
FF-AR-02-390   Jacksonville Main Post Office             $0          $0             $0      $0    9/30/02
FF-AR-02-394   Virginia Post Office                      $0          $0             $0      $0    9/30/02
FF-AR-02-397   Easton Post Office                        $0          $0             $0      $0    9/30/02
FF-AR-02-399   Lakeview Post Office                      $0          $0             $0      $0    9/30/02
FF-AR-02-410   Grand Rapids Business Mail Entry Unit $0              $0             $0      $0    9/30/02
FF-AR-02-411   Caledonia Post Office                     $0          $0             $0      $0    9/30/02
FF-AR-02-412   Pulaski Business Mail Entry Unit          $0          $0             $0      $0    9/30/02
FF-AR-02-417   Troy Business Mail Entry Unit             $0          $0             $0      $0    9/30/02
FF-AR-02-420   Lancaster Avenue Station                  $0          $0             $0      $0    9/30/02
FF-AR-02-421   Lutz Business Mail Entry Unit             $0          $0             $0      $0    9/30/02
FF-AR-02-424   Coudersport Business Mail Entry Unit $0               $0             $0      $0    9/30/02
FF-AR-02-426   West Sacramento Stamp Distribution $0                 $0             $0      $0    9/30/02
               Office and Sacramento District
               Accounting Office
FF-AR-02-427   Boyd's Pharmacy Station 4                 $0          $0             $0      $0    9/30/02
               Contract Postal Unit
FF-AR-02-428   Fig Garden Contract Postal Unit           $0          $0             $0      $0    9/30/02
FF-AR-02-429   Silver Dollar City Contract               $0          $0             $0      $0    9/30/02
               Postal Unit
FF-AR-02-430   Pease Contract Postal Unit                $0          $0             $0      $0    9/30/02
FF-AR-02-431   Union Post Office                         $0          $0             $0      $0    9/30/02
FF-AR-02-432   St. Paul Self-Service Postal Center       $0          $0             $0      $0    9/30/02
FF-AR-02-434   Albuquerque Stamp Distribution and $0                 $0             $0      $0    9/30/02
               Albuquerque District Accounting Office
FINANCIAL-RELATED
FF-AR-02-220   Audit of Statistical Tests for            $0          $0             $0      $0     5/9/02
               Fiscal Year 2002 Cost and Revenue
               Analysis - South Florida District

                                                                                                            PAGE 99
                                                                               Un-    Recommend
           Report         Subject Title/                   Questioned    supported   Funds Put to             Issue
           Number         Project Type                          Costs        Costs     Better Use   Other      Date
           FF-AR-02-224   Audit of Statistical Tests for Fiscal $0             $0             $0      $0    5/21/02
                          Year 2002 Cost and Revenue Analysis
                          - Southeast New England District
           FF-AR-02-221   Audit of Statistical Tests for Fiscal $0             $0             $0      $0    5/24/02
                          Year 2002 Cost and Revenue Analysis
                          - Mid-Carolinas District
           FF-AR-02-222   Audit of Statistical Tests for Fiscal $0             $0             $0      $0    5/24/02
                          Year 2002 Cost and Revenue Analysis
                          - Greater Michigan District
           FF-AR-02-225   Audit of Statistical Tests for the Fiscal $0         $0             $0      $0    5/24/02
                          Year 2002 Cost and Revenue Analysis
                          - Central Plains District
           FF-AR-02-228   Audit of Statistical Tests for Fiscal $0             $0             $0      $0    5/30/02
                          Year 2002 Cost and Revenue Analysis
                          - Kentuckiana District
           FF-AR-02-232   Audit of Statistical Tests for Fiscal $0             $0             $0      $0     6/3/02
                          Year 2002 Cost and Revenue Analysis
                          - Oklahoma District
           FF-AR-02-243   Audit of Statistical Tests for Fiscal $0             $0             $0      $0    6/14/02
                          Year 2002 Cost and Revenue Analysis
                          - San Jose District
           FF-AR-02-267   Audit of Statistical Tests for Fiscal $0             $0             $0      $0    6/21/02
                          Year 2002 Cost and Revenue Analysis
                          - Los Angeles District
           FF-AR-02-274   Audit of Statistical Tests for Fiscal $0             $0             $0      $0     7/3/02
                          Year 2002 Cost and Revenue Analysis
                          - Springfield District
           FF-AR-02-279   Audit of Statistical Tests for Fiscal $0             $0             $0      $0     7/5/02
                          Year 2002 Cost and Revenue Analysis
                          - Rio Grande District
           FF-AR-02-280   Audit of Statistical Tests for Fiscal $0             $0             $0      $0     7/5/02
                          Year 2002 Cost and Revenue Analysis
                          - Chicago District
           FF-AR-02-281   Audit of Statistical Tests for Fiscal $0             $0             $0      $0     7/5/02
                          Year 2002 Cost and Revenue Analysis
                          - Suncoast District
           FF-AR-02-282   Audit of Statistical Tests for Fiscal $0             $0             $0      $0     7/5/02
                          Year 2002 Cost and Revenue Analysis
                          - Mid-America District
           FF-AR-02-283   Audit of Statistical Tests for Fiscal $0             $0             $0      $0     7/5/02
                          Year 2002 Cost and Revenue Analysis
                          - Harrisburg District
           FF-AR-02-284   Audit of Statistical Tests for Fiscal $0             $0             $0      $0     7/5/02
                          Year 2002 Cost and Revenue Analysis
                          - Northern Illinois District
           FF-AR-02-292   Audit of Statistical Tests for Fiscal $0             $0             $0      $0     7/5/02
                          Year 2002 Cost and Revenue Analysis
                          - Long Beach District
           FF-AR-02-298   Audit of Statistical Tests for Fiscal $0             $0             $0      $0    7/10/02
                          Year 2002 Cost and Revenue Analysis
                          - Akron District
           FF-AR-02-310   Audit of Statistical Tests for Fiscal $0             $0             $0      $0    7/16/02
                          Year 2002 Cost and Revenue Analysis
                          - Salt Lake City District
           FF-AR-02-312   Audit of Statistical Tests for Fiscal $0             $0             $0      $0    7/17/02
                          Year 2002 Cost and Revenue Analysis
                          - Albuquerque District



PAGE 100   APPENDICES
                                                                     Un-    Recommend
Report          Subject Title/                    Questioned   supported   Funds Put to                  Issue
Number          Project Type                           Costs       Costs     Better Use        Other      Date
FF-AR-02-323    Audit of Statistical Tests for Fiscal $0             $0             $0           $0    7/25/02
                Year 2002 Cost and Revenue Analysis
                - Oakland District
FF-AR-02-330    Audit of Statistical Tests for Fiscal $0             $0             $0           $0    7/30/02
                Year 2002 Cost and Revenue Analysis
                - Tennessee District
FF-AR-02-334    Audit of Statistical Tests for Fiscal $0             $0             $0           $0    7/31/02
                Year 2002 Cost and Revenue Analysis
                - Maine District
FF-AR-02-353    Audit of Statistical Tests for Fiscal $0             $0             $0           $0     8/8/02
                Year 2002 Cost and Revenue Analysis
                - Alaska District
FF-AR-02-355    Audit of Statistical Tests for Fiscal $0             $0             $0           $0     8/8/02
                Year 2002 Cost and Revenue Analysis
                - Cleveland District
FF-AR-02-364    Audit of Statistical Tests for Fiscal $0             $0             $0           $0     9/4/02
                Year 2002 Cost and Revenue Analysis
                - Capital District
FF-AR-02-366    Audit of Statistical Tests for Fiscal $0             $0             $0           $0    9/12/02
                Year 2002 Cost and Revenue Analysis
                - Central Florida District
FF-AR-02-367    Audit of Statistical Tests for Fiscal $0             $0             $0           $0    9/12/02
                Year 2002 Cost and Revenue Analysis
                - Northland District
FF-AR-02-368    Audit of Statistical Tests for Fiscal $0             $0             $0           $0    9/12/02
                Year 2002 Cost and Revenue Analysis
                - Western New York District
FF-AR-02-369    Audit of Statistical Tests for Fiscal $0             $0             $0           $0    9/12/02
                Year 2002 Cost and Revenue Analysis
                - Las Vegas District
FF-AR-02-435    Periodicals Publication Reviews at       $0          $0             $0           $0    9/26/02
                Business Mail Entry Units
FT-AR-02-012    Relocation Compilation Report            $0          $0             $0           $0    5/31/02
FT-AR-02-013    Segregation of Duties Over               $0          $0             $0           $0    9/12/02
                Contract Lease Payment Schedules
FT-AR-02-014    System Security Issues at                $0          $0             $0           $0    9/24/02
                Two Airmail Centers
FT-AR-02-015    Payments to a Utility Company            $0          $0    $2,567,497            $0    9/26/02
FT-AR-02-016    Advanced Annual Leave                    $0          $0             $0           $0    9/26/02
FT-AR-02-017    Effectiveness of the Postal Service's    $0          $0      $677,395            $0    9/27/02
                Asset Locator Program
CONTRACTING AND FACILITIES
CA-AR-02-003    Costs Associated with Two                $0          $0             $0     $645,257    9/23/02
                Decontamination Sites
CA-AR-02-004    Undefinitized Contract Actions           $0          $0             $0           $0    9/30/02
CA-AR-02-005    Use of Noncompetitive Contracting $0                 $0             $0    $7,350,464   9/30/02
                Process for Tabbing Systems Purchases
CA-AR-02-006    Costs of Capital Construction            $0          $0             $0     $306,110    9/30/02
                Projects at a Training Center
CA-CAR-02-036   Evaluation of Accounting System          $0          $0             $0           $0    4/18/02
CA-CAR-02-037   Evaluation of Final Vouchers             $0          $0             $0           $0    4/26/02
CA-CAR-02-038   Evaluation of Proposal                   $0          $0             $0           $0     5/9/02
CA-CAR-02-039   Evaluation of Proposal                   $0          $0             $0           $0     5/9/02
CA-CAR-02-040   Accounting System Survey                 $0          $0             $0           $0     5/9/02
CA-CAR-02-041   Evaluation of Incurred Costs         $96,324    $20,202             $0           $0     5/9/02
CA-CAR-02-042   Evaluation of Proposal           $1,689,663          $0             $0           $0     5/9/02

                                                                                                                 PAGE 101
                                                                                   Un-    Recommend
           Report          Subject Title/                    Questioned      supported   Funds Put to                  Issue
           Number          Project Type                           Costs          Costs     Better Use        Other      Date
           CA-CAR-02-043   Evaluation of Termination for $38,406,029               $0             $0           $0    5/20/02
                           Convenience Proposal
           CA-CAR-02-044   Evaluation of Termination for            $0             $0             $0           $0    6/28/02
                           Convenience Proposal
           CA-CAR-02-045   Evaluation of Equitable          $1,053,263       $134,340             $0           $0    6/28/02
                           Adjustment Claim
           CA-CAR-02-046   Evaluation of Proposal                   $0             $0             $0           $0     7/3/02
           CA-CAR-02-047   Evaluation of Incurred Costs             $0             $0             $0           $0    7/10/02
           CA-CAR-02-048   Evaluation of Information                $0             $0             $0           $0    7/10/02
                           Technology System Controls
           CA-CAR-02-049   Evaluation of Equitable                  $0             $0             $0           $0    7/24/02
                           Adjustment Claim
           CA-CAR-02-050   Evaluation of Proposal         $117,828,789 $117,250,842               $0           $0     9/6/02
           CA-CAR-02-051   Evaluation of Equitable           $620,681        $187,271             $0           $0    9/13/02
                           Price Adjustment Claims
           CA-CAR-02-052   Evaluation of Accounting                 $0             $0             $0           $0    9/13/02
                           System Controls
           CA-CAR-02-053   Evaluation of Billing System             $0             $0             $0           $0    9/13/02
           CA-CAR-02-054   Evaluation of Proposal                   $0             $0             $0           $0    9/13/02
           CA-CAR-02-055   Evaluation of Research and               $0             $0             $0           $0    9/18/02
                           Development Allocation Rate
           CA-VR-02-001    Noncompetitive Purchases of              $0             $0             $0           $0    9/30/02
                           Tabbing Systems Video Report
           FINANCIAL MANAGEMENT TOTALS                   $159,752,997                    $3,244,892
                                                                         $117,650,903                   $8,301,831


           TECHNOLOGY
           INFORMATION SYSTEMS
           IS-AR-02-007    Network General Controls                 $0             $0             $0           $0     4/3/02
           IS-AR-02-008    Server Security Testing                  $0             $0             $0           $0     5/1/02
           IS-AR-02-009    Server Security Testing                  $0             $0             $0           $0    7/29/02
           IS-AR-02-010    Server Security Testing                  $0             $0             $0           $0    8/27/02
           IS-AR-02-011    Security Testing of Switches             $0             $0             $0           $0    8/27/02
           IS-AR-02-012    Server Security Testing                  $0             $0             $0           $0     9/3/02
           IS-AR-02-014    Database Controls                        $0             $0             $0           $0     9/4/02
           IS-AR-02-013    Server Security Testing                  $0             $0             $0           $0     9/5/02
           IS-AR-02-015    Fiscal Year 2002 Information             $0             $0             $0           $0    9/27/02
                           System Controls
           IS-AR-02-016    General and Electronic Controls          $0             $0             $0           $0    9/30/02
           IS-AR-02-017    General Controls                         $0             $0             $0           $0    9/30/02
           DEVELOPMENTAL
           DA-AR-02-005    Surface Air Management System            $0             $0             $0           $0    4/19/02
           DA-AR-02-006    Postal Automated Redirection             $0             $0             $0           $0     5/9/02
                           System, Phase 1
           DA-AR-02-007    Confirm                                  $0             $0             $0           $0    9/10/02
           DA-AR-02-008    Postal Service Efforts to Implement $0                  $0             $0           $0     9/4/02
                           Prevention and Detection Technology
           DA-AR-02-009    Human Transporter                        $0             $0             $0           $0    9/12/02
           DA-AR-02-010    Automated Seamless               $2,970,477             $0             $0           $0    9/18/02
                           Dispatch Program
           DA-MA-02-001    Biohazard Detection System               $0             $0             $0           $0    9/24/02
           DA-MA-02-002    Biohazard Filtration System              $0             $0             $0           $0    9/24/02


PAGE 102   APPENDICES
                                                                          Un-      Recommend
Report            Subject Title/                  Questioned        supported     Funds Put to                 Issue
Number            Project Type                         Costs            Costs       Better Use        Other     Date
 ELECTRONIC COMMERCE
EM-AR-02-010      Mail Recovery Center Auctions            $0              $0              $0            $0    4/8/02
EM-AR-02-012      Review of eBusiness Agreements           $0              $0              $0            $0    7/9/02
EM-MA-02-002      Retail Data Mart System Surveys          $0              $0              $0            $0    9/3/02
EM-AR-02-013      Integrated Data System Update            $0              $0              $0            $0   9/27/02
EM-AR-02-014      Team Enterprise Initiative               $0              $0              $0            $0   9/30/02
TECHNOLOGY TOTALS                               $ 2,970,477               $ 0             $ 0          $ 0


LABOR MANAGEMENT
                                                                           Un-     Recommend
Report         Subject Title/                       Questioned       supported    Funds Put to                  Issue
Number         Project Type                              Costs           Costs      Better Use        Other      Date
 HUMAN RESOURCE PROCESSES
LH-AR-02-003      Southwest Area's Efforts in              $0              $0        $835,000            $0    5/8/02
                  Obtaining Appropriate Chargeback
                  Credits for Identified Wage
                  Compensation Overpayments and
                  Refundable Disbursements
AC-AR-02-005      Reasonableness and Distribution          $0              $0              $0            $0   8/14/02
                  of Pay for Performance Program
                  Incentive Awards
AC-AR-02-006      Performance Measures Used in the         $0              $0              $0            $0   8/14/02
                  Pay for Performance Program
LH-AR-02-004      Postal Service's Corporate Succession $0                 $0              $0            $0    9/3/02
                  Planning Process
LH-AR-02-005      Associate Supervisor Program in          $0              $0              $0            $0   9/30/02
                  the Great Lakes Area
LABOR MANAGEMENT TOTALS                                  $ 0              $ 0     $ 835,000            $ 0


OVERSIGHT
OV-AR-02-003(R)   Postal Inspection Service Health         $0              $0              $0            $0   7/30/02
                  Examination Program
OV-MA-02-001      Postal Service Security of the Mail      $0              $0              $0            $0   8/13/02
                  During Anthrax Decontamination
                  and Irradiation Efforts

OTHER SIGNIFICANT REVIEWS
IG-TR-02-001      Subcommittee on Government               $0              $0              $0            $0    5/9/02
                  Efficiency, Financial Management
                  and Intergovernmental Relations
                  Testimony
IG-TR-02-002      Subcommittee on International            $0              $0              $0            $0   9/27/02
                  Security, Proliferation and
                  Federal Services Testimony
OIG TOTALS                                     $162,723,474                      $25,539,679
                                                                 $117,650,903                    $8,301,831




                                                                                                                        PAGE 103
           APPENDIX B

           Findings of Questioned Costs
           For the period April 1, 2002, through September 30, 2002
           OFFICE OF INSPECTOR GENERAL AND INSPECTION SERVICE
                                                                                                                  Unsupported
                                                                                                                         Costs
                                                                                                        Total       Included In
                                                                                  Number of       Questioned       Questioned
           Description                                                              Reports            Costs             Costs
           Reports for which no management decision was made at                         29     $105,269,833       $8,434,315
           the beginning of the reporting period
           Reports requiring management decision that were issued                        8     $162,723,474     $117,650,903
           during the reporting period

           TOTALS                                                                       37    $267,993,307      $126,085,218

           Reports for which a management decision was made                              7      $48,375,313       $6,203,560
           during the reporting period (i+ii)
           (i) Dollar Value of disallowed cost                                                  $29,686,117       $1,238,231
           (ii) Dollar value of cost not disallowed                                             $18,689,196       $4,965,329

           Reports for which no management decision was made by the                     30     $219,617,994     $119,881,658
           end of the reporting period. Negotiations are ongoing.

           Reports for which no management decision was made within                      7      $32,866,643         $304,407
           six months of issuance (See Note 1 for a list of individual reports)

           Reports for which no management decision was made within                     15      $24,027,877       $1,926,348
           one year of issuance (See Note 2 for a list of individual reports)


           Note 1 – Reports for which no management decision was made within six months of issuance:
                                                                                                                  Unsupported
                                                                                                                         Costs
                                                                                                      Total         Included In
                         Report/                                                                Questioned         Questioned
           Report Date   Case Number                Project Type                                     Costs               Costs
           10/12/01      CA-CAR-02-004              Contract Audit                            $17,359,760
           10/3/01       CA-CAR-02-006              Contract Audit                                405,052
           10/10/01      CA-CAR-02-005              Contract Audit                             11,314,673
           12/26/01      CA-CAR-02-031              Contract Audit                                305,480           $304,407
           2/28/22       CA-CAR-02-026              Contract Audit                                491,590
           3/3/02        CA-CAR-02-027              Contract Audit                              2,217,874
           3/4/02        CA-CAR-02-032              Contract Audit                                772,214

           OIG TOTAL                                                                          $32,866,643          $304,407




PAGE 104    APPENDICES
Note 2 – Reports for which no management decision was made within one year of issuance:

                                                                                          Unsupported
                                                                                                 Costs
                                                                                  Total     Included In
              Report/                                                       Questioned     Questioned
Report Date   Case Number         Project Type                                   Costs           Costs
2/29/00       TR-AR-00-005        Southwest Area Expenditures for Extra      $848,000               $0
                                  Highway Trips Using Leased Equipment
5/17/00       CA-AR-00-001        United States Postal Service Warranty       977,598                0
                                  Repair of Tractors
8/25/00       CA-CAR-00-047       Contract Audit                              917,345                0
2/27/01       CA-AR-01-001        Contracting Practices for the            12,500,000                0
                                  Procurement of
                                  Mail Transport Equipment Services
4/19/01       CA-CAR-01-038       Contract Audit                               17,554         17,554
6/7/01        CA-CAR-01-046       Contract Audit                                2,505              0
7/17/01       CA-AR-01-003        Price Adjustment                              5,891              0
7/18/01       CA-CAR-01-057       Contract Audit                              136,651              0
7/19/01       CA-CAR-01-059       Contract Audit                              198,450        198,450
7/27/01       CA-CAR-01-060       Contract Audit                               46,931              0
9/14/01       CA-CAR-01-066       Contract Audit                                1,131              0
9/14/01       CA-CAR-01-068       Contract Audit                              222,509         34,467

OIG TOTALS                                                                $15,874,565      $250,471

                                                                                          Unsupported
                                                                                                 Costs
                                                                                  Total     Included In
              Report/                                                       Questioned     Questioned
Report Date   Case Number         Project Type                                   Costs           Costs
11/17/99      181-1294644-AC(1)   Contract Audit                           $7,063,747     $1,675,877
4/3/00        184-1126310-AC(1)   Contract Audit                              514,696              0
8/30/00       184-1210121-AC(1)   Contract Audit                              574,869              0

INSPECTION SERVICE TOTALS                                                  $8,153,312     $1,675,877


TOTAL                                                                 $ 24,027,877        $1,926,348




                                                                                                          PAGE 105
           APPENDIX C

           Recommendations That Funds
           Be Put to Better Use
           For the period April 1, 2002, through September 30, 2002
           OFFICE OF INSPECTOR GENERAL AND INSPECTION SERVICE
                                                                                         Number of
           Description                                                                     Reports       Dollar Value
           Reports for which no management decision was
           made at the beginning of the reporting period                                        8     $130,891,029
           Reports requiring management decision that were
           issued during the reporting period                                                   6      $25,539,679

           TOTALS                                                                              14     $156,430,708

           Reports for which a management decision was made during the report period*           11     $28,309,708
           (i) Value of recommendations agreed to by management                                        $10,211,539
           (ii) Value of recommendations that were not agreed to by management                         $18,098,169
           Reports for which no management decision was made by the end of the reporting period 3     $128,121,000
           Reports for which no management decision was made within six months of issuance
           (See Note 1 for a list of individual reports)                                         1     $82,349,739
           Reports for which no management decision was made within one year of issuance
           (See Note 2 for a list of individual reports)                                         2     $44,375,430


           Note 1 – Reports for which no management decision was made within six months of issuance:
                                                                                                         Recommend
           Report        Report/                                                                        Funds Put to
           Date          Case Number        Project Type                                                  Better Use
           3/29/02       TD-AR-02-002       Trailer Lease Justification                                $82,349,739

           TOTAL                                                                                       $82,349,739


           Note 2 – Reports for which no management decision was made within one year of issuance:

                                                                                                         Recommend
           Report        Report/                                                                        Funds Put to
           Date          Case Number               Project Type                                           Better Use
           9/29/00       MK-AR-00-001              Review of Stamp Fulfillment Services Performance    $ 28,457,395
           7/27/01       TR-AR-01-004              Bulk Fuel Purchase Plan                               15,918,035

           TOTAL                                                                                       $44,375,430



           *The reported amounts include $1,947,229 in “value of recommendations agreed to by manage-
           ment” and $169,324 in “value of recommendations not agreed to by management” that were based
           on allocation percentages. Since documentation for four audits were not available, the Office of
           Inspector General and the Postal Service agreed to allocate results based on historical experience
           from October 1, 1998 to March 30, 2002.




PAGE 106    APPENDICES
APPENDIX D

Reports with Significant
Recommendations Pending Corrective
Actions
For the period April 1, 2002, through September 30, 2002
This appendix lists reports containing significant recommendations pending final action by man-
agement. On October 1, 2000, the OIG assumed complete responsibility for tracking corrective
actions for all significant recommendations. As a result, the OIG performed an extensive analysis
to identify reports with significant recommendations requiring confirmation that appropriate cor-
rective actions have been taken. This appendix identifies those reports. The OIG is working
with Postal Service management to validate whether appropriate corrective actions have been
taken, and if so, remove them from this appendix.

OFFICE OF INSPECTOR GENERAL
Report             Report                                                      Number of            Issue
Number             Title                                                       Recommendations       Date
LM-MA-99-002       Effectiveness of USPS Grievance Arbitration Procedures          2              3/26/99
LR-MA-99-001       Grievance Arbitration Management Information                    2              3/26/99
OV-MA-99-001       Review of USPS Personnel Security Program -
                   Process for Updating Sensitive Clearances                       1              3/31/99
DA-AR-99-002       Point of Service ONE                                            1              9/20/99
TR-AR-99-003       Emergency and Extra Trip Expenditures on Highway Routes         6              9/29/99
CA-AR-99-002       Removal of Underground Storage Tanks                            1              9/30/99
CA-AR-99-003       Responsibilities of Contracting Officers’ Representatives       2              9/30/99
RP-MA-00-001       Indefinite Quantity Contracts                                   1              11/8/99
FR-MA-00-001       Budget Cost Containment Measures                                1             12/22/99
TR-AR-00-005       Southwest Area Expenditures for Extra Highway Trips             3              2/29/00
                   Using Leased Equipment
DS-AR-00-001       External First-Class Mail Measurement System                    1              3/27/00
TR-AR-00-006       Commercial Air Carrier Performance:                             2              3/27/00
                   Payment for Ground Handling Services
CA-MA-00-001       Contract Audit Practices                                        6              3/31/00
DA-AR-00-002       Tray Management System                                          5              3/31/00
TR-AR-00-008       Extra Trip Expenditures at the Dallas Bulk Mail Center          1              6/30/00
TR-AR-00-009       Extra Trips Expenditures within the Mid-Atlantic Area           2              7/27/00
AC-AR-00-004       Use of Robotic Tray Handling System                             2              9/29/00
DA-AR-00-006       Point of Service ONE Phase II                                   2              9/29/00
MK-AR-00-001       Review of Stamp Fulfillment Services Performance Measures       1              9/29/00
OV-AR-00-005       Review of the United States Postal Inspection Service           2              9/29/00
                   Budget Process
TR-AR-00-011       Dedicated Christmas Air Network - Phase 1                       3              9/29/00
MK-AR-00-002(R)    Management Controls over the                                    3             10/31/00
                   Sales Force Augmentation Program - Revised
TR-AR-01-001       Adequacy of Mail Transport Equipment Service Center             4             10/31/00
                   Network Internal Controls
DA-AR-01-004       Postal One! Business Customer Support Systems Phase One         5               4/9/01
IS-AR-01-001       Network Security                                                5              4/18/01
CA-AR-01-002       Responsibilities of Contracting Officers’ Representatives       9              4/30/01
OV-AR-01-002       Inspection Service Support to Postal Service Threat             2              4/30/01
                   Assessment Teams
LC-AR-01-007       Alleged Nepotism in the Arkansas District                       4               6/4/01
LB-AR-01-019       Management Practices in the Alaska District                     2               6/7/01
TR-LA-01-001       Review of a Transportation Agreement                            2              6/26/01

                                                                                                            PAGE 107
           Report            Report                                                    Number of             Issue
           Number            Title                                                     Recommendations        Date
           TR-AR-01-004      Bulk Fuel Purchase Plan                                        5             7/27/01
           TR-MA-01-002      Excise Taxes and Third Party Ground Handling Costs under a     1              8/8/01
                             Transportation Agreement
           IS-AR-01-003      Review of Security Access Controls                             7             8/29/01
           CA-AR-01-005      Supplier Diversity Program for Supplies, Services, and         8              9/6/01
                             Equipment Purchases
           DA-AR-01-005      Decision Analysis Report Process                               1             9/27/01
           DA-AR-01-006      Singulate, Scan, Induction Unit                                5             9/27/01
           TR-MA-01-003      Security Risks Associated with a Transportation Agreement      1             9/27/01
           OV-AR-01-004      Postal Inspection Service Fraud Against Government Program     1             9/28/01
           TR-AR-01-006      Manual Payments on Rail Transportation Contracts               1             9/28/01
           FT-AR-02-001      Shared Real Estate Appreciation Loan Program                   5            10/17/01
           EM-AR-02-001      Protection of Internet Users' Information -                    3            10/18/01
                             PostmarkAmerica.com Technical Issues
           IS-AR-02-001      Fiscal Year 2001 Information System Controls                   3             11/8/01
           IS-AR-02-002      Network Security Vulnerabilities                               3            12/19/01
           CQ-MA-02-001      Review of Letter Contract                                      1            12/28/01
           IS-CS-02-002      Security Testing of Switches                                   2             1/11/02
           IS-AR-02-003      Review of the Facilities Management System for Windows         4             2/22/02
           EM-AR-02-002      Postal Retail Store Operations                                 2             2/28/02
           LH-MA-02-003      Review of Decontamination Activities at the Pentagon Station   2             3/12/02
           AC-AR-02-002      Certified Mail Processing Operations                           3             3/21/02
           IS-AR-02-005      Security Testing of Routers and Switches                       1             3/22/02
           DA-AR-02-004      Postal Service Test, Evaluation, and Quality                   3             3/27/02
           TD-AR-02-002      Trailer Lease Justification                                    2             3/29/02
           EM-AR-02-007      The Role of Marketing in the Postal Service                    3             3/29/02
           EM-AR-02-008      PostmarkAmerica.com Financial and Management Issues            4             3/29/02
           EM-AR-02-009      Public-Key Infrastructure Initiatives by the Postal Service    2             3/29/02
           CQ-MA-02-002      Review of Contracts Associated with Biohazard Threat           1             3/29/02
           IS-AR-02-007      Network General Controls                                       2              4/3/02
           EM-AR-02-010      Mail Recovery Center Auction through an                        3              4/8/02
                             Online Auction Company
           DA-AR-02-005      Surface-Air Management System                                  1             4/19/02
           LH-AR-02-003      Southwest Area's Efforts in Obtaining Appropriate              5              5/8/02
                             Chargeback Credits for Identified Wage Compensation
                             Overpayment and Refundable Disbursements
           FT-AR-02-012      Relocation Compilation Report                                  3             5/31/02
           OV-AR-02-003(R)   Postal Inspection Service Health Examination Program           3             7/30/02
           EM-AR-02-012      Review of eBusiness Agreements                                 7              7/9/02
           TD-MA-02-003      New York Metro Area Trailer Acquisition Requirements           2             7/10/02
           TD-MA-02-005      Delayed Letter Carrier Operations in the Capital Metro Area    2             8/29/02
           LH-AR-02-004      Postal Service's Corporate Succession Planning Process         7              9/3/02
           DA-AR-02-008      Postal Service's Efforts to Implement Prevention and           1              9/4/02
                             Detection Technology
           DA-AR-02-007      Confirm                                                        2             9/10/02
           DA-AR-02-010      Automated Seamless Dispatch Program                            5             9/18/02
           DA-MA-02-001      Biohazard Detection System                                     6             9/24/02
           DA-MA-02-002      Biohazard Filtration System                                    3             9/24/02
           TD-AR-02-003      Highway Network Scheduling - Pacific Area                      3             9/24/02
           CQ-AR-02-001      Work Performed by Business Mail Entry Employees in the         2             9/26/02
                             Colorado Wyoming Performance Cluster
           FT-AR-02-015      Payments to a Utility Company                                  1             9/26/02
           FT-AR-02-016      Advanced Annual Leave                                          1             9/26/02
           TD-AR-02-004      Voyager Card Control Weaknesses - Chicago                      2             9/26/02
           CA-AR-02-004      Undefinitized Contract Actions                                 2             9/30/02
           FT-AR-02-017      Effectiveness of the Postal Service's Asset Locator Program    3             9/27/02

PAGE 108   APPENDICES
Report               Report                                                        Number of             Issue
Number               Title                                                         Recommendations        Date
IS-AR-02-015         Fiscal Year 2002 Information System Controls                      2              9/27/02
AC-MA-02-002         Review of Nonprofit Standard Mail                                 2              9/30/02
CA-AR-02-005         Use of Noncompetitive Contracting Process for                     5              9/30/02
                     Tabbing Systems Purchases
CA-AR-02-006         Costs of Capital Construction Projects at a Training Center       1              9/30/02
LH-AR-02-005         Associate Supervisor Program in the Great Lakes Area              6              9/30/02
TD-AR-02-005         Delivery Vehicle Gasoline                                         4              9/30/02

INSPECTION SERVICE
Report               Report                                                        Number of            Issue
Number               Title                                                         Recommendations       Date
0061-1263973-RI(1) Meter Security Review, Pitney Bowes, Inc.,                          1              5/21/99
                   Lanham, Maryland
0188-1300042-AF(2) Financial Audit, Stamp Distribution Office,                         1              8/24/00
                   Seattle District, Seattle, Washington
0061-1305144-RI(1) Meter Security Review, Ascom Hasler Mailing                         2              3/16/00
                   Systems, Inc., Houston, Texas
0038-1292495-PA(2) Delivery Automation                                                 1               2/8/00
0044-1248530-PA(2) Small Post Office Cost Study                                        2               8/1/00
0022-1244541-PA(1) Priority Mail                                                       1              3/17/99
0052-1290664-PA(3) City Carrier and Flat Sorting Machine (FSM)                         2              10/5/99
                   Operations Cost Savings, San Antonio, Texas
0061-1296645-RI(1) Meter Security Review, Postage Technology                           6               7/5/00
                   Management, Lisle, Illinois
0016-1298651-AF(2) Financial Audit, Westchester District Accounting Unit,              1             11/23/99
                   White Plains, New York
0016-1298678-AF(2) Financial Audit, San Francisco District Accounting Office,          2              8/29/00
                   San Francisco, California


CONTRACT AUDITS
Report Number                       Contractor                          Report Date
0184-1126310-AC(1)                  Contract Audit                          4/3/00
0184-1210121-AC(1)                  Contract Audit                         8/30/00




                                                                                                                 PAGE 109
           APPENDIX E

           Investigative Statistics1
           For the period April 1, 2002, through September 30, 2002
           OFFICE OF INSPECTOR GENERAL
           Statistics
           Arrests                                                                    14
           Information2/Indictments                                                   27
           Convictions3/Pretrial Diversions                                           12
           Suspension/Debarments
               Individuals                                                            10
               Firms                                                                  10
           Administrative Actions
               Postal Service Employee                                                6
               Contractor                                                             0
           Fines, Restitution, and Recoveries                               $18,939,1584
           Cost Avoidance, Savings and Funds Put To Better Use              $21,175,813

           INSPECTION SERVICE5
           Statistics
           Arrests                                                                   200
           Convictions3                                                              161
           Administrative Actions
               Postal Service Employee                                               345
               Contractor                                                             33
           Fines, Restitution, and Recoveries                               $108,188,973
           Collections                                                           $47,100
           Civil Actions                                                               7




           1
               Statistics include joint investigations with other federal law enforcement agencies.
           2
               Some of these occurred in the prior semiannual reporting period, however, they were not reported
               until the current reporting period.
           3
               Convictions reported in this time frame may be related to arrests made in prior reporting periods.
           4
               The total amount includes $17,826,541 in restitution from a joint OIG and Inspection Service
               investigation
           5
               Statistics for investigations related to fraud, waste, abuse, and mismanagement of Postal Service
               operations.
PAGE 110    APPENDICES
APPENDIX F

Summary of Postal Service Investigative
Activities Under 39 USC § 3013
For the period April 1, 2002, through September 30, 2002

The Postal Reorganization Act requires the Postmaster General to furnish information on the
investigative activities of the Postal Service on a semiannual basis. With passage of the
Deceptive Mail Prevention and Enforcement Act in December 1999, the Postal Service's report-
ing obligations were changed.
The Act requires the Postal Service to submit its semiannual report to the OIG rather than to
the Board of Governors, expands the subject matter that must be reported, and revises the report-
ing schedule to coordinate with the OIG Semiannual Report to Congress. The information in
the report includes actions directed at combating crimes involving the mail; costs and expendi-
tures devoted to Postal Service investigative activities; use of subpoena power; and any additional
information the OIG may require.

ABUSE OF MAILS
The Postal Service reports to the Office of Inspector General information related to investigative
activities designed to protect the public against unscrupulous mailers perpetrating fraudulent
schemes. The following information summarizes the administrative and judicial actions initiated
and resolved during the reporting period. These actions include the issuance of cease and desist
orders directed to mailers, actions to intercept payments fraudulently induced, and orders seeking
to intercept fraudulent mailings.

INSPECTION SERVICE
                                                                    False            Cease &
Type of                              Complaints     Consent         Representation   Desist
Scheme                               Filed          Agreements      Orders           Orders
Advance fee                           1               1               1                1
Boiler rooms/Telemarketing            2               5                                5
Contest/Sweepstakes                   2               1                                1
Employment                            1               1                                1
False billings                        6               4               1                5
Fraud - Internet Schemes              3               3                                3
Lotteries (foreign and domestic)     39                              39
Merchandise:
   Failure to pay                      2              2                                2
   Misrepresentation                                  1                                1
Miscellaneous                          2              2               1                2
Work at home                           3              4                                4
TOTAL                                61              24              42              25




                                                                                                      PAGE 111
           ADMINISTRATIVE ACTIONS
           Administrative Action requests                               62
           Temporary Restraining Order requests                          1
           Temporary Restraining Orders issued                           1
           Civil Injunction (1345) requests                              1
           Civil Injunctions (1345) issued                               1
           Cases using Direct Purchase Authority                         0
           Refusals of Direct Purchase Authority                         0
           Civil penalties (Section 3012) imposed                        1
           Expenditures incurred for:
             Test Purchases                                              0
             Expert Testimony                                            0
             Witness Travel                                              0
           Withholding Mail Orders issued                              109
           Voluntary Discontinuances                                    82


           POSTAL SERVICE ADMINISTRATIVE SUBPOENA AUTHORITY
           The Postal Service reports to the Office of Inspector General information on the number of cases
           in which the Postal Service issued administrative subpoenas in connection with deceptive mail-
           ing. The following section identifies the number and nature of cases in which the Postal Service
           exercised this authority to request relevant business and associated records.
           Case Number           Date Requested      Scheme
           USPS-02-006           05/01/02            Misrepresentation
           USPS-02-008           05/01/02            Misrepresentation
           USPS-02-009           05/03/02            Charity
           USPS-02-010           05/03/02            Charity
           USPS-02-011           07/02/02            Work at Home
           USPS-02-012           08/18/02            Identity Takeover
           USPS-02-013           08/19/02            Identity Takeover


           FINANCIAL REPORTING ON INVESTIGATIVE ACTIVITIES
           The Postal Service reports to the Office of Inspector General information related to the amount
           of financial expenditures and obligations incurred pursuing the investigative activities of the
           Postal Service. Information related to these activities is summarized below.
           Type                                   Semi Annual Report
           Personnel                                 $141,163,133
           Nonpersonnel                               $36,508,180
           Total Expenditures                        $177,671,313
           Capital Obligations                         $6,234,883




PAGE 112   APPENDICES
OTHER INVESTIGATIVE ACTIVITIES
The Postal Service also reports to the Office of Inspector General additional information
related to significant investigative activities and other investigative matters. This section
outlines a number of significant investigative activities the Postal Service has initiated and is
pursuing, to include the Mail Task Forces and the Deceptive Mail Enforcement Team.
Inspection Service and Office of Inspector General criminal statistical information is
summarized in Appendix E

MAIL SECURITY TASK FORCE
The Postmaster General established the Mail Security Task Force in October 2001, and appoint-
ed the Chief Postal Inspector to lead the team. The task force is committed to reducing the risks
to the safety and security of postal employees and customers. The Steering Committee, compris-
ing Postal Inspectors, senior level postal executives, and presidents of the labor unions and man-
agement associations, meets on a regular basis. Seven working groups are contained within the
task force including Mail Center Security, Contingency Planning System-Wide, Mail
Preparation, Mail Screening, Communicating/Messaging, Safety and Security in the Workplace
Environment, and Mail Transportation Security. All of the working groups have presented find-
ings to the Steering Committee, which is in the process if issuing an interim status report.

INTERNATIONAL SECURTIY GROUPS
The Inspection Service is an active participant in two international groups focused on security.
The International Security Group targets initiatives to improve the safety, security, and reliability
of international mail products for the U.S. Postal Service. The group also develops strategies and
initiatives to improve quality of service and security of mail for the 189 member countries of the
Universal Postal Union. The Postal Security Action Group of the Universal Postal Union focus-
es on problems and issues affecting the safety, security, and integrity on international communica-
tions products. This group is chaired by the Chief Postal Inspector.

DECEPTIVE MAIL PREVENTION
The Deceptive Mail Prevention and Enforcement Act, which became effective April 12, 2000, sub-
jects violators to civil penalties in addition to Cease and Desist Orders and False Representation
Orders. To support this new law, the Postal Inspection Service created the Deceptive Mail
Enforcement Team to identify violators and ensure swift, appropriate, investigative attention.
Questionable promotions identified by team, as well as those received as consumer complaints, are
examined for compliance. During the reporting period 371 promotions were reviewed for possible
violations, and 69 have been referred for preliminary investigative attention.

INTERNET FRAUD PREVENTION
The Internet is teeming with schemes, and swindlers have learned how easy it is to exploit innocent
victims. Fraud on the Internet often results in mail fraud, as cyber scammers use the mail to receive
payments or ship items. As a result of the growing trend among fraudsters to use the Internet, the
Postal Inspection Service participates in a multi-federal project known as the Internet Fraud
Complaint Center, which was established by the Federal Bureau of Investigation and National White
Collar Crime Center. The project is aimed at stemming Internet fraud by gathering, analyzing, and
referring Internet complaints. The Internet Fraud Complaint Center offers a central repository for
complaints related to Internet fraud.




                                                                                                        PAGE 113
           DEFINITIONS OF SCHEME
           Advance fee. Obtaining fees purporting to secure buyers or obtain loans.
           Boiler room/Telemarketing. An office or suite of offices with banks of telephones and telephone
           solicitors who use high-pressure techniques to persuade consumers to respond to bogus offers.
           Contest/Sweepstakes. Schemes in which the respondent is required to pay a fee to obtain prizes
           of money, gifts or other items of value. "Prizes" are either never shipped or are inferior to what
           was promised.
           Employment. Soliciting money for information or assistance in obtaining nonexistent or misrep-
           resented jobs.
           False billings. Mailing solicitations in the guise of billings.
           Fraud - Internet Schemes. Fraudulent schemes using the Internet with a nexus to the mail.
           Lotteries. Advertisements seeking money or property by mail for participation in schemes to win
           prizes through chance.
           Merchandise failure to pay. Mail order merchandise that is acquired without providing payment.
           Merchandise misrepresentation. Mail order merchandise or services are materially misrepresent-
           ed in advertising.
           Miscellaneous. Any other scheme not described in a specific category.
           Work at home. Schemes, such as envelope stuffing, that do not provide home employment.




PAGE 114   APPENDICES
APPENDIX G

Closed Congressional and Board of
Governors Inquiries
For the period April 1, 2002, through September 30, 2002
This appendix lists the 57 Congressional and Governors inquiries the OIG closed during this
reporting period. The OIG reviewed these inquiries to help identify systemic issues and to
determine the need for future Postal-wide audits.


CONGRESSIONAL
PERFORMANCE
Requestor                   Allegations/Concern                                                   Response Date
Representative, Maryland    Allegation of mail tampering                                            15-Apr-02
Representatives, Texas      Allegation of mismanagement and waste                                   29-Apr-02
Representative, Indiana     Allegation of waste and facility mismanagement                         24-May-02
Representative, Alabama     Allegation of delayed delivery                                          17-Jun-02
Representative, New York Allegation of mail delivery problems                                        16-Jul-02
Senator, California         Allegation of mail tampering by landlord                                 19-Jul-02
Representative, New York Allegation of improper revenue deficiency assessment                      13-May-02
Senator, New York           Allegation of mail delivery problems                                    26-July-02
Senator, Texas              Allegation that pre-sorted discount bulk mail is being                   26-Jul-02
                            improperly reprocessed
Representative,             Allegation of difficulties with mail delivery                          01-Aug-02
New Jersey
Senator, Connecticut        Allegation of mismanagement which has resulted in mail delays           03-Sep-02
Senator, Florida            Allegation of mail tampering                                           08-Aug-02

FINANCIAL MANAGEMENT
Requestor                   Allegations/Concern                                                   Response Date
Representatives, Oregon,    Concerns regarding overnight and priority mail agreement                04-Apr-02
Ohio, Michigan, Kansas,
and New Jersey
Senator, California         Improper claim processing and investigation                             15-Apr-02
Representative, New Jersey Request for review of proposed rate increase                             05-Jun-02
Representative, New York Allegation of mismanagement and contracting improprieties                  27-Jun-02
Representative, Indiana     Request for review of procurement                                        19-Jul-02

LABOR MANAGEMENT
Requestor                   Allegations/Concern                                                   Response Date
Representative,             Allegation of supervisory assault                                       15-Apr-02
Massachusetts
Senator, Maine              Allegation of harassment                                                19-Apr-02
Representative,             Allegation that supervisor manufactured documents to support dismal     19-Apr-02
Pennsylvania
Senator, California         Allegation of unsafe working conditions                                01-May-02
Representative, New York Allegation of retaliation                                                 02-May-02
Representative, California Request for information                                                 09-May-02
Senator, California         Request for information regarding an arbitration                       24-May-02
Senator, Maine              Allegation of breach of contract and related abuse and retaliation     24-May-02
Representative and          Allegation of harassment, hostile work environment and mismanagement 05-Jun-02
Senators, Maryland

                                                                                                                  PAGE 115
           Requestor                   Allegations/Concern                                                         Response Date
           Senator, Montana            Allegation of sexual harassment                                               12-Jun-02
           Representative, Louisiana   Allegation of hostile work environment                                        17-Jun-02
           Representative, Louisiana   Allegation of hostile work environment and poor customer service              17-Jun-02
           Senator, Tennessee          Allegation of hostile work environment                                        17-Jun-02
           Senator, Maine              Allegation of hostile work environment and sex discrimination                  12-Jul-02
           Representative, Indiana     Allegation of health and safety issues                                         21-Jul-02
           Representative, Texas       Allegation of disregard for medical restriction                                26-Jul-02
           Representative, New York Allegation of hostile work environment                                            26-Jul-02
           Senator, Tennessee          Allegation of discrimination and harassment                                    26-Jul-02
           Representative, Florida     Allegation of retaliation and other employment concerns                        29-Jul-02
           Representative, California Allegation of improper conduct by an employee                                 16-Aug-02
           Representative,             Allegation of discrimination                                                 19-Aug-02
           Pennsylvania
           Senator, Colorado           Allegation of improper personnel practices                                    03-Sep-02
           Senator, North Carolina     Allegation of improper computation of retirement benefits                     10-Sep-02

           OVERSIGHT OF INSPECTION SERVICE
           Requestor                   Allegations/Concern                                                         Response Date
           Senator, Alabama            Allegation of improper investigation                                          29-Apr-02
           Senator, Minnesota          Allegation of misconduct by Postal Inspectors                                 17-Jun-02
           Representative, Indiana     Allegation of improper removal                                               02-Aug-02
           Senator, Tennessee          Allegation of hostile work environment within an                             16-Aug-02
                                       Inspection Service group

           OTHER SIGNIFICANT ISSUES
           Requestor                   Allegations/Concern                                                         Response Date
           Representative, Louisiana   Allegation of unfair treatment in the Department of                           15-Apr-02
                                       Labor claims process
           Representative, Georgia     Request for information concerning OIG employment                             24-Apr-02
           Representative, New York Request for status of complaint                                                  26-Apr-02
           Representative, Indiana     Suggestions for review of program improvement                                 05-Jun-02
           Senator, Tennessee          Request for information                                                        19-Jul-02
           Representative, Texas       Request for information                                                      02-Aug-02


           GOVERNORS
           PERFORMANCE
           Requestor                   Allegations/Concern                                                         Response Date
           Governor                    Request for review of mail recovery center sales of damaged or lost items     23-Apr-02

           FINANCIAL MANAGEMENT
           Requestor                   Allegations/Concern                                                         Response Date
           Governor                    Request for review of an operating agreement                                  04-Jun-02
           Governor                    Request for review of excess property disposal                                 29-Jul-02




PAGE 116   APPENDICES
                    ,




THIS PAGE TEARS OUT FOR YOUR CONVENIENCE
Notes
Notes
Notes
